______________________________________
No. ________________________
______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
KENNETH RANDALE DOOR, PETITIONER,
vs.
UNITED STATES, RESPONDENT.
______________________________________
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
______________________________________
Petitioner, through counsel, asks leave to file the attached Petition for
Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
without prepayment of costs and to proceed in forma pauperis. Counsel was
appointed in the court of appeals under the Criminal Justice Act, 18 U.S.C. §
3006A(b). This motion is brought pursuant to Rule 39.1 of the Rules of the
Supreme Court of the United States.
Respectfully submitted,
September 21 , 2021

s/Carlton F. Gunn
CARLTON F. GUNN
Attorney at Law

______________________________________
No. ________________________
______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________________________
KENNETH RANDALE DOOR, PETITIONER,
vs.
UNITED STATES, RESPONDENT.
__________________________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
___________________________
PETITION FOR WRIT OF CERTIORARI
______________________________________

CARLTON F. GUNN
Attorney at Law
65 North Raymond Ave., Suite 320
Pasadena, California 91103
Attorney for the Petitioner

QUESTION PRESENTED

Is review of a claim that the evidence was insufficient to establish the
knowledge of status required by Rehaif v. United States, 139 S. Ct. 2191
(2019), limited to review for plain error when the defendant did not make a
specific Rehaif argument but did make a general motion for judgment of
acquittal?

i

TABLE OF CONTENTS
PAGE
I.

OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

II.

JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

III.

STATUTORY PROVISIONS INVOLVED. . . . . . . . . . . . . . . . . . . . . . 2

IV.

STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

V.

VI.

A.

JURISDICTION IN THE COURTS BELOW... . . . . . . . . . . . . . 3

B.

FACTS MATERIAL TO CONSIDERATION OF THE
QUESTION PRESENTED.. . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
1.

Conviction and Prior Appeals.. . . . . . . . . . . . . . . . . . . . . . 3

2.

Current Appeal.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

REASONS FOR GRANTING THE PETITION. . . . . . . . . . . . . . . . . . 9
A.

THE COURT SHOULD GRANT THE PETITION BECAUSE
THE PANEL OPINION CREATES A CIRCUIT SPLIT ON THE
QUESTION PRESENTED AND THE QUESTION IS
IMPORTANT.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

B.

THE COURT SHOULD GRANT THE PETITION BECAUSE IT
IS THE POSITION OF THE OTHER CIRCUITS THAT IS
CORRECT... . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

CONCLUSION.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

APPENDIX 1 (Court of Appeals Opinion). . . . . . . . . . . . . . . . . . . . . . . . A001
APPENDIX 2 (Order Denying Rehearing).. . . . . . . . . . . . . . . . . . . . . . . . A030
APPENDIX 3 (portions of transcript reflecting Petitioner’s motions for
judgment of acquittal and denial of motions by district court). . . . . . . A031
APPENDIX 4 (Appellant’s Opening Brief [relevant portions]).. . . . . . . . . . A035
APPENDIX 5 (Answering Brief of United States [relevant portions]). . . . . A049
APPENDIX 6 (Appellant’s Reply Brief [relevant portions]). . . . . . . . . . . . A080
ii

APPENDIX 7 (Supplemental Letter Brief of United States). . . . . . . . . . . . A096
APPENDIX 8 (Appellant’s Supplemental Letter Brief). . . . . . . . . . . . . . . . A106
APPENDIX 9 (Petition for Rehearing and Suggestion for Rehearing En Banc
[without duplicative attachment]). . . . . . . . . . . . . . . . . . . . . . . . . . A118

iii

TABLE OF AUTHORITIES
CASES
PAGE
Cesario v. United States,
200 F.2d 232 (1st Cir. 1952). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Greer v. United States,
141 S. Ct. 2090 (2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 8, 9, 13
Jimenez v. Quarterman,
555 U.S. 113 (2009). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Landgraf v. USI Film Products,
511 U.S. 244 (1994). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Puckett v. United States,
556 U.S. 129 (2009). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Ratzlaf v. United States,
510 U.S. 135 (1994). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
Rehaif v. United States,
139 S. Ct. 2191 (2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Russello v. United States,
464 U.S. 16 (1983). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Skilling v. United States,
561 U.S. 358 (2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
United States v. Argueta-Rosales,
819 F.3d 1149 (9th Cir. 2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . 15, 16
United States v. Bruno,
661 F.3d 733 (2d Cir. 2011). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Door,
647 Fed. Appx. 755 (9th Cir.) (unpublished),
amended, 668 Fed. Appx. 784 (9th Cir. 2016) (unpublished). . . . . . . . . . 4
United States v. Door,
656 Fed. Appx. 376 (9th Cir. 2016) (unpublished). . . . . . . . . . . . . . . . . 4
iv

TABLE OF AUTHORITIES (cont’d)
CASES (cont’d)
PAGE
United States v. Door,
917 F.3d 1146 (9th Cir.),
cert. denied, 140 S. Ct. 120 (2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Gjurashaj,
706 F.2d 395 (2d Cir. 1983). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Graf,
610 F.3d 1148 (9th Cir. 2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Johnson,
979 F.3d 632 (9th Cir. 2020),
cert. denied, No. 20-7194, 2021 U.S. LEXIS 3215
(U.S. June 21, 2021). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
United States v. Jones,
174 F.3d 746 (7th Cir. 1949). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Kim,
65 F.3d 123 (9th Cir. 1995). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
United States v. Liu,
731 F.3d 982 (9th Cir. 2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
United States v. Maez,
960 F.3d 949 (7th Cir. 2020),
cert. denied, No. 20-6129, 2021 U.S. LEXIS 3291
(U.S. June 21, 2021). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. Nasir,
982 F.3d 144 (3d Cir. 2020),
petition for cert. pending, No. 20-1522 (filed April 30, 2021). . . . . . . . 17
United States v. Navarro Viayra,
365 F.3d 790 (9th Cir. 2004). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 14
United States v. Owens,
966 F.3d 700 (8th Cir. 2020),
cert. denied, No. 20-6098, 2021 U.S. LEXIS 3207
(U.S. June 21, 2021). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
v

TABLE OF AUTHORITIES (cont’d)
CASES (cont’d)
PAGE
United States v. Staggers,
961 F.3d 745 (5th Cir.),
cert. denied, 141 S. Ct. 388 (2020). . . . . . . . . . . . . . . . . . . . . . . . . 11, 17
United States v. Vazquez,
53 F.3d 1216 (11th Cir. 1995). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Wallen,
874 F.3d 620 (9th Cir. 2017). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
United States v. Weems,
49 F.3d 528 (9th Cir. 1995). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
United States v. Wynn,
61 F.3d 921 (D.C. Cir. 1995). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Wilson v. United States,
250 F.2d 312 (9th Cir. 1957). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 17
STATUTES AND GUIDELINES
18 U.S.C. § 842(i)(1).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
18 U.S.C. § 922(g). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 6
18 U.S.C. § 922(g)(1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4, 6
18 U.S.C. § 922(g)(5)(A). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
18 U.S.C. § 924(a)(2). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4, 5
18 U.S.C. § 924(a)(7). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4, 6
18 U.S.C. § 924(e). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
18 U.S.C. § 931(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4, 6
18 U.S.C. § 1346. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

vi

TABLE OF AUTHORITIES (cont’d)
STATUTES AND GUIDELINES (cont’d)
PAGE
18 U.S.C. § 3231. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
18 U.S.C. § 5324. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1291. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Rule 23(c), Federal Rules of Criminal Procedure. . . . . . . . . . . . . . . . . . . . . . 17
Rule 29, Federal Rules of Criminal Procedure . . . . . . . . . . . . . . . . . 3, 10, 12, 13
Rule 30, Federal Rules of Criminal Procedure. . . . . . . . . . . . . . . . . . . . . . . . 16
Rule 51, Federal Rules of Criminal Procedure. . . . . . . . . . . . . . . . . . . . . . . . 13
Rule 52, Federal Rules of Criminal Procedure. . . . . . . . . . . . . . . . . . . . . . 13, 16
Rule 7(b)(1), Federal Rules of Civil Procedure. . . . . . . . . . . . . . . . . . . . . . . . 13
Rule 50(a)(2), Federal Rules of Civil Procedure. . . . . . . . . . . . . . . . . . . . . . . 13
OTHER AUTHORITIES
Charles Alan Wright and Arthur R. Miller, Federal Practice and Procedure:
Criminal (4th ed. 2009).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 13, 17
Fed. R. Crim. Pro. 47 advisory committee’s note. . . . . . . . . . . . . . . . . . . . . . 14
Lon Fuller, The Morality of Law (1964). . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

vii

_____________________________________
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_____________________________________

Kenneth Randale Door petitions for a writ of certiorari to review the
judgment and opinion of the United States Court of Appeals for the Ninth
Circuit in his case.

I.
OPINIONS BELOW

The opinion of the United States Court of Appeals for the Ninth Circuit,
which is also published at 996 F.3d 606, is included in the appendix as
Appendix 1. An order denying a petition for rehearing en banc is included as
Appendix 2. The portions of transcript reflecting Petitioner’s motion for
judgment of acquittal and the district court’s denial of that motion are included
as Appendix 3.

II.
JURISDICTION

The judgment of the United States Court of Appeals for the Ninth
1

Circuit was entered on April 28, 2001, see App. A001, and a timely petition
for rehearing en banc was denied on August 11, 2021, see App. A030. The
jurisdiction of this Court is invoked pursuant to 62 Stat. 928, 28 U.S.C. §
1254(1).

III.
STATUTORY PROVISIONS INVOLVED

18 U.S.C. § 922(g) provides, in pertinent part:
It shall be unlawful for any person—
(1) who has been convicted in any court of,
a crime punishable by imprisonment for a term
exceeding one year;
...
to . . . possess in or affecting commerce, any firearm or
ammunition; . . . .
(g)

18 U.S.C. § 924(a) provides, in pertinent part:
(2) Whoever knowingly violates subsection (a)(6),
(d), (g), (h), (i), (j), or (o) of section 922 shall be fined as
provided in this title, imprisoned not more than 10 years, or
both.
...
(7) Whoever knowingly violates section 931 shall
be fined under this title, imprisoned not more than 3 years,
or both.
...
18 U.S.C. § 931 provides, in pertinent part:
(a) In general.—Except as provided in subsection
(b), it shall be unlawful for a person to purchase, own, or
possess body armor, if that person has been convicted of a
felony that is—
(1) a crime of violence (as defined in
section 16); or;
(2) an offense under State law that would
constitute a crime of violence under paragraph (1) if
2

it occurred within the special maritime and territorial
jurisdiction of the United States.
...
Rule 29(a) of the Federal Rules of Criminal Procedure provides, in
pertinent part:
(a) Before Submission to the Jury. After the
government closes its evidence or after the close of all the
evidence, the court on the defendant’s motion must enter a
judgment of acquittal of any offense for which the evidence
is insufficient to sustain a conviction. The court may on its
own consider whether the evidence is insufficient to sustain
a conviction. If the court denies a motion for a judgment of
acquittal at the close of the government’s evidence, the
defendant may offer evidence without having reserved the
right to do so.

IV.
STATEMENT OF THE CASE

A.

JURISDICTION IN THE COURTS BELOW.

The district court had jurisdiction under 18 U.S.C. § 3231. The court of
appeals had jurisdiction under 28 U.S.C. § 1291.

B.

FACTS MATERIAL TO CONSIDERATION OF THE QUESTION

PRESENTED.

1.

Conviction and Prior Appeals.

In the fall of 2011, pistols, ballistic vests, and an explosive device

3

known as a “seal bomb,” which fishermen use to scare away marine mammals,
were discovered in a search of Petitioner’s home. See App. A037. Petitioner
was charged with possession of a firearm after having been convicted of a
felony, in violation of 18 U.S.C. § 922(g)(1) and 18 U.S.C. § 924(a)(2);
possession of body armor after having been convicted of a crime of violence,
in violation of 18 U.S.C. § 931(a) and 18 U.S.C. § 924(a)(7); and possession
of an explosive after having been convicted of a felony, in violation of 18
U.S.C. § 842(i)(1). See App. A038, A127. He proceeded to trial and was
convicted of all counts. See App. A038, A127. The district court found him to
be an armed career criminal under 18 U.S.C. § 924(e) – based on convictions
for burglary, assault, and attempting to elude a police officer – and sentenced
him to 25 years in prison.1 See App. A039-40.
Petitioner appealed both the sentence and the denial of two motions to
suppress evidence. The Court affirmed the convictions, but vacated the armed
career criminal finding, vacated several sentencing guideline enhancements,
and remanded for resentencing. See United States v. Door, 656 Fed. Appx.
376 (9th Cir. 2016) (unpublished); United States v. Door, 647 Fed. Appx. 755,
756 (9th Cir.) (unpublished), amended, 668 Fed. Appx. 784 (9th Cir. 2016)
(unpublished). On remand, the district court imposed a slightly shorter
sentence of 23 years in prison, see App. A128, which was the longest sentence

1

18 U.S.C. § 924(e), also known as the Armed Career Criminal Act,
increases the maximum sentence for felon in possession of a firearm from 10
years to life and sets a mandatory minimum sentence of 15 years when the
defendant has three prior convictions for a “violent felony” or “controlled
substance offense.”
4

it could impose,2 and Petitioner appealed again. See United States v. Door,
917 F.3d 1146 (9th Cir.), cert. denied, 140 S. Ct. 120 (2019). This sentence
also was vacated, based on erroneous categorization of Petitioner’s assault
convictions as “crimes of violence” under the sentencing guidelines. See id. at
1154-55.

2.

Current Appeal.

The district court imposed the same statutory maximum sentence on
remand, based on a greater upward variance from the sentencing guideline
range, and Petitioner again appealed. See App. A001-29. Two of the claims
raised were sentencing claims – challenging a sentencing guideline
“obstruction of justice” enhancement and the reasonableness of the upward
variance. See App. A003, A009. But there was also a new challenge to the
convictions for possession of a firearm after having been convicted of a felony
and possession of body armor after having been convicted of a crime of
violence – based on the intervening decision in Rehaif v. United States, 139 S.
Ct. 2191 (2019). See App. A009, A042-47. Rehaif held the word
“knowingly” in 18 U.S.C. § 924(a)(2) – which adds the mens rea element and
sets the sentence for unlawful possession of a firearm by classes of persons
listed in 18 U.S.C. § 922(g) – modifies both the possession element and the

2

The sentence consisted of consecutive statutory maximum sentences
of 10 years on the felon in possession of a firearm count, 10 years on the felon
in possession of explosives count, and 3 years on the violent felon in
possession of body armor count. See App. A128 n.4.
5

status element in § 922(g), so a defendant charged with being a felon in
possession of a firearm both must have known he possessed a firearm and
must have known he had been convicted of a felony. See App. A010-11
(discussing Rehaif).3 And Petitioner argued Rehaif’s reasoning extends to use
of the word “knowingly” in § 924(a)(7), which adds the mens rea element and
sets the penalty for possession of body armor by persons convicted of a crime
of violence in violation of 18 U.S.C. § 931(a). See App. A044-45.
The Rehaif challenge had three prongs – a challenge to the sufficiency
of the evidence, a challenge to the indictment, and a challenge to the jury
instructions. See App. A043-47. For the second and third of these – the
challenges to the indictment and jury instructions – Petitioner conceded review
was limited to review for plain error, because there was no objection to the
indictment or jury instructions. See App. A042. But he argued review was de
novo for the sufficiency of evidence challenge, based on a general motion for
judgment of acquittal he had made at trial. See App. A042.
The government agreed the sufficiency of evidence challenge was
reviewed de novo, see App. A061, but argued the evidence was sufficient. For
both convictions, it argued the only evidence presented – a stipulation that
Petitioner in fact had a prior conviction for a felony and a prior conviction for
a crime of violence – was sufficient to show he knew he had such convictions.
3

The defendant in Rehaif was an alien unlawfully in the United States,
which is included by § 922(g)(5)(A), but the Court extended its reasoning by
example to the more common class of felons – or, in the language of the
statute, persons “convicted of . . . a crime punishable by imprisonment
exceeding one year,” 18 U.S.C. § 922(g)(1). See Rehaif, 139 S. Ct. at 2198.
See also Greer v. United States, 141 S. Ct. 2090, 2095 (2021) (reading Rehaif
as including the felon-in-possession offense).
6

See App. A070-71. For the body armor conviction, it added a preliminary
argument that the only knowledge required was knowledge the conviction was
for a felony, not knowledge it was for a crime of violence. See App. A062-66.
Petitioner argued in response that the stipulation to status was not sufficient to
establish knowledge of the status and the knowledge required for the body
armor conviction was full knowledge of the crime of violence status. See App.
A086-88.
After the case was argued, the Ninth Circuit issued United States v.
Johnson, 979 F.3d 632 (9th Cir. 2020), cert. denied, No. 20-7194, 2021 U.S.
LEXIS 3215 (U.S. June 21, 2021). Johnson considered a Rehaif challenge to
the sufficiency of evidence in a bench trial, in which sufficiency challenges are
preserved even without a motion for judgment of acquittal. See Johnson, 979
F.3d at 635-36. The Ninth Circuit held review was limited to review for plain
error despite this, on the theory that a sufficiency of evidence challenge based
on an intervening change in the law is “best understood not as a challenge to
the sufficiency of the evidence, but rather as a claim that the district court
applied the wrong legal standard in assessing [the defendant’s] guilt –
specifically, by omitting the knowledge-of-status element required under
Rehaif.” Johnson, 979 F.3d at 636.
The panel in Petitioner’s case ordered supplemental briefing on the
effect of Johnson. The government withdrew its concession that the
sufficiency of evidence claim should be reviewed de novo and argued Johnson
limited review to plain error review. See App. A096-105. Petitioner argued
the government had waived this argument and Johnson was limited to bench
trials in any event. See App. A106-17. He also reserved the right to challenge
7

Johnson en banc. See App. A107.
The panel rejected Petitioner’s arguments, held it was bound by
Johnson, and reviewed only for plain error. See App. A018.4 This had two
effects that led the panel to affirm the convictions. First, it meant Petitioner
bore the burden rather than the government – specifically, he “bears the burden
of offering ‘a plausible basis for concluding that an error-free retrial might end
more favorably.’” App. A019 (quoting Johnson, 979 F.3d at 637). See also
Greer v. United States, 141 S. Ct. 2090, 2097 (2021) (noting that “the
defendant has the burden of establishing each of the four requirements for
plain-error relief” and “[s]atisfying all four prongs of the plain-error test ‘is
difficult’” (quoting Puckett v. United States, 556 U.S. 129, 135 (2009)).
Second, it meant the panel could look outside the trial record of just the
stipulation – to the details of Petitioner’s prior record. See App. A019 (“In
reviewing for plain error, we may examine the entire record on appeal.”); App.
A022 (reiterating that “our review is not limited to the record adduced at trial”
and discussing details of prior convictions). See also Greer, 141 S. Ct. at 2098
(also recognizing that appellate court conducting plain-error review may
consider entire record). With this broader review and the shifted burden, the
panel found Petitioner had not satisfied the fourth prong of the plain error
standard. See App. A023.
Petitioner filed a petition for rehearing and suggestion for rehearing en
banc. See App. A118-40. He argued the en banc court should reconsider

4

The panel did agree Rehaif extended to the possession of body armor
provisions and required the defendant to know he had been convicted of a
crime of violence. See App. A013-14.
8

Johnson because (1) Johnson created a split in the circuits on an important
issue and (2) it is the position of the other circuits that is correct. See App.
A119-20, A126, A132-37. The petition for rehearing was denied in spite of
this. See App. A030.

V.
REASONS FOR GRANTING THE PETITION

This petition presents a question about the standard of review of a
Rehaif claim not presented and thus not decided in this Court’s recent opinion
in Greer v. United States, 141 S. Ct. 2090 (2021). Greer considered only a
Rehaif instructional error, and both parties agreed that plain error review
applied to that claim. See id. at 2096, 2098. But see id. at 2099 (noting and
rejecting argument by petitioner in jointly decided case of United States v.
Gary, No. 20-444, that plain error review does not apply when defendant has
entered guilty plea). The question presented here is whether review of a
sufficiency of evidence claim is limited to plain error review when the
defendant did not make a specific Rehaif argument, but did make a general
motion for judgment of acquittal.
The Court should grant review and decide this question for several
reasons. First, the Ninth Circuit opinions in the present case and the Johnson
case the panel deemed controlling create a split in the circuits. Second, the
question presented is important because it will be implicated in the vast
majority of cases raising a Rehaif sufficiency of evidence claim, as well as
most other cases in which there is a post-trial narrowing of the scope of a
9

criminal statute. Third, it is the view of the other circuits, not the view of the
Ninth Circuit, that is correct.

A.

THE COURT SHOULD GRANT THE PETITION BECAUSE THE

PANEL OPINION CREATES A CIRCUIT SPLIT ON THE QUESTION
PRESENTED AND THE QUESTION IS IMPORTANT.

The first reason to grant review is that the Ninth Circuit’s holding in
Petitioner’s case and the Johnson case creates a square conflict with holdings
in other circuits. Two circuits have held – and another has assumed – that the
ordinary de novo standard of review applies to Rehaif sufficiency of evidence
challenges where the defendant made a general motion for judgment of
acquittal in the district court. The Seventh Circuit so held in United States v.
Maez, 960 F.3d 949 (7th Cir. 2020), cert. denied, No. 20-6129, 2021 U.S.
LEXIS 3291 (U.S. June 21, 2021), and explained its holding as follows:
[The defendant] moved for judgment of acquittal
under Rule 29 in the district court. His motion was general.
He asserted only that “the Government has not presented
sufficient evidence to prove their case beyond a reasonable
doubt.” Without asking [the defendant] to elaborate, the
district court denied the motion, which was clearly the
correct decision under then-governing circuit precedent.
This short exchange preserved all possible
challenges to the sufficiency of the evidence, including the
post-Rehaif argument that the government failed to prove
that [the defendant] knew his felony status. A motion
under Rule 29 that makes specific arguments waives issues
not presented, but a general motion preserves every
objection.
Id. at 958-59.
The Fifth Circuit took the same position, without even seeing a need to

10

explain, in United States v. Staggers, 961 F.3d 745 (5th Cir.), cert. denied, 141
S. Ct. 388 (2020). It stated: “We review the sufficiency of the evidence de
novo, however, because [the defendant] made general objections to the
sufficiency of the evidence.” Id. at 754. The Eighth Circuit then assumed the
same rule for the sake of analysis in United States v. Owens, 966 F.3d 700 (8th
Cir. 2020), cert. denied, No. 20-6098, 2021 U.S. LEXIS 3207 (U.S. June 21,
2021), stating that “we will assume for the sake of analysis that the general
motions [for judgment of acquittal] were sufficient to preserve a sufficiency
challenge on the knowledge element.” Id. at 709.
Other circuits have applied the ordinary standard to sufficiency
challenges based on other changes in the law while appeals were pending. The
Second Circuit used the de novo standard in considering a challenge to the
sufficiency of the evidence based on a change in interpretation, in Skilling v.
United States, 561 U.S. 358 (2010), 561 U.S. 358 (2010), of 18 U.S.C. § 1346,
the honest services fraud statute. See United States v. Bruno, 661 F.3d 733,
743 (2d Cir. 2011). The Eleventh Circuit used the de novo standard in
considering a challenge to the sufficiency of the evidence based on a change in
interpretation, in Ratzlaf v. United States, 510 U.S. 135 (1994), of 18 U.S.C. §
5324, the currency transaction structuring statute. See United States v.
Vazquez, 53 F.3d 1216, 1218, 1224 (11th Cir. 1995). The D.C. Circuit
implicitly did the same in United States v. Wynn, 61 F.3d 921 (D.C. Cir. 1995).
See id. at 923 (not listing de novo standard of review, but listing other aspects
of ordinary standard for reviewing sufficiency of evidence challenges). These
cases bring to five the number of circuits which have taken a different
approach than the Ninth Circuit.
11

The question presented is also an important one, because of the number
of cases it will affect. It is standard practice to make a general motion for
judgment of acquittal at the end of a jury trial, and that means there will be
such a motion in the vast majority of cases raising a Rehaif sufficiency of
evidence claim. The holding will also affect every other case in which there is
a post-trial interpretation that narrows the scope of a criminal statute – such as
the Skilling and Ratzlaf cases which triggered the sufficiency of evidence
challenges in the Second Circuit, Eleventh Circuit, and D.C. Circuit cases just
cited.
There is also a need for national uniformity. Relief for a felon in
possession defendant raising a Rehaif claim – or other defendants for whom
there is a post-trial change in the law – should not depend on the happenstance
of which circuit the defendant was prosecuted in. The same standard should
apply to all defendants.

B.

THE COURT SHOULD GRANT THE PETITION BECAUSE IT IS

THE POSITION OF THE OTHER CIRCUITS THAT IS CORRECT.

Another reason to grant review is that it is the position of the other
circuits that is correct. It is hornbook law that “[s]pecificity is not required by
Rule 29,” which is the rule governing motions for judgment of acquittal. 2A
Charles Alan Wright and Arthur R. Miller, Federal Practice and Procedure:
Criminal § 466 (4th ed. 2009). See also United States v. Navarro Viayra, 365
F.3d 790, 793 (9th Cir. 2004) (collecting cases from other circuits holding
motions for judgment of acquittal “do not need to state the grounds upon
12

which they are based because ‘the very nature of such motions is to question
the sufficiency of the evidence to support a conviction’” (quoting United
States v. Gjurashaj, 706 F.2d 395, 399 (2d Cir. 1983)). As explained in an
opinion by then-Judge, later Justice, Minton:
[A motion for judgment of acquittal] is a challenge to the
Government in the presence of the court that the
Government has failed in its proof. The motion is not
required by the rules to be in writing or to specify the
grounds therefor. That in itself would indicate that the
defendant is not required to go over the proof for the
benefit of the Government or the court, in the absence of
some request for more specific objection.
United States v. Jones, 174 F.3d 746, 748 (7th Cir. 1949).
This view arises out of the text of Rule 29, which is what interpretation
of the rule must begin with, Jimenez v. Quarterman, 555 U.S. 113, 118 (2009)
(“As with any question of statutory interpretation, our analysis begins with the
plain language of the statute.”); see, e.g., Greer, 141 S. Ct. at 2099 (focusing
on text of Rule 52, governing plain error and harmless error review, and text of
Rule 51, requiring contemporaneous objections). Rule 29 places no
requirements on motions for judgment of acquittal. See Fed. R. Crim. Pro.
29(a) (referring to “the defendant’s motion” and “a motion,” and placing no
requirements on form or content of motion). This contrasts with
corresponding civil rules – such as Federal Rule of Civil Procedure 7(b)(1),
which requires motions to “state with particularity the grounds for seeking the
order,” and Federal Rule of Civil Procedure 50(a)(2), which requires motions
for judgment as a matter of law to “specify the judgment sought and the law
and facts that entitle the movant to the judgment.” See 2A Wright and Miller,
supra p. 12, § 466 (noting that “the Criminal Rules differ from the Civil

13

Rules”). This contrast triggers the principle that omission of language in one
provision that is included in another is presumed to be intentional, see
Russello v. United States, 464 U.S. 16, 23 (1983). And in this instance the
advisory committee’s note directly expresses such intent, by describing the
criminal rule as “substantially the same” as the civil rules, “except that it . . .
does not require that the grounds upon which a motion is made shall be stated
‘with particularity.’” Fed. R. Crim. Pro. 47 advisory committee’s note.
It is also unfair to defendants and their counsel to announce a different
rule after the fact. It is “the absurdity of commanding a man today to do
something yesterday.” Lon Fuller, The Morality of Law 59 (1964), cited with
approval in Landgraf v. USI Film Products, 511 U.S. 244, 265 n.18 (1994).
And failure to make a specific objection at the time of trial was not a careless
mistake, but wise strategy. There is good reason for a defendant not to make
specific arguments in a motion for judgment of acquittal, because making
specific arguments waives other arguments. Compare Navarro Viayra, 365
F.3d at 793 (general motion preserves all grounds), with United States v. Graf,
610 F.3d 1148, 1166 (9th Cir. 2010) (arguing specific ground waives all other
grounds). For all the courts and appellate counsel know, trial counsel
considered the argument made in Rehaif and refrained from specifically
making it, in reliance on the foregoing general rule, only because he did not
want to waive other arguments he might not have thought of.
This unfairness is enhanced – indeed, made almost perverse – when one
considers the different treatment of a post-Rehaif defendant raising a claim of
insufficient evidence based on Rehaif. That defendant – under the well
established general rule that a motion for judgment of acquittal at least usually
14

does not need to specify its grounds – would be entitled to ordinary de novo
review of his claim. That would mean a post-Rehaif defendant who did have
reason to make a specific Rehaif argument, but either deliberately or
inadvertently chose not to do so, would be treated more favorably than a preRehaif defendant who did not have reason to make a specific Rehaif argument.
Ninth Circuit case law cited in Johnson – even if this Court were to
agree with it – does not compel the Ninth Circuit’s holding. First, United
States v. Weems, 49 F.3d 528 (9th Cir. 1995), and United States v. Kim, 65
F.3d 123 (9th Cir. 1995), which Johnson cited in support of its conclusion that
the Rehaif sufficiency challenge is “best understood not as a challenge to the
sufficiency of the evidence, but rather as a claim that the district court applied
the wrong legal standard,” id., 979 F.3d at 636 (citing Weems and Kim), do not
compel that conclusion. Those cases held only that the Double Jeopardy
Clause does not preclude a retrial where the law at the time of the first trial
gave the government no reason to introduce evidence required by subsequent
case law. See Weems, 49 F.3d at 530-31. See also Kim, 65 F.3d at 126-27
(simply following Weems). This appropriately prevents unfairness to the
government in the form of not requiring evidence that was not required at the
time of trial. But it does not require unfairness to the defense in the form of
overriding the well established effect of a general motion for judgment of
acquittal. A general motion for judgment of acquittal should not have a
greater effect than it would in the absence of the new case law, but it should
not have a lesser effect either.
Johnson also overstated the holdings of cases such as United States v.
Argueta-Rosales, 819 F.3d 1149 (9th Cir. 2016), when it stated a district
15

court’s legal error regarding the elements of the offense in a bench trial “is
reviewed in the same way we review an erroneous jury instruction regarding
the elements of the offense.” Johnson, 979 F.3d at 636 (citing ArguetaRosales, 819 F.3d at 1156). The jury cases are not directly applicable, but are
merely “analogous” and furnish “guideposts.” Wilson v. United States, 250
F.2d 312, 324 (9th Cir. 1957), cited in Argueta-Rosales, 819 F.3d at 1156.
The only jury instruction standard the cases have actually carried over to
bench trials is the demanding standard requiring it to be “clear beyond a
reasonable doubt” that the error did not affect the verdict. Argueta-Rosales,
819 F.3d at 1156 (quoting United States v. Liu, 731 F.3d 982, 992 (9th Cir.
2013)). See also United States v. Wallen, 874 F.3d 620, 633 (9th Cir. 2017).
The requirement of legal objections has not been carried over, and it
should not be in light of its source. That source is Rule 30 of the Federal
Rules of Criminal Procedure, which governs only jury instructions, and (1)
requires “request[s] in writing that the court instruct the jury on the law,” Fed.
R. Crim. Pro. 30(a); (2) requires “specific objection and the grounds for the
objection” to erroneous instructions, Fed. R. Crim. Pro. 30(d); and (3) provides
that “[f]ailure to object in accordance with this rule precludes appellate review,
except as permitted under Rule 52(b) [for plain error],” id. This contrasts with
the rule governing nonjury trials – Rule 23(c) – which requires only a request
for “findings of fact.” Fed. R. Crim. Pro. 23(c) (emphasis added). See Cesario
v. United States, 200 F.2d 232 (1st Cir. 1952) (noting with apparent approval
trial judge’s refusal to rule on “requests for rulings” because “superfluous to
give such instructions to himself,” and describing Rule 30 as “a rule which
obviously has reference only to cases tried to a jury”), cited with approval in
16

Wilson, 250 F.2d at 325; 2 Wright and Miller, supra p. 12, § 374 (“A request
for special findings of fact is the appropriate way to preserve for appeal a
contention that the court applied an erroneous standard of law.”).
The prior opinion which the panel in Petitioner’s appeal here found
controlling is thus flawed. It not only conflicts with the holdings of other
circuits – at least when extended to Petitioner’s jury trial case5 – but is wrong.6
5

An argument could be made – and was made by Petitioner – that the
Johnson opinion does not extend to jury trials, see App. A109-11, A138-39,
but that argument was rejected, see App. A018.
6

There remains a question of whether the stipulation to status alone
would have been sufficient for a reasonable jury to find the knowledge
required by Rehaif beyond a reasonable doubt, but the panel in Petitioner’s
case expressly declined to rely on the stipulations alone. See App. A022
(stating that “we do not rest our decision on Door’s stipulation alone” and
looking outside the trial record as permitted by plain error standard). Whether
the stipulation alone is sufficient should be decided by the court of appeals in
the first instance – for two reasons. First, the Ninth Circuit has not yet taken a
clear position on this question, and other courts of appeals are divided.
Compare United States v. Nasir, 982 F.3d 144, 172-73 (3d Cir. 2020) (holding
that stipulation to status “will not, on its own, suffice to prove that, at the
relevant time, the defendant had knowledge of his status as a person prohibited
to possess a firearm,” because “[a]ll the stipulation demonstrates is that [the
defendant] knew he was a felon at the time he signed the stipulation”), petition
for cert. pending, No. 20-1522 (filed April 30, 2021), with United States v.
Staggers, 961 F.3d at 757 (holding that “absent any evidence suggesting
ignorance, a jury applying the beyond-a-reasonable-doubt standard could infer
that a defendant knew that he or she was a convicted felon from the mere
existence of a felony conviction”). Second, the assumption that a person who
has been convicted of a felony would know he had been convicted of a felony
because such a conviction is “a major life event,” App. A021, does not so
readily extend to the knowledge of the “crime of violence” status which is
required for Petitioner’s violent felon in possession of body armor conviction,
see App. A013-14. Assuming a defendant would understand all the nuances of
how and why his conduct qualified as a “crime of violence” should not be so
17

VI.
CONCLUSION

The Court should grant the Petition.

Respectfully submitted,

DATED: September 21 , 2021

s/ Carlton F. Gunn
CARLTON F. GUNN
Attorney at Law

readily assumed.
18

APPENDIX 1

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 1 of 29

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No. 19-30213

v.

D.C. No.
3:12-cr-05126-RBL-1

KENNETH RANDALE DOOR,
Defendant-Appellant.

OPINION

Appeal from the United States District Court
for the Western District of Washington
Ronald B. Leighton, District Judge, Presiding
Argued and Submitted September 4, 2020
Seattle, Washington
Filed April 28, 2021
Before: Jay S. Bybee and Daniel P. Collins, Circuit
Judges, and James Alan Soto,* District Judge.
Opinion by Judge Bybee

*

The Honorable James Alan Soto, United States District Judge for the
District of Arizona, sitting by designation.

A001

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 2 of 29

2

UNITED STATES V. DOOR
SUMMARY**

Criminal Law
The panel affirmed a criminal judgment in a case in which
Kenneth Randale Door was convicted for being a felon in
possession of a firearm (18 U.S.C. §§ 922(g)(1)) and a felon
convicted of a crime of violence in possession of body armor
(18 U.S.C. § 931(a)).
The panel held that in light of Rehaif v. United States, 139
S. Ct. 2191 (2019), the district court committed plain error by
failing to require the government to prove Door’s knowledge
of his prohibited status and omitting the knowledge element
from the indictment and jury instructions. The government
admitted that Door’s § 922(g)(1) conviction is governed by
Rehaif, but contested the application of Rehaif with respect to
his § 931(a) conviction. The government asserted that Rehaif
only requires the government to prove that a defendant knew
of his status as a felon, not that he was a felon convicted of a
crime of violence. The panel rejected this contention,
concluding that Rehaif requires the government to prove that
a defendant charged with violating § 931(a) knew he had a
felony conviction and that the felony of which he was
convicted had “as an element the use, attempted use, or
threatened use of physical force against the person or
property of another.” 18 U.S.C. § 16(a). The panel held that
Door cannot show that these errors affected the fairness,
integrity, or public reputation of the judicial proceedings.

**

This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

A002

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 3 of 29

UNITED STATES V. DOOR

3

The panel held that the district court did not clearly err in
applying an obstruction of justice enhancement pursuant to
U.S.S.G. § 3C1.1 based on Door’s pre-trial threats. The panel
rejected Door’s claims that the sentence was procedurally and
substantively unreasonable.

COUNSEL
Carlton F. Gunn; Law Office of Carlton F. Gunn, Pasadena,
California, for Defendant-Appellant.
Michael S. Morgan (argued), Assistant United States
Attorney; Brian T. Moran, United States Attorney; United
States Attorney’s Office, Seattle, Washington; for PlaintiffAppellee

OPINION
BYBEE, Circuit Judge:
Defendant Kenneth Randale Door was convicted in 2014
for being a felon in possession of a firearm and a felon
convicted of a crime of violence in possession of body armor.
Relying on the Supreme Court’s intervening opinion in
Rehaif v. United States, 139 S. Ct. 2191 (2019), Door argues
that his convictions cannot stand because the government
failed to prove, the indictment failed to allege, and the jury
instructions failed to require that he knew of his prohibited
statuses. Door further asserts that the district court erred in
applying the obstruction of justice enhancement during
sentencing. Finally, Door challenges his sentence as both
procedurally and substantively unreasonable. We have

A003

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 4 of 29

4

UNITED STATES V. DOOR

jurisdiction pursuant to 28 U.S.C. § 1291 and 18 U.S.C.
§ 3742(a). We affirm.
I. FACTS AND PROCEEDINGS
A. Search, Indictment, and Trial
Kenneth Door has an extensive criminal history, including
convictions for burglary, theft, assault, and harassment. In
2011, an informant told an agent of the Bureau of Alcohol,
Tobacco, Firearms, and Explosives that Door possessed guns
and was selling methamphetamine out of his home. Because
Door was on probation in Washington, the agent contacted a
Washington State Community Corrections officer, who
conducted a probation search of Door’s house in Tacoma.
The search revealed two pistols, multiple rounds of
ammunition for the pistols, two military grade ballistic vests,
an explosive device known as a “seal bomb,” two digital
scales, drug packaging materials, and two drug pipes
containing methamphetamine residue. Door was arrested
shortly thereafter.
While in the county jail, and before he was indicted on
federal charges, Door requested a meeting with his federal
case agent. During that visit, Door admitted that the guns,
vests, and seal bomb belonged to him. After the agent
testified at Door’s suppression hearing, Door told his attorney
that he intended to have the agent killed. The attorney asked
to be removed from the case and reported the threats to the
government. After his trial, Door made additional threats in
front of other inmates that he would have the case agent and
his former attorney killed.

A004

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 5 of 29

UNITED STATES V. DOOR

5

In March 2012, Door was indicted in United States
District Court for the Western District of Washington and
charged with being a felon in possession of a firearm in
violation of 18 U.S.C. §§ 922(g)(1), 924(a)(2), and 924(e); a
felon convicted of a crime of violence in possession of body
armor in violation of 18 U.S.C. §§ 931(a) and 924(a)(7); and,
a felon in possession of explosives in violation of 18 U.S.C.
§§ 842(i)(1) and 844(a)(1). Door entered the following
stipulation regarding his felon and violent felon status:
Prior to November 9, 2011, Kenneth Door, the
defendant herein, had been convicted of a
felony crime punishable by a term of
imprisonment exceeding one year. That is a
crime of violence, as defined by law, and
therefore was a convicted felon and a person
convicted of a felony that is a crime of
violence at the time of the events that are the
subject of this prosecution.
Door proceeded to trial and was convicted on all counts.
B. Sentencing and First Appeal
The Probation Office (Probation) recommended a base
offense level of 24 due to “at least two felony convictions of
either a crime of violence or a controlled substance offense.”
Probation also recommended a number of Sentencing
Guidelines (Guidelines) enhancements, including for
possession of a destructive device (seal bomb), possession of
a stolen firearm, possession of firearms in connection with
another felony offense (drug trafficking), and obstruction of
justice (based on Door’s threats to kill the case agent and
others). Probation also concluded that Door was an armed

A005

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 6 of 29

6

UNITED STATES V. DOOR

career criminal under the Armed Career Criminal Act
(ACCA), 18 U.S.C. § 924(e), based on his prior convictions
for attempting to elude a police vehicle, multiple seconddegree burglary convictions, and second-degree assault with
a deadly weapon.1 The enhancements, combined with Door’s
criminal history category of VI, produced a Guidelines range
of 262–327 months. Probation recommended 300 months.
Over Door’s objections, the district court found that the
enhancements and the ACCA applied and sentenced Door to
300 months.
On direct appeal, we found that the destructive device
enhancement did not apply to the seal bomb, and that the
district court made insufficient findings on the obstruction of
justice and the “in connection with another felony”
enhancements. United States v. Door, 647 F. App’x 755, 757
(9th Cir. 2016), as amended by 668 F. App’x 784 (9th Cir.
2016). We initially deferred ruling on the ACCA issue but
ultimately held that Door’s burglary convictions were not
violent felonies under the ACCA and vacated Door’s
sentence accordingly. United States v. Door, 656 F. App’x
376, 376–77 (9th Cir. 2016).
C. Re-sentencing and Second Appeal
On remand, Probation again recommended a base offense
level of 24, reasoning that Door’s prior Washington state
convictions for second-degree assault with a deadly weapon
and felony harassment constituted crimes of violence.

1

The ACCA categorization did not increase the Guidelines offense
level, but it did increase the statutory maximum sentence to life and
trigger a statutory mandatory minimum sentence of 15 years. 18 U.S.C.
§ 924(e).

A006

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 7 of 29

UNITED STATES V. DOOR

7

Probation further recommended enhancements for possession
of a stolen firearm, possession of a firearm in connection with
another felony, and obstruction of justice.
The
enhancements, coupled with Door’s criminal history category
of VI, produced a Guidelines range of 210–262 months.
Probation recommended a 276-month sentence due to Door’s
extensive criminal history.
Over Door’s objections, the district court determined at
sentencing that the second-degree assault and felony
harassment convictions qualified as crimes of violence under
the required categorical approach. The district court also
ruled that the various enhancements were supported by
sufficient evidence. During sentencing, the district court
noted its “long-standing criticism” of the categorical
approach but acknowledged that it was “duty-bound” to resentence Door in accordance with the law. The district court
imposed the recommended sentence of 276 months, followed
by 5 years of supervised release. On Door’s second appeal,
we ruled that a felony harassment conviction is a crime of
violence for Guidelines purposes but that Door’s conviction
for second-degree assault is not and remanded accordingly for
a second re-sentencing. United States v. Door, 917 F.3d
1146, 1152–55 (9th Cir. 2019).2

2

In a concurrently filed memorandum disposition, we also determined
that Door’s felony harassment conviction constitutes a crime of violence
supporting his conviction for unlawful possession of body armor, and that
the enhancement for possessing a firearm in connection with another
felony was warranted. United States v. Door, 756 F. App’x 757, 758–59
(9th Cir. 2019). We declined to order reassignment on remand. Id.

A007

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 8 of 29

8

UNITED STATES V. DOOR

D. Second Re-sentencing and Current Appeal
At the second re-sentencing, Probation recommended a
base offense level of 20 based on Door’s felony harassment
conviction. Probation also recommended enhancements for
possession of a stolen firearm, possession of a firearm in
connection with another felony, and obstruction of justice.
The enhancements, coupled with Door’s criminal history
category of VI, produced a Guidelines range of 140 to
175 months. Probation again recommended 276 months.
The government did likewise. Door objected to all the
enhancements.
At the start of the re-sentencing hearing, the district court
again expressed frustration with the categorical approach
jurisprudence. Of Door, the district court stressed, “I
consider Mr. Door to perhaps be the most dangerous
defendant I have had in 18 or 19 years . . . . He did everything
and then more to justify his sentence, with the threats.”
Before imposing the sentence, the district court made clear
that it had heard argument and reviewed all of the material
submitted from both sides. In response to defense counsel’s
argument that Door’s recent good behavior in prison merited
mitigation, the district court agreed that re-sentencing
afforded an opportunity for “a mid-course correction” but
noted that Door was being sentenced for his past behavior,
“which is very serious.” The district court further observed
that “[t]he guidelines are a guide, unless they are not.”
In imposing the sentence, the district court adopted the
factual assertions in the PSR and applied the sentencing
enhancements. Relevant to this appeal, the district court
found—over Door’s objection—that the obstruction of justice
enhancement was warranted because it involved “the worst

A008

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 9 of 29

UNITED STATES V. DOOR

9

kind of abuse of our system, including threats to officers.”
The district court then adopted the recommendation from
Probation and the government for 276 months, followed by
three years of supervised release.
In the present appeal, Door raises four issues: (1) whether
his felon in possession of firearm and violent felon in
possession of body armor convictions must be vacated
because the government failed to prove, the indictment failed
to allege, and the jury instructions failed to require that he
knew of his prohibited statuses when he possessed the
firearms and body armor, as required by Rehaif v. United
States, 139 S. Ct. 2191 (2019); (2) whether the district erred
in applying the Guideline enhancement for obstruction of
justice; (3) whether his sentence was procedurally and
substantively unreasonable; and (4) whether we should
reassign the case in the event of remand. We will consider
each issue in turn. Because we conclude that there was no
error in the first three issues raised, we need not reach the
question of reassignment, which in any event has been
mooted by the retirement of the district judge who imposed
the sentence.
II. KNOWING POSSESSION AND REHAIF
We first consider Door’s claim that the Supreme Court’s
intervening decision in Rehaif requires us to vacate his
convictions for being a felon in possession of a firearm in
violation of 18 U.S.C. § 922(g)(1)3 and a felon convicted of

3

18 U.S.C. § 922(g) makes it “unlawful for any person—(1) who has
been convicted in any court of, a crime punishable by imprisonment for
a term exceeding one year . . . to ship or transport in interstate or foreign
commerce, or possess in or affecting commerce, any firearm or

A009

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 10 of 29

10

UNITED STATES V. DOOR

a crime of violence in possession of body armor in violation
of 18 U.S.C. § 931(a)(1).4 Door asserts that the evidence
presented at trial was insufficient to sustain his convictions
because the government failed to prove he knew of his
prohibited statuses and, similarly, the indictment and jury
instructions omitted the requisite knowledge element. We
will begin with a discussion of Rehaif and then address
Door’s challenge to the sufficiency of the evidence.
A. Rehaif and Knowing Violations
Hamid Rehaif was convicted of violating 18 U.S.C.
§ 922(g)(5)(A) for being an alien unlawfully in the United
States in possession of firearms. See Rehaif, 139 S. Ct.
at 2194. A separate provision provides that any person who
“knowingly violates” § 922(g) shall be fined or imprisoned.
18 U.S.C. § 924(a)(2). Rehaif had come to the United States
on a student visa but had been dismissed from school, making
his presence unlawful. Rehaif, 139 S. Ct. at 2194. He was
arrested after he visited a firing range to shoot two firearms,
and was charged with violating § 922(g). Id. Rehaif argued
that although he had possessed firearms, the district court

ammunition . . . .” Section 924(a)(2) provides: “Whoever knowingly
violates subsection . . . (g) . . . of section 922 shall be fined as provided in
this title, imprisoned not more than 10 years, or both.”
4

18 U.S.C. § 931(a) makes it “unlawful for a person to purchase,
own, or possess body armor, if that person has been convicted of a felony
that is—(1) a crime of violence (as defined in section 16).” Section 16
provides, in relevant part: “The term ‘crime of violence’ means—(a) an
offense that has as an element the use, attempted use, or threatened use of
physical force against the person or property of another.” Section
924(a)(7) states: “Whoever knowingly violates section 931 shall be fined
under this title, imprisoned not more than 3 years, or both.”

A010

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 11 of 29

UNITED STATES V. DOOR

11

erred in instructing the jury that the government did not have
to prove Rehaif knew he was in the country unlawfully. Id.
at 2195. The Court agreed with Rehaif that the term
“knowingly” in § 924 applied to Rehaif’s conduct (possessing
the firearm) and his status (being an alien unlawfully in the
United States). Id. at 2200. Because it was not clear whether
the district court had correctly instructed the jury that it must
find that Rehaif knew he was out of status when he left
school, the Court reversed and remanded for further
proceedings. Id.
Although neither Door nor the government anticipated the
Court’s decision in Rehaif, Door gets the benefit of Rehaif on
his direct appeal. See Griffith v. Kentucky, 479 U.S. 314, 328
(1987) (“[A] new rule for the conduct of criminal
prosecutions is to be applied retroactively to all cases, state or
federal, pending on direct review or not yet final, with no
exception for cases in which the new rule constitutes a ‘clear
break’ with the past.”). The government admits that Door’s
conviction under 18 U.S.C. § 922(g)(1) for being a felon in
possession of a firearm is governed by Rehaif, see United
States v. Benamor, 937 F.3d 1182, 1188 (9th Cir. 2019), but
it contests the application of Rehaif with respect to Door’s
conviction for being a violent felon in possession of body
armor pursuant to 18 U.S.C. § 931(a). The government
asserts that Rehaif only requires the government to prove that
a defendant knew of his status as a felon, not that he knew he
was a felon convicted of a crime of violence.
We think such a construction is incompatible with
Rehaif’s analysis. In Rehaif, the Supreme Court held that
“[t]he term ‘knowingly’ in § 924(a)(2) modifies the verb
‘violates’ and its direct object, which in this case is § 922(g).”
139 S. Ct. at 2195. The Court reasoned that “[a]s a matter of

A011

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 12 of 29

12

UNITED STATES V. DOOR

ordinary English grammar, we normally read the statutory
term knowingly as applying to all the subsequently listed
elements of the crime.” Id. at 2196 (citation and internal
quotation marks omitted). The direct object, § 922(g),
contained a “status element,” namely that Rehaif was “an
alien . . . illegally or unlawfully in the United States.” Id. at
2195–96 (quoting 18 U.S.C. § 922(g)(5)(A)). The Court
found that “[a]pplying the word ‘knowingly’ to the
defendant’s status in § 922(g) helps advance the purpose of
scienter, for it helps to separate wrongful from innocent acts.”
Id. at 2197. Because “the possession of a gun can be entirely
innocent” it is “the defendant’s status, and not his conduct
alone, that makes the difference.” Id. Thus, the Court
expressed concern that, under the government’s construction,
these statutes might be applied to an alien who was brought
to the United States as a child and was unaware of his status,
or a person convicted of a prior crime who was given
probation and might not have known the crime was
punishable by imprisonment for a term exceeding a year. Id.
at 2197–98.
This same logic extends to the relationship between
§ 924(a)(7) and § 931(a)(1), which govern Door’s conviction
for possessing body armor. The term “knowingly” in
§ 924(a)(7) modifies the verb “violates” and its direct object,
“section 931.” Following Rehaif, “knowingly” thus applies
to all the elements listed in § 931(a)(1): “a person [who]
purchase[s], own[s], or possess[es] body armor, if that person
has been convicted of a felony that is––a crime of violence
(as defined in section 16).” The government offers no
explanation as to why the word “knowingly” in § 924(a)(7)
applies to the noun listed in § 931(a)(1) (“a felony”) but does
not apply to the phrase that qualifies it (“a crime of violence
(as defined in § 16)”). Instead, the government warns that

A012

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 13 of 29

UNITED STATES V. DOOR

13

requiring proof of a defendant’s knowledge that he was
convicted of a crime that meets the legal definition of a crime
of violence places an impossible and unnecessary burden on
the government.
We think the government has overread Rehaif. We do not
understand Rehaif to mean that the government must prove
that the defendant knew that he had been convicted of a crime
that a court has specifically declared to be a “crime of
violence” under 18 U.S.C. § 16. That would be a nearly
impossible burden for the government, and it would severely
limit the scope of § 931(a)(1). Section 931(a)(1) does not say
“a crime of violence, declared to be such by a court”; rather,
it states “a crime of violence as defined in section 16.”
18 U.S.C. § 931(a)(1) (emphasis added; parenthesis omitted).
We understand Rehaif to mean that the government must
prove that a defendant who possessed body armor knew that
(1) he was convicted of a felony and, (2) the felony of which
he was convicted had as an element “the use, attempted use,
or threatened use of physical force.” 18 U.S.C. § 16(a). The
term “physical force” should be given its ordinary meaning,
which “in the context of a statutory definition of ‘violent
felony,’ . . . means violent force––that is, force capable of
causing physical pain or injury to another person.” Johnson
v. United States, 559 U.S. 133, 138, 140 (2010);5 see also
Leocal v. Ashcroft, 543 U.S. 1, 11 (2004) (observing that
“[t]he ordinary meaning of this term [crime of violence],

5

Johnson addressed the phrase “physical force” as used in
§ 924(e)(2)(B)(i), see 559 U.S. at 138, but the same phrase appears in
§ 16. Generally, “when Congress uses the same language in two statutes
having similar purposes . . . it is appropriate to presume that Congress
intended that text to have the same meaning in both statutes.” Smith v.
City of Jackson, 544 U.S. 228, 233 (2005).

A013

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 14 of 29

14

UNITED STATES V. DOOR

combined with § 16’s emphasis on the use of physical force
. . . suggests a category of violent, active crimes”). If
anything, the case law in this area suggests that the lay
understanding of what constitutes a crime of violence may be
overinclusive, such that a defendant may find himself
pleasantly surprised to learn that a court has deemed his past
crime not to be a crime of violence.6
We thus conclude that Rehaif requires the government to
prove that a defendant charged with violating § 931(a) knew
he had a felony conviction and that the felony of which he
was convicted had “as an element the use, attempted use, or
threatened use of physical force against the person or
property of another.” 18 U.S.C. § 16(a). We now turn to the
merits of Door’s asserted Rehaif errors, beginning with his
challenge to the sufficiency of the evidence.
B. Sufficiency of the Evidence
At the close of the government’s case, Door made a
general oral motion for a “directed verdict on all three
counts” under Federal Rule of Criminal Procedure 29.7 Door
offered no argument, and the district court denied his motion.
Door summarily renewed his Rule 29 motion on all charges
after closing argument, which the district court promptly
denied.
6

Our recent decision in United States v. Begay, 934 F.3d 1033 (9th
Cir. 2019), offers an example of perhaps a less intuitive holding in which
we determined that second-degree murder does not constitute a crime of
violence. See id. at 1042 (N.R. Smith, J., dissenting) (“How can this
be?”).
7

Not pertinent to this appeal, Door also challenged the sufficiency of
the evidence supporting his ACCA eligibility in his Rule 29 motion.

A014

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 15 of 29

UNITED STATES V. DOOR

15

Both parties initially assumed that Door’s summary Rule
29 motion entitled him to de novo review of his sufficiency
of the evidence claim under Rehaif, and both sides briefed the
issue as such. In its brief, the government explained that it
believed de novo review was required based on our precedent
holding that a general Rule 29 motion preserves all objections
to the sufficiency of the evidence. See, e.g., United States v.
Navarro Viayra, 365 F.3d 790, 793 (9th Cir. 2004) (“Rule 29
motions for acquittal do not need to state the grounds upon
which they are based.”). Where preserved, “[w]e review de
novo the denial of a motion for acquittal.” United States v.
Niebla-Torres, 847 F.3d 1049, 1054 (9th Cir. 2017).
Following oral argument, however, we held in United
States v. Johnson, 979 F.3d 632 (9th Cir. 2020), amending
963 F.3d 847 (9th Cir. 2020), that plain error, not sufficiency
of the evidence, is the proper standard to review an
unpreserved Rehaif error. In that case, Lamar Johnson was
convicted of being a felon in possession of a firearm, in
violation of 18 U.S.C. § 922(g)(1). Id. at 634. After we
affirmed his conviction, the Supreme Court decided Rehaif.
Id. Johnson subsequently filed a petition for certiorari, “in
which he argued for the first time that the government failed
to prove at trial that he knew of his status as a convicted
felon.” Id. at 635. The Supreme Court granted his petition
and, on remand, we analyzed Johnson’s Rehaif argument as
a challenge to the sufficiency of the evidence. Id. Because
Johnson had not raised his sufficiency challenge in the district
court, however, we reviewed his claim for plain error and
found no manifest injustice. Id. (citing Johnson, 963 F.3d
at 850).
Johnson then petitioned for rehearing and rehearing en
banc, arguing that because he had pled not guilty and

A015

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 16 of 29

16

UNITED STATES V. DOOR

proceeded to a bench trial, the panel should have reviewed his
sufficiency of the evidence challenge de novo. Id.
(discussing United States v. Atkinson, 990 F.2d 501, 503 (9th
Cir. 1993) (en banc) (holding that, in a bench trial, a
defendant who had pled not guilty need not move for
acquittal to preserve an objection to the sufficiency of the
evidence)). Denying rehearing and rehearing en banc, we
filed an amended opinion. Johnson, 979 F.3d at 635–36. We
concluded that Atkinson was inapposite because “although
Johnson [] framed his argument as a challenge to the
sufficiency of the evidence, that [was] not in fact the correct
way to conceive of it.” Id. at 636. As we explained, “a
sufficiency challenge must be assessed against the elements
that the government was required to prove at the time of
trial.” Id. (citing United States v. Kim, 65 F.3d 123, 126–27
(9th Cir. 1995); United States v. Weems, 49 F.3d 528, 530–31
(9th Cir. 1995)). Johnson did not dispute that the government
had introduced sufficient evidence at trial under our preRehaif precedent; thus his Rehaif challenge was “best
understood . . . as a claim that the district court applied the
wrong legal standard in assessing his guilt––specifically, by
omitting the knowledge-of-status element now required under
Rehaif.” Id. (emphasis added). Because a district court’s
legal error during a bench trial regarding the elements of the
offense is reviewed in the same manner as an erroneous jury
instruction––plain error where the defendant failed to
object––we held that Johnson’s claim was reviewable for
plain error and reaffirmed our prior conclusion. Id. at 636,
639.
Following oral argument in this case, the government
filed a 28j letter alerting us to Johnson. We asked the
government and Door to submit supplemental briefs
addressing what impact, if any, Johnson has on the standard

A016

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 17 of 29

UNITED STATES V. DOOR

17

of review applicable to Door’s sufficiency of the evidence
challenge. Having reviewed the parties’ submissions, we
conclude that Johnson compels the conclusion that Door’s
sufficiency claim is subject to plain-error review.
Door first argues that the government has forfeited any
plain-error argument. Relying on United States v. MurguiaRodriguez, 815 F.3d 566 (9th Cir. 2016), Door urges the
panel that the government’s briefing of sufficiency of the
evidence operates as a forfeiture of plain-error review. But
unlike Murguia-Rodriguez, this is not a situation in which the
government failed to argue that, under controlling law, an
error was not objected to and therefore forfeited. Id.
at 573–74. Rather, both parties assumed that the general rule
regarding preservation of sufficiency of the evidence claims
via summary Rule 29 motions extended to arguments based
on a change in the law after trial. Until Rehaif and Johnson,
there was no precedent on this precise question and, indeed,
at least two other circuits have reviewed Rehaif challenges to
the sufficiency of the evidence de novo where a general Rule
29 motion was made in the district court. See, e.g., United
States v. Staggers, 961 F.3d 745, 754 (5th Cir. 2020); United
States v. Maez, 960 F.3d 949, 959 (7th Cir. 2020). We think
the government gets the benefit of the same rule that allows
Door to bring his Rehaif claims—“an appellate court must
apply the law in effect at the time it renders its decision.”
Thorpe v. Hous. Auth. of Durham, 393 U.S. 268, 281 (1969).
Although the government might have argued differently in its
original brief, we are not willing, in these circumstances, to
deem such failure a forfeiture. Cf. Murguia-Rodriguez,
815 F.3d at 574–75 (“Our rule, of course, is discretionary,
and there may well be good reason to apply plain error in a
particular case . . . .”).

A017

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 18 of 29

18

UNITED STATES V. DOOR

Door next argues that we are not bound by Johnson
because Door had a jury trial, not a bench trial. We are not
persuaded that this distinction relieves us of our duty to
follow Johnson. Johnson advanced the precise claim that
Door asserts here: the government failed to prove at trial that
he knew of his prohibited statuses, as now required by Rehaif.
Johnson, 979 F.3d at 636. As in Johnson, Door does not
claim that the government failed to introduce “evidence
sufficient to satisfy each of the elements required for
conviction at the time of his trial.” Id. (emphasis added). We
fail to see how the difference between a jury trial and a bench
trial would require us to view these identical legal challenges
differently. Stated otherwise, if Johnson’s challenge could
not be conceived of as a sufficiency challenge, then neither
can Door’s. We thus understand Door’s sufficiency
challenge as a claim of trial error. Because Door did not
object to the trial court’s omission of the knowledge-of-status
element, we review for plain error under Rule 52(b).
Under plain-error review, we may reverse only where
there is an (1) error that is (2) plain, (3) affects substantial
rights, and (4) “seriously affects the fairness, integrity or
public reputation of judicial proceedings.” United States v.
Olano, 507 U.S. 725, 732 (1993) (cleaned up) (quoting
United States v. Young, 470 U.S. 1, 15 (1985)). In light of
Rehaif, it is clear that the district court erred in failing to
require the government to prove Door’s knowledge of his
prohibited statuses and that error is now plain. As we did in
Johnson, we will “assume without deciding that the district
court’s error affected [Door]’s substantial rights.” 979 F.3d
at 636. Thus, we will resolve this case under the fourth prong
of plain-error review.

A018

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 19 of 29

UNITED STATES V. DOOR

19

This prong “helps enforce one of Rule 52(b)’s core
policies, which is to reduce wasteful reversals by demanding
strenuous exertion to get relief for unpreserved error.” Id.
(citation and internal quotation marks omitted). To satisfy
the fourth prong, Door bears the burden of offering “a
plausible basis for concluding that an error-free retrial might
end more favorably.” Id. at 637 (discussing Johnson v.
United States, 520 U.S. 461, 470 (1997), wherein the
Supreme Court concluded that the failure to submit the
element of materiality to the jury did not warrant reversal
under the fourth prong of plain-error review because the
petitioner “presented no plausible argument that the false
statement under oath for which she was convicted . . . was
somehow not material to the grand jury investigation”). That
is, Door must demonstrate that a “miscarriage of justice
would otherwise result.” Id. at 636–37 (citations omitted).
No miscarriage of justice results where the “correction of an
unpreserved error would ultimately have no effect on the
judgment.” Id. at 638. We conclude that Door has not made
such a showing.
Beginning with Door’s § 922(g) conviction, Door cannot
show that our refusal to correct the district court’s error
would result in a miscarriage of justice. In reviewing for
plain error, we may examine the entire record on appeal. See
Johnson, 979 F.3d at 638; Benamor, 937 F.3d at 1189. When
Door possessed the firearms (and body armor), he had
multiple felony convictions for which he was sentenced to
prison terms ranging from 14 months to 10 years. Having
served more than a year in prison, Door cannot (and does not
attempt to) argue that a jury would find that he was unaware
of his status as a person previously convicted of an offense
punishable by more than a year in prison.

A019

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 20 of 29

20

UNITED STATES V. DOOR

Turning to Door’s § 931(a)(1) conviction, we are likewise
convinced that Door cannot plausibly argue that he was
unaware of his status as a person previously convicted of a
felony that is a crime violence. To begin, Door and the
government entered into a stipulation that was read to the
jury, in which Door conceded that he had been convicted of
both predicate crimes in language identical to the statutes.
The stipulation provided:
Prior to November 9, 2011, Kenneth Door, the
defendant herein, had been convicted of a
felony crime punishable by a term of
imprisonment exceeding one year. That is a
crime of violence, as defined by law, and
therefore was a convicted felon and a person
convicted of a felony that is a crime of
violence at the time of the events that are the
subject of this prosecution.
Thus, at the very least, that stipulation admitted that Door
knew of the fact of his convictions at trial.
The more difficult question is whether the stipulation also
conceded that Door knew that at least one of his prior felonies
was punishable for a term exceeding a year and that one was
a crime of violence as defined in § 16 when he possessed the
firearms and body armor in 2011. Although the stipulation
did not explicitly state that Door knew of his prohibited
statuses, the stipulation recited that Door had been convicted
of a felony “punishable by a term of imprisonment exceeding
one year” and further specified that the felony was “a crime
of violence, as defined by law.” It is the shortest of steps for
a juror to conclude that, when Door possessed the firearms
and body armor, he knew of the crimes for which he had

A020

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 21 of 29

UNITED STATES V. DOOR

21

previously been convicted. Being convicted of a felony is
generally a major life event; as the Second Circuit has aptly
observed, “given the rights to appointed counsel, effective
assistance of counsel, and due process, it is highly improbable
that a person could be convicted of a felony without being
aware that his possible sentence would exceed one year’s
imprisonment.” United States v. Miller, 954 F.3d 551, 559
(2d Cir. 2020) (footnotes omitted); see also Staggers,
961 F.3d at 757 (reasoning that, “absent any evidence
suggesting ignorance, a jury applying the beyond-areasonable-doubt standard could infer that a defendant knew
that he or she was a convicted felon from the mere existence
of a felony conviction” as evidenced by the defendant’s
stipulation); United States v. Ward, 957 F.3d 691, 695–96
(6th Cir. 2020) (holding that a rational juror could have
inferred the defendant knew of his prohibited status based on
his stipulation and his lawyer’s emphasis on the stipulation,
and observing that “[a]lthough the stipulation of a prior
felony does not automatically establish knowledge of felony
status, it is strongly suggestive of it” (citation and internal
quotation marks omitted)).
The stipulation was, no doubt, a strategic concession by
Door because it precluded the government from presenting
evidence of Door’s status as a violent felon and laying out his
multiple prior convictions before the jury. See Old Chief v.
United States, 519 U.S. 172, 190–92 (1997). Had Door
refused to stipulate to his convictions, the government likely
would have—subject, of course, to the limitations imposed by
the Federal Rules of Evidence—introduced proof of his prior
convictions to establish the status element. See, e.g., United
States v. Weiland, 420 F.3d 1062, 1077–78 (9th Cir. 2005)
(analyzing the admissibility of records of convictions in a
§ 922(g) prosecution under Federal Rule of Evidence 403 in

A021

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 22 of 29

22

UNITED STATES V. DOOR

the absence of the defendant’s stipulation to his criminal
status).
Moreover, this case presents a starkly different situation
than the hypothetical that the Court set out in Rehaif. In
Rehaif, the majority posited that a convicted felon might lack
knowledge that he was convicted of a crime punishable by
imprisonment for a term exceeding one year if he was
“convicted of a prior crime but sentenced only to probation.”
139 S. Ct. at 2198. In the Court’s hypothetical, the fact that
a defendant charged with a felony received probation might
have obscured the felon’s understanding of the length of the
sentence he had faced. By contrast, Door’s stipulation
admitted that he knew of his convictions and the defining
features of those crimes. There is nothing tricky or hidden in
the stipulation and therefore no ambiguity in what Door
stipulated to. As such, we think the stipulation tends to weigh
against reversal.
But we do not rest our decision on Door’s stipulation
alone. As discussed, our review is not limited to the record
adduced at trial, and Door had multiple felony convictions
when he possessed the body armor. One of those convictions
was for felony harassment under Wash. Rev. Code.
§§ 9A.46.020(1)(a)(i) and (2)(b)8 for “threatening to kill” a
person. We previously held in a published opinion in Door’s
prior appeal that a conviction under Wash. Rev. Code
8

The sections of the Washington harassment statute that applied to
Door’s 1997 conviction provided (1) “[a] person is guilty of harassment
if . . . [w]ithout lawful authority, the person knowingly threatens . . . [t]o
cause bodily injury in the future to the person threatened or any other
person”; and (2) a “person is guilty of a class C felony if . . . the person
harasses another person . . . by threatening to kill the person threatened or
any other person.” Wash. Rev. Code. § 9A.46.020.

A022

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 23 of 29

UNITED STATES V. DOOR

23

§ 9A.46.020(2)(b) qualifies as a crime of violence because a
knowing threat to kill a person “necessarily entails the
threatened use of violent physical force against another
person.” Door, 917 F.3d at 1152. Door tries to downplay the
significance of this conviction by arguing that the record
contains no plea colloquy establishing that he understood the
nature of felony harassment. But it is Door’s burden to show
how the plain error has seriously affected the fairness,
integrity or public reputation of his judicial proceedings. See
Johnson, 520 U.S. at 470. Door has not carried that burden.
Nowhere does he offer a plausible argument that he lacked
the requisite knowledge of his status as a violent felon or that
he would have proceeded differently at trial had the
government been required to prove his knowledge of his
prohibited statuses. Indeed, we are quite confident that Door
would not have foregone the benefits of his stipulation if
Rehaif had been decided prior to his trial. The stipulation
shielded Door from having the government splay the details
of his prior felonies before the jury; Door has given us no
reason to think that it would be a prudent strategy to waive
his rights under Old Chief and withdraw his stipulation. See
Staggers, 961 F.3d at 756 (concluding that if Rehaif were in
effect at the defendant’s trial, he “would have stipulated to
both the felon-status element and the knowledge-of-felonstatus element to keep the jury ignorant of the inculpatory
details otherwise required to prove knowledge of felon
status”). In short, Door fails to persuade us that a correction
of the Rehaif error would ultimately affect the outcome. See,
e.g., United States v. Cotton, 535 U.S. 625, 633 (2002)
(“Surely the grand jury, having found that the conspiracy
existed, would have also found that the conspiracy involved
at least 50 grams of cocaine base.”). We therefore conclude
that the district court’s error did not seriously affect the
fairness, integrity or public reputation of judicial proceedings.

A023

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 24 of 29

24

UNITED STATES V. DOOR

C. Indictment and Jury Instructions
Door argues that his indictment and jury instructions were
also flawed because neither stated that Door’s knowledge of
his prohibited statuses was an element of the crimes. Because
Door did not raise these challenges in the district court, we
review them for plain error. See Olano, 507 U.S. at 732.
1. Indictment
With respect to the § 922(g) charge, Count One of the
indictment alleged that Door, “having been convicted of a
crime punishable by imprisonment for a term exceeding one
year . . . did knowingly possess firearms.” Count One also
listed eleven different convictions with their docket numbers.
Similarly, with respect to the § 931(a) charge, Count Two
alleged that Door, “having been convicted of a felony crime
of violence . . . did knowingly possess body armor” and listed
six different convictions with their docket numbers.
The government claims that (1) Door has waived his
challenge to the indictment; and (2) the indictment is not
plainly insufficient because it tracked the statutory language
of § 922(g)(1) and § 931(a)(1). Both arguments lack merit.
First, a defendant may challenge an indictment after trial; our
review is just limited to plain error. See United States v.
Leos-Maldonado, 302 F.3d 1061, 1064 (9th Cir. 2002); see
also United States v. Qazi, 975 F.3d 989, 992 (9th Cir. 2020).
Second, although the indictment uses the word “knowingly”
to describe the charged offenses, it only uses the word to
modify “possess firearms” and “possess body armor,”
respectively. In light of Rehaif, because the indictment only
charged Door with knowledge of possession, not knowledge
of his status, the indictment clearly failed to allege an element

A024

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 25 of 29

UNITED STATES V. DOOR

25

of each offense. This was plain error. See Henderson v.
United States, 568 U.S. 266, 274 (2013) (explaining that an
error can be “plain” under Federal Rule of Criminal
Procedure 52(b) if it is plain at “the time of appellate
consideration” (citation and internal quotation marks
omitted)). But, for the reasons discussed, Door cannot show
that this error affected the fairness, integrity or public
reputation of the trial.
2. Jury Instructions
It is undisputed that “the absence of an instruction
requiring the jury to find that Defendant knew he was a felon
was clear error under Rehaif.” Benamor, 937 F.3d at 1188.
However, as discussed, Door cannot satisfy the final prong of
the plain-error test.
III. OBSTRUCTION OF JUSTICE
We next consider whether the district court erred in
applying the obstruction of justice enhancement. We review
the proper interpretation of the Guidelines de novo, the
district court’s factual findings made at sentencing for clear
error, and the application of the Guidelines to the facts of a
case for abuse of discretion. United States v. Gasca-Ruiz,
852 F.3d 1167, 1170 (9th Cir. 2017).
As a preliminary matter, our review is not, as the
government contends, limited to plain error. At sentencing,
Door objected to the obstruction of justice enhancement on
the grounds that the record was insufficient to show he made
any threats; Door now argues that the district court failed to
make a finding as to his purpose in making the alleged
threats. Door’s basic claim, however, remains the same: the

A025

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 26 of 29

26

UNITED STATES V. DOOR

district court’s findings were insufficient to support the
obstruction of justice enhancement. See United States v.
Guzman-Padilla, 573 F.3d 865, 877 n.1 (9th Cir. 2009)
(holding that claims, not arguments, are waived or forfeited).9
An enhancement for obstructing or impeding the
administration of justice is warranted if “the defendant
willfully obstructed or impeded, or attempted to obstruct or
impede, the administration of justice with respect to the
investigation, prosecution, or sentencing of the instant offense
of conviction.” U.S.S.G. § 3C1.1. Door argues that his
alleged threats to kill his federal case agent can only support
an obstruction of justice enhancement if they were intended
to prevent future testimony or cooperation, not for the
purpose of retaliation.10 Even assuming retaliatory motive
alone is insufficient to warrant an enhancement under
U.S.S.G. § 3C1.1, the district court did not commit clear
error. Although Door communicated his threats after the
agent testified at the suppression hearing, he still made the
threats prior to the agent’s testimony at trial. These pre-trial
threats could reasonably be construed as an attempt to
9
Nor has Door waived his right to appeal the application of this
enhancement because he failed to raise it in his second appeal. We did not
limit the scope of the remand when we remanded Door’s case for a second
re-sentencing. See Door, 917 F.3d at 1155; Door, 756 F. App’x
at 758–59. The district court was thus “empowered to address all
sentencing issues following remand.” United States v. Pimentel, 34 F.3d
799, 800 (9th Cir. 1994).
10
But see United States v. Rubio, 317 F.3d 1240, 1244–45 (11th Cir.
2003) (holding retaliatory purpose sufficient because Application Note
4(i) to U.S.S.G. § 3C1.1 authorizes an enhancement based upon any
conduct prohibited by the obstruction of justice provisions of Title 18,
including 18 U.S.C. § 1513(b), which prohibits a person from inflicting
bodily injury on a witness with the intent to retaliate).

A026

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 27 of 29

UNITED STATES V. DOOR

27

obstruct justice on the theory that Door wanted to prevent the
agent from testifying at his trial.
IV. SENTENCE
Finally, we consider Door’s claim that his sentence was
both procedurally and substantively unreasonable. The court
reviews the district court’s sentencing decision for abuse of
discretion. Gall v. United States, 552 U.S. 38, 51 (2007).
“Procedural errors include, but are not limited to,
incorrectly calculating the Guidelines range, treating the
Guidelines as mandatory, failing to properly consider the
§ 3553(a) factors, using clearly erroneous facts when
calculating the Guidelines range or determining the sentence,
and failing to provide an adequate explanation for the
sentence imposed.” United States v. Armstead, 552 F.3d 769,
776 (9th Cir. 2008). Door argues that his sentence is
procedurally unreasonable because the district court gave the
Guidelines no weight and therefore failed to properly
consider the § 3553(a) factors. In support of this proposition,
Door points to the district court’s expressions of frustration
with the categorical approach and statement that the
“guidelines are a guide, unless they are not.”
We disagree. It is well settled that the district court “may
not presume that the Guidelines range is reasonable . . . . Nor
should the Guidelines factor be given more or less weight
than any other.” Carty, 520 F.3d at 991. Rather, the
sentencing court is “free to conclude that the applicable
Guidelines range gives too much or too little weight to one or
more factors, either as applied in a particular case or as a
matter of policy.” United States v. Christensen, 732 F.3d
1094, 1101 (9th Cir. 2013).
Contrary to Door’s

A027

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 28 of 29

28

UNITED STATES V. DOOR

characterization, the district court’s remarks indicate that it
looked to the Guidelines and determined that the range did
not adequately account for the seriousness of Door’s criminal
history and his various threats to witnesses. This was an
experienced judge, who was very familiar with Door’s case.
Moreover, the district court explained that its non-Guidelines
sentence was based on “[r]espect for the law, deterrence,
[and] protection for the community,” which are among the
additional sentencing factors specifically listed in § 3553(a).
See 18 U.S.C. § 3553(a)(2)(A)–(C). The district court did not
commit procedural error in concluding that the Guidelines did
not adequately reflect the nature and circumstances of Door’s
offense and the danger he posed to the community.
Door’s sentence is also substantively reasonable. In
reviewing the reasonableness of a sentence, we consider the
totality of the circumstances. Carty, 520 F.3d at 993. The
reviewing court must give “due deference to the district
court’s decision that the § 3553(a) factors, on the whole,
justify the extent of the variance. ” Gall, 552 U.S. at 51.
Although a sentence outside the Guidelines does not carry a
presumption of unreasonableness, “the greater the variance,
the more persuasive the justification will likely be because
other values reflected in § 3553(a) . . . may figure more
heavily in the balance.” Carty, 520 F.3d at 992. This does
not, however, mean that the district court must “tick off each
of the § 3553(a) factors to show it has considered them.” Id.
It is undisputed that in imposing a 276-month sentence,
the district court deviated significantly from the guideline
range of 140–175 months. The district court explained that
it had, “on two prior occasions, said that I consider Mr. Door
to perhaps be the most dangerous defendant I have had in
18 or 19 years. . . . Mr. Door is, was, and will be in my mind

A028

Case: 19-30213, 04/28/2021, ID: 12089314, DktEntry: 56-1, Page 29 of 29

UNITED STATES V. DOOR

29

an extremely dangerous person. He did everything and then
more to justify his sentence.” The record fully supports the
district court’s determination that Door was an extremely
dangerous person who had shown an unwillingness to change.
There is no basis upon which to find Door’s sentence
substantively unreasonable.
V. CONCLUSION
Although, in light of Rehaif, the district court committed
plain error by failing to require the government to prove
Door’s knowledge of his prohibited statuses and omitting the
knowledge element from the indictment and jury instructions,
Door cannot show that these errors affected the fairness,
integrity, or public reputation of the judicial proceedings.
With respect to Door’s sentence, the district court did not
clearly err in finding that the pre-trial threats Door made
could reasonably be construed as an attempt to obstruct
justice. Nor is there a basis upon which to find Door’s
sentence either procedurally or substantively unreasonable.
We therefore affirm the convictions and sentence.
AFFIRMED.

A029

APPENDIX 2

Case: 19-30213, 08/11/2021, ID: 12198180, DktEntry: 60, Page 1 of 1

FILED
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

AUG 11 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-30213

D.C. No.
3:12-cr-05126-RBL-1
Western District of Washington,
Tacoma

KENNETH RANDALE DOOR,
Defendant-Appellant.

ORDER

Before: BYBEE and COLLINS, Circuit Judges, and SOTO,* District Judge.
The panel judges have voted to deny Door’s petition for rehearing. Judge
Collins voted to deny the petition for rehearing en banc, and Judges Bybee and
Soto recommended denying the petition for rehearing en banc.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App.
P. 35.
Door’s petition for rehearing and petition for rehearing en banc, filed
July 15, 2021, are DENIED.

*

The Honorable James Alan Soto, United States District Judge for the
District of Arizona, sitting by designation.

A030

APPENDIX 3

276

1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

2
3
4

UNITED STATES OF AMERICA,

5

Plaintiff,

6

vs.

7

KENNETH RANDALE DOOR,

8

Defendant.

9

)
)
)
)
)
)
)
)
)
)

Docket No. CR12-5126RBL
Tacoma, Washington
March 7, 2014
JURY TRIAL DAY 3
COA #: 14-30170

10
11
12
13

TRANSCRIPT OF PROCEEDINGS
BEFORE THE HONORABLE RONALD B. LEIGHTON
UNITED STATES DISTRICT COURT JUDGE and a jury

14

APPEARANCES:

15

For the Plaintiff:

NORMAN M. BARBOSA
STEVEN T. MASADA
United States Attorney's Office
700 Stewart Street, Suite 5220
Seattle, Washington 98101-1271

For the Defendant:

TIMOTHY R. LOHRAFF
Law Office of Timothy Lohraff, P.S.
1001 Fourth Avenue, Suite 3200
Seattle, Washington 98154

Court Reporter:

Teri Hendrix
Union Station Courthouse, Rm 3130
1717 Pacific Avenue
Tacoma, Washington 98402
(253) 882-3831

16
17
18
19
20
21
22
23
24
25

Proceedings recorded by mechanical stenography, transcript
produced by reporter on computer.

A031

335

1
2

THE COURT:

Please be seated.

Does the government have any more witnesses to call?

3
4

All right.

MR. BARBOSA:

No, Your Honor.

At this point, the

government rests its case-in-chief.

5

THE COURT:

Ladies and gentlemen, don't get

6

comfortable.

This is a schedule delay for just a few moments.

7

So if you would return to the jury room, and we'll deal with

8

business at hand, and then we'll be back with you in just a

9

moment.

10

Get your exercise.

11

(Jury not present.)
THE COURT:

12
13

All right.

Please be seated.

Mr. Lohraff.
MR. LOHRAFF:

14

Your Honor, defense would make a Rule

15

29 motion for directed verdict on all three counts, as well as

16

a failure to find -- present evidence and find that he's ACCA

17

eligible.
THE COURT:

18

Do you want to support that by facts or

19

do you want to make the motion?

20

MR. LOHRAFF:

21

Judge.

23
24
25

I am just making the motion to preserve my record.
THE COURT:

22

I don't have argument at this point,

Motion is denied.

Now, if Mr. Door is prepared to testify, we can continue
today.

If not, we'll -MR. LOHRAFF:

He's not prepared to testify.

A032

338

1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

2
3
4

UNITED STATES OF AMERICA,

5

Plaintiff,

6

vs.

7

KENNETH RANDALE DOOR,

8

Defendant.

9

)
)
)
)
)
)
)
)
)
)

Docket No. CR12-5126RBL
Tacoma, Washington
March 10, 2014
JURY TRIAL DAY 4
COA #: 14-30170

10
11
12
13

TRANSCRIPT OF PROCEEDINGS
BEFORE THE HONORABLE RONALD B. LEIGHTON
UNITED STATES DISTRICT COURT JUDGE and a jury

14

APPEARANCES:

15

For the Plaintiff:

NORMAN M. BARBOSA
STEVEN T. MASADA
United States Attorney's Office
700 Stewart Street, Suite 5220
Seattle, Washington 98101-1271

For the Defendant:

TIMOTHY R. LOHRAFF
Law Office of Timothy Lohraff, P.S.
1001 Fourth Avenue, Suite 3200
Seattle, Washington 98154

Court Reporter:

Teri Hendrix
Union Station Courthouse, Rm 3130
1717 Pacific Avenue
Tacoma, Washington 98402
(253) 882-3831

16
17
18
19
20
21
22
23
24
25

Proceedings recorded by mechanical stenography, transcript
produced by reporter on computer.

A033

419

1
2

you.
(Jury commences deliberations upon a verdict.)

3
4
5

THE COURT:

Please be seated.

vest go in the jury room and the bag.

So they can let the
All right.

Ten, fifteen minutes away from a phone call.

6

MR. LOHRAFF:

Your Honor, just for the record, I need

7

to renew my Rule 29 motion for judgment on all charges, on all

8

counts.

I have no argument.
THE COURT:

9

That motion is denied.

MR. MASADA:

10

Your Honor, just for the Court's

11

awareness, just to make clear that the government is not

12

trying to mislead the jury about the calls that were played,

13

the other federal case that Mr. Lohraff referred to, the tax

14

charges in front of Judge Settle, that was actually charged in

15

April of 2012.

16

alert the Court.
MR. LOHRAFF:

17
18
19

So nowhere near December 2011.

charges.

I just want to

Your Honor, my client knew of those

My proffer is my client was talking about that case.
THE COURT:

I sustained the objection, and it's done.

20

So we'll see when they deliver a question or return a verdict.

21

Court will be at recess.

22

(Court recessed at 12:00 p.m.)
************

23
24
25

(In open court at 1:30 p.m. for a verdict.)
THE COURT:

Please be seated.

We have been informed

A034

AP P ENDI X4

Case: 19-30213, 12/19/2019, ID: 11538816, DktEntry: 8, Page 1 of 64

CA NO. 19-30213
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
KENNETH RANDALE DOOR,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)
)

D.C. No. 3:12-cr-05126-RBL

APPELLANT’S OPENING BRIEF

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
HONORABLE RONALD B. LEIGHTON
United States District Judge

CARLTON F. GUNN
Attorney at Law
65 North Raymond Ave., Suite 320
Pasadena, California 91103
Telephone (626) 667-9580
Attorney for Defendant-Appellant

A035

PAGES NOT PERTINENT TO PETITION FOR
WRIT OF CERTIORARI OMITTED

A036

Case: 19-30213, 12/19/2019, ID: 11538816, DktEntry: 8, Page 13 of 64

IV.
STATEMENT OF THE CASE

A.

SEARCH, INDICTMENT, AND TRIAL.

In the fall of 2011, an informant provided information to an ATF agent that
Mr. Door was in possession of firearms and selling methamphetamine.
RT(12/7/12) 9-14. The ATF agent contacted a Washington State Community
Corrections officer who was supervising Mr. Door on probation, and that officer
decided to conduct a probation search of Mr. Door’s house, with the assistance of
the ATF agent and other officers. RT(3/7/14) 292. Mr. Door was home, but did
not answer the door when the officers arrived at the house, RT(3/6/14) 182;
RT(3/7/14) 296-98, so the community corrections officer left a note and a voice
mail message telling Mr. Door to call, RT(3/7/14) 298-99. Another officer
remained to watch the house and detained Mr. Door when he saw Mr. Door
outside. RT(3/7/14) 299-300. The community corrections officer then returned,
and he and other officers conducted the search. RT(3/7/14) 300. In the kitchen,
the officers found a black duffel bag which contained two pistols, ammunition for
the pistols, and two ballistic vests. RT(3/7/14) 301. In the living room, the
officers found an explosive device known as a “seal bomb,” which is used to scare
away marine mammals, and two digital scales, methamphetamine pipes, and clear
plastic bags. RT(12/7/12) 78-79; RT(3/6/14) 146, 230-33; RT(3/7/14) 303-04;
PSR, ¶ 6.
The community corrections officer placed Mr. Door under arrest for
violating his probation, and Mr. Door was taken to jail. RT(3/7/14) 306. Several
4
A037

Case: 19-30213, 12/19/2019, ID: 11538816, DktEntry: 8, Page 14 of 64

weeks later, allegedly in response to a message that Mr. Door wanted to talk to
him, the ATF agent went to the jail to interview Mr. Door. RT(3/6/14) 179-80.
The agent told Mr. Door he first would have to answer questions about the items
found in his home, and Mr. Door admitted possessing the guns, body armor, and
seal bomb. RT(3/6/14) 182-84.
Soon after this, Mr. Door was indicted in federal court for being a felon in
possession of a firearm, being a felon in possession of explosives, and being a
violent felon in possession of body armor. See ER 68-71. He filed a motion to
suppress the evidence found in the search, see CR 32, but that motion was denied,
see RT(12/7/12) 154; RT(3/6/14) 171, 173. After pleading guilty but then
withdrawing his plea, see CR 126, 134, 161, Mr. Door proceeded to trial and was
convicted of all counts, CR 208. The evidence the government presented included
testimony from the ATF agent and the community corrections officer about the
discovery of the guns, body armor, and seal bomb, see RT(3/6/14) 140-41;
RT(3/7/14) 301-04; testimony from the ATF agent about Mr. Door’s admissions
about the guns, body armor, and seal bomb, see RT(3/6/14) 182-84; and several
jail recordings in which Mr. Door talked about not answering the door and hiding
the guns when the officers first came to the house, see RT(3/6/14) 152-54, 185-91;
Govt. Exs. 300-02. The evidence of Mr. Door’s prior convictions was a
stipulation that he had been convicted of a felony crime punishable by a term of
imprisonment exceeding one year that was also a crime of violence. See ER 6667.

5
A038

Case: 19-30213, 12/19/2019, ID: 11538816, DktEntry: 8, Page 15 of 64

B.

SENTENCING AND FIRST APPEAL.

The presentence report recommended a sentencing guidelines base offense
level of 24, based on “at least two felony convictions of either a crime of violence
or controlled substance offense.” PSR, ¶ 12 (citing U.S.S.G. § 2K2.1(a)(2)).1 The
report also recommended multiple guidelines enhancements, including a 2-level
enhancement under § 2K2.1(b)(3) for possession of a destructive device, based on
the seal bomb, see PSR, ¶ 13; a 2-level enhancement under § 2K2.1(b)(4) for
possession of a firearm which was stolen, see PSR, ¶ 14; a 4-level enhancement
under § 2K2.1(b)(6)(B) for possession of the firearms “in connection with another
felony offense (drug trafficking),” PSR, ¶ 15; and a 2-level enhancement under §
3C1.1 for obstruction of justice, see PSR, ¶ 18. This made the total offense level
34, see PSR, ¶ 20, which produced a guideline range of 262 to 327 months when
combined with Mr. Door’s criminal history category of VI, see PSR, ¶ 99.
The presentence report also concluded Mr. Door was an armed career
criminal under the Armed Career Criminal Act in 18 U.S.C. § 924(e) (hereinafter
“ACCA”), see PSR, ¶ 20, which requires three prior convictions for either “violent
felonies” or “controlled substance offenses,” 18 U.S.C. § 924(e). The prior
convictions the presentence report relied upon were a conviction for attempting to
elude a pursuing police vehicle, multiple second-degree burglary convictions, and

1

The presentence report and subsequent revisions are being filed
concurrently with this brief pursuant to Interim Circuit Rule 27-13. The final
presentence report submitted for the first sentencing is cited as “PSR”; a “Revised
Memorandum on Resentencing” filed after a first remand is cited as “First Revised
PSR”; and a “Second Revised Memorandum on Resentencing” filed after a second
remand is cited as “Second Revised PSR.”
6
A039

Case: 19-30213, 12/19/2019, ID: 11538816, DktEntry: 8, Page 16 of 64

convictions of multiple second-degree assault counts in a single case. See PSR, ¶
20. The ACCA categorization did not increase the guidelines offense level,
compare PSR, ¶ 20 (ACCA offense level) with PSR, ¶ 19 (pre-ACCA offense
level), but it did increase the statutory maximum sentence to life and trigger a
statutory mandatory minimum sentence of 15 years, see PSR, ¶ 98; 18 U.S.C. §
924(e).
The defense objected to both the ACCA categorization and the guidelines
enhancements. As to the enhancements, it argued the seal bomb did not qualify as
a destructive device and there was not reliable evidence supporting the other
enhancements. See CR 154, at 20-22. As to the ACCA, it argued Mr. Door’s
prior burglary convictions and attempting to elude conviction did not qualify as
“violent felonies” under the categorical approach the ACCA requires. See CR
154, at 5-19. The district court rejected the defense arguments, found the
enhancements and the ACCA did apply, and sentenced Mr. Door to 300 months,
or 25 years, in prison. See RT(8/15/14) 20-21.
Mr. Door thereafter appealed. He challenged both the denial of his motion
to suppress evidence and a motion to suppress statements he had made just before
and during trial, see CR 184, 185; RT(3/6/14) 162, and the application of the
ACCA and several of the guidelines enhancements. See United States v. Door,
647 Fed. Appx. 755 (9th Cir.) (unpublished), amended, 668 Fed. Appx. 784 (9th
Cir. 2016) (unpublished). This Court affirmed the denial of the motions to
suppress, but vacated the sentence. It held the destructive device enhancement did
not apply to the seal bomb and there were insufficient findings on the obstruction
of justice and “in connection with another felony” enhancements. See id. at 757.
It initially deferred ruling on the ACCA issue pending the Supreme Court’s
7
A040

PAGES NOT PERTINENT TO PETITION FOR
WRIT OF CERTIORARI OMITTED

A041

Case: 19-30213, 12/19/2019, ID: 11538816, DktEntry: 8, Page 28 of 64

VI.
ARGUMENT

A.

THE FELON IN POSSESSION OF A FIREARM AND VIOLENT FELON

IN POSSESSION OF BODY ARMOR CONVICTIONS MUST BE VACATED
BECAUSE THE GOVERNMENT FAILED TO PROVE, THE INDICTMENT
FAILED TO ALLEGE, AND THE INSTRUCTIONS FAILED TO REQUIRE,
THAT MR. DOOR KNEW HE HAD BEEN CONVICTED OF A CRIME
PUNISHABLE BY IMPRISONMENT FOR A TERM EXCEEDING ONE YEAR
IN PRISON AND A FELONY CRIME OF VIOLENCE, AS REQUIRED BY
REHAIF.

1.

Reviewability and Standard of Review.

Defense counsel made motions for judgment of acquittal, which the district
judge denied, both at the close of the government’s case and after closing
argument. See ER 23, 25. Rulings on such motions are reviewed de novo. United
States v. Niebla-Torres, 847 F.3d 1049, 1054 (9th Cir. 2017). The test is whether
“viewing the evidence in the light most favorable to the prosecution, any rational
trier of fact could have found the essential elements of the crime beyond a
reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 319 (1979).
Defense counsel did not object to the sufficiency of the indictment or the
instructions. Those claims are therefore reviewable for plain error. See United
States v. Pelisaman, 641 F.3d 399, 404 (9th Cir. 2011); United States v. Arnt, 474

19
A042

Case: 19-30213, 12/19/2019, ID: 11538816, DktEntry: 8, Page 29 of 64

F.3d 1159, 1162 (9th Cir. 2007).7

2.

There Was Insufficient Evidence to Support the Convictions Because

There Was Insufficient Evidence of the Knowledge Required by Rehaif.

The statutes that Counts 1 and 2 of the indictment charge Mr. Door with
violating are 18 U.S.C. § 922(g)(1) and 18 U.S.C. § 924(a)(2) (in Count 1) and 18
U.S.C. § 931 and 18 U.S.C. § 924(a)(7) (in Count 2). See ER 68-70. Section
922(g)(1) provides “it shall be unlawful” for any person who has been convicted
of a crime punishable by imprisonment for a term exceeding one year to possess a
firearm. Section 931 provides “it shall be unlawful” for any person who has been
convicted of a felony “crime of violence,” as defined in 18 U.S.C. § 16, to possess
body armor. Section 924(a) is a separate provision that establishes the mens rea
and maximum penalty for these unlawful acts. Subsection (a)(2) of § 924(a)
provides that anyone who “knowingly violates” § 922(g) shall be fined or
imprisoned for up to 10 years. Rehaif, 139 S. Ct. at 2194 (quoting 18 U.S.C. §
924(a)(2) and adding emphasis). Subsection (a)(7) of § 924(a) provides that
anyone who “knowingly violates” § 931 shall be fined or imprisoned for up to 3
years. 18 U.S.C. § 924(a)(7) (emphasis added).
The question considered in Rehaif – for § 922(g) and § 924(a)(2) – was
the scope of the word “knowingly.” Does it mean that the
Government must prove that a defendant knew both that he
engaged in the relevant conduct (that he possessed a firearm)
and also that he fell within the relevant status (that he was a
7

That the claims were not raised in Mr. Door’s prior appeals does not
preclude review because they are based on an intervening change in the law. See
United States v. Van Alstyne, 584 F.3d 803, 813 (9th Cir. 2009).
20
A043

Case: 19-30213, 12/19/2019, ID: 11538816, DktEntry: 8, Page 30 of 64

felon, an alien unlawfully in the country, or the like)?
Rehaif, 139 S. Ct. at 2194. The Court’s holding – overruling the law of this and
every other circuit, see Brief for the United States at 32-33, Rehaif v. United
States, 139 S. Ct. 2191 (2019) (No. 17-9560) (collecting circuit cases) – was:
[T]he word “knowingly” applies both to the defendant’s
conduct and to the defendant’s status. To convict a defendant,
the Government therefore must show that the defendant knew
he possessed a firearm and also that he knew he had the
relevant status when he possessed it.
Rehaif, 139 S. Ct. at 2194. The Court’s reasons included what “ordinary English
grammar” suggests, id. at 2196; the importance of requiring scienter, or a “vicious
will,” for criminal offenses, id. at 2196-97; and the need to separate innocent from
wrongful conduct, id. at 2197.
The specific offense Rehaif considered was possession of a firearm by an
alien unlawfully in the United States, see id. at 2194, which is made unlawful by
paragraph (5)(A) of § 922(g). But Rehaif’s reasoning readily extends to
possession of a firearm by a person convicted of a crime punishable by
imprisonment for a term exceeding one year, as evidenced by Rehaif’s use of that
as an example. See id. at 2198; see also United States v. Benamor, 937 F.3d 1182,
1188 (9th Cir. 2019) (holding absence of instruction requiring the jury to find
defendant knew he was felon “was clear error under Rehaif”). Rehaif’s reasoning
also extends to § 931 and § 924(a)(7), for § 931 uses the same “it shall be
unlawful” language, and § 924(a)(7) uses the same “knowingly violates” language.
See also H.R. Rep. 107-193, at 7 (2002) (“Anyone who knowingly violates this
section shall be fined, imprisoned not more than 3 years, or both.” (Emphasis
added.))
This means a defendant can be convicted of being a felon in possession of a
21
A044

Case: 19-30213, 12/19/2019, ID: 11538816, DktEntry: 8, Page 31 of 64

firearm or being a violent felon in possession of body armor only if there is
evidence establishing beyond a reasonable doubt the defendant knew he had been
convicted of a felony – or, in the technical language of the statute, “a crime
punishable by imprisonment for a term exceeding one year” – or knew he had been
convicted of a felony crime of violence. The evidence in the present case did not
establish this knowledge.
To begin, the stipulation which was read to the jury did not establish Mr.
Door’s knowledge of his status. That stipulation read in full as follows:
Prior to November 9, 2011, Kenneth Door, the defendant
herein, had been convicted of a felony crime punishable by a
term of imprisonment exceeding one year [t]hat is a crime of
violence, as defined by law, and therefore was a convicted
felon and a person convicted of a felony that is a crime of
violence at the time of the events that are the subject of this
prosecution.
ER 66-67. Glaringly absent from the stipulation is an agreement Mr. Door knew
the crime he was convicted of was punishable by imprisonment for a term
exceeding one year and was a felony crime of violence.
The only other evidence about Mr. Door’s status was the testimony of the
community corrections officer who supervised Mr. Door and authorized and
participated in the search. This officer testified Mr. Door was under community
supervision and had a condition prohibiting him from possessing firearms. See
RT(3/7/14) 285. But cross examination established the offense for which Mr.
Door was on supervision was a misdemeanor, so this testimony proved nothing
about Mr. Door’s knowledge he was a felon or violent felon. See RT(3/7/14) 308.8
Because of the absence of evidence, both the felon in possession count and
8

The convictions on which the charges and the stipulation were based were
other, earlier convictions.
22
A045

Case: 19-30213, 12/19/2019, ID: 11538816, DktEntry: 8, Page 32 of 64

violent felon in possession of body armor count must fall. The Court should order
judgments of acquittal on both counts.9

3.

The Indictment and Jury Instructions Were Deficient Because They

Failed to Allege and Require a Finding of the Knowledge Required by Rehaif.

In addition to insufficient evidence, there were a deficient indictment and
deficient jury instructions. The only knowledge the indictment alleged was that
Mr. Door “did knowingly possess firearms,” ER 69, and “did knowingly possess
body armor,” ER 70. All it said about the prior convictions was that they existed,
to wit, that Mr. Door “ha[d] been convicted of a crime punishable by
imprisonment for a term exceeding one year,” ER 68, and “ha[d] been convicted of
a felony crime of violence,” ER 69. The instructions also modified only the
“possessed a firearm” and “possessed body armor” elements with “knowingly” and
required no finding of knowledge of the felon or violent felon status. See ER 63,
64.
These deficiencies were indisputably clear error that satisfies the first two
prongs of the plain error standard. See United States v. Benamor, 937 F.3d at
1188. The only question remaining is whether the other two prongs of the plain
error standard are satisfied, i.e., whether the error affected Mr. Door’s substantial
rights and the fairness, integrity, or public reputation of judicial proceedings. See
United States v. Olano, 507 U.S. 725, 734, 736 (1993).
9

Rehaif’s reasoning does not clearly extend to the felon in possession of
explosives count, because the penalty provision for that offense requires only that
the defendant “violates” the substantive statute, 18 U.S.C. § 844(a)(1), not that he
“knowingly violates” it.
23
A046

Case: 19-30213, 12/19/2019, ID: 11538816, DktEntry: 8, Page 33 of 64

In the case of a deficient indictment, “[t]he key question . . . is whether an
error or omission in an indictment worked to the prejudice of the accused.” United
States v. Arnt, 474 F.3d at 1162 (internal quotation marks omitted). There is no
prejudice rising to the level of plain error “where [the defendant’s] counsel has
notice of the omitted element and the jury is properly instructed regarding the
missing element.” Id. Neither of these saving facts was present here. Mr. Door’s
counsel could not have had notice of the omitted element because Rehaif had not
been decided and Ninth Circuit case law, as well as that of all other circuits, was to
the contrary, see supra p. 21. And the jury was not properly instructed on the
knowledge element.
In the case of deficient jury instructions, the question is whether there is a
“reasonable probability” the error “affected the jury’s verdict,” United States v.
Ornelas, 906 F.3d 1138, 1145 (9th Cir. 2018), cert. denied, 139 S. Ct. 2638
(2019), and whether “the ‘instructions improperly deprived [the defendant] of his
right to have a jury determine an essential element’ of the offense: ‘mental state,’”
id. at 1146 (quoting United States v. Paul, 37 F.3d 496, 501 (9th Cir. 1994)). The
latter requirement is satisfied here because an essential “mental state” element,
namely, the knowledge of status required by Rehaif, is precisely what the
instructions omitted. There is also a reasonable probability the error affected the
verdict – indeed, far more than a reasonable probability – for there was no
evidence at all of Mr. Door’s knowledge of his felon and violent felon status.

24
A047

PAGES NOT PERTINENT TO PETITION FOR
WRIT OF CERTIORARI OMITTED

A048

AP P ENDI X5

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 1 of 84

No. 19-30213
[NO. 3:12-cr-05126-RBL, USDC, W.D. Washington]
______________________________________________________
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
______________________________________________________
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
KENNETH RANDALE DOOR,
Defendant-Appellant.
______________________________________________________
ANSWERING BRIEF OF UNITED STATES
______________________________________________________
Appeal from the United States District Court
for the Western District of Washington at Tacoma
The Honorable Ronald B. Leighton
United States District Judge
_______________________________________________________
BRIAN T. MORAN
United States Attorney
Western District of Washington
MICHAEL S. MORGAN
Assistant United States Attorney
700 Stewart Street, Suite 5220
Seattle, Washington 98101
Telephone: 206-553-7970

A049

PAGES NOT PERTINENT TO PETITION FOR
WRIT OF CERTIORARI OMITTED

A050

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 16 of 84

district court had jurisdiction pursuant to 18 U.S.C. §3231. This Court
has jurisdiction pursuant to 28 U.S.C. §1291 and 18 U.S.C. §3742(a).
On August 30, 2019, Door was sentenced to a 276-month prison
term, followed by 3 years of supervised release.

ER_28-34. 1

The

judgment was entered that same day (CR_306), and Door timely
appealed on September 11, 2019. CR_307; ER_26-27.
DEFENDANT’S BAIL STATUS
Door is serving the 276-month prison sentence imposed by the
district court. His projected release date is June 12, 2033.
STATEMENT OF THE CASE
I.

The Evidence Supporting Door’s Conviction.
In late October 2011, ATF Special Agent Jonathan Hansen

received a tip from a then-anonymous source that Door, an individual
with a lengthy criminal history, was selling drugs and had firearms in
his home in Tacoma, Washington. PSR_3 (¶6); RT_127-30, 209-12, 246-

“CR_” refers to the district court’s record of the case; “ER_” to
Appellant’s Excerpts of Record; “SER_” to Appellee’s Supplemental
Excerpts of Record; “RT_” to Reporter’s Transcript of the trial; “PSR_”
to the Presentence Report; “1RPSR_” to the first Revised Memorandum
on Resentencing; “2RPSR_” to the second Revised Memorandum on
Resentencing; and “OB_” to Appellant’s Opening Brief.
1

2

A051

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 17 of 84

47. Hansen conducted an investigation and then contacted Door’s state
community corrections officer, Tim Dougherty-Sanders, and reported
Door was suspected of selling methamphetamine and possessing
firearms. RT_129, 134, 284, 292, 320.
Based on that information, and other prior suspicious events
including the discovery of a “Police”-style raid jacket in Door’s
possession, Officer Dougherty-Sanders decided to conduct a warrantless
search of Door’s home, as permitted under the terms of Door’s
supervision. PSR_3, 72 (¶¶6, 72); RT_134-35, 292-93, 309. That search
was carried out on November 9, 2011. PSR_3 (¶6). The first attempt
failed because no one came to the door despite repeated knocking.
RT_137-39, 296, 299, 322-23. The search ultimately took place a while
later after Door was observed and detained outside the residence.
RT_300, 321, 326. During the search, Dougherty-Sanders discovered
two handguns, some magazines loaded with ammunition, two sets of
body armor, a seal bomb, two digital scales, drug packaging materials,
and two drug pipes containing methamphetamine residue. PSR_3 (¶6);
RT_141-45, 158-60, 221-26, 265-74, 301-03, 324-25. These discoveries

3

A052

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 18 of 84

led to Door’s arrest, first on state charges, and later on charges brought
in a federal complaint. See CR_1.
In November 2011, while the state charges were pending, Agent
Hansen visited Door at the county jail at Door’s invitation. PSR_3 (¶7);
RT_179-80, 201, 215, 305; ER_110.

Door said he was interested in

working as an informant, but Hansen told him there was “a credibility
issue we need to get past,” namely that Door had “lied” after his arrest
by claiming everything seized from his home belonged to a friend.
RT_176-179, 182; ER_110. Door then admitted to possessing each of
those items. RT_182-83; ER_110-11; PSR_3 (¶7). Door also admitted
selling methamphetamine to pay his debts, but claimed he stopped
several weeks before the search of his home. ER_111; PSR_3 (¶7). Door
admitted he was home when the officers first attempted to conduct the
search and that he knew the items were present in the residence.
ER_110-11. Among other things, Door told Hansen that he believed one
of the firearms was stolen from an elderly man. ER_111.
While in pretrial detention, in both state and federal facilities,
Door made a number of telephone calls using a monitored inmate
telephone system that were introduced at trial. RT_111-15, 148-52. In

4

A053

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 19 of 84

one call, Door told a female caller, “So, what the fuck, I had two guns, so
what. Two guns and two bulletproof vests, big deal.” Gov’t Exh. 301A.
In that same call, Door told the caller, “I had to pay an attorney. And, I
wasn’t gonna go ask my mom. . . . So, I was like fuck it, I’m gonna sell
some dope. And the only way to sell dope, to do it, to stay up, to fucking
run with all the tweakers.” Gov’t Exh. 301B. In a second call, Door
admitted that he was present when the authorities first came to search
his home on November 9, 2011; that he knew about the items in his
house; and that he tried to get rid of those item when the authorities
left. Gov’t Exh. 301C. In yet a third call, Door mentioned that an ATF
agent had come to see him, and told the caller he had “about 50 guns
out there” that could be surrendered in an effort to cooperate.
Gov’t Exh. 301D.
II.

Door’s Indictment, Conviction, And Initial Sentencing.
A.

The Indictment And The Jury Verdict.

On March 28, 2012, Door was charged by indictment with being a
Felon In Possession of a Firearm, in violation of 18 U.S.C. §922(g)(1)
(Count 1); Possessing Body Armor as a Felon Convicted of a Crime of
Violence, in violation of 18 U.S.C. §931(a) (Count 2); and a being a Felon

5

A054

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 20 of 84

in Possession of an Explosive, in violation of 18 U.S.C. §842(i)(1)
(Count 3). 2 ER_68-71.

The indictment also alleged that Door was

subject to enhanced sentencing under the Armed Career Criminal Act
(ACCA) on Count 1. ER_68-69. See 18 U.S.C. §§924(a)(2) and 924(e)(1).
Each count listed several of Door’s prior convictions supporting his
status as a felon. ER_68-71.
Door was convicted as charged following a jury trial.

CR_212.

Regarding the elements pertaining to his felon status, Door stipulated
that he “had been convicted of a felony crime punishable by a term of
imprisonment exceeding one year.

That is a crime of violence, as

defined by law, and therefore was a convicted felon and a person
convicted of a felony that is a crime of violence at the time of the events
that are the subject of this prosecution.”

ER_66-67.

The elements

In a separate case, Door was charged with, and pleaded guilty to,
Conspiracy to Defraud the United States, in violation of 18 U.S.C. §286.
This charge arose from a conspiracy involving the filing of false tax
returns that Door led while incarcerated in state prison. PSR_3 (¶5).
Door received a 60-month prison sentence, 40 months of which were to
be served concurrent with the sentence in this case, and 20 months to
be served consecutive to this sentence. See United States v. Door,
12-cr-05139-BHS (W.D. Wash.), Dkt. Nos. 170-71.
2

6

A055

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 21 of 84

instruction that the district court provided the jury for all three counts
referenced this stipulation. ER_63-64; CR_209 at 17-19.
B.

Door’s First Sentencing.

The district court found Door was subject to an enhanced sentence
under ACCA because he had three prior convictions for “a violent felony
or a serious drug offense, or both.”

18 U.S.C. §924(e)(1).

The

government identified eight prior Washington state convictions as
qualifying violent felonies supporting the enhancement.

CR_221.

Specifically, Door had prior convictions for second-degree assault with a
deadly weapon, stemming from an altercation in which Door fired at
police officers 3 ; attempting to elude arising from a high-speed chase
with police officers; and six prior convictions for second-degree burglary,
in which Door burgled a residence or a business. PSR_7-12 (¶¶41-69);
see also SER_1-17, 71-95.
The Probation Office calculated Door’s advisory sentencing range
as follows:

Door had five second-degree assault convictions based on this
shooting, but since they were committed during a single incident they
constituted only one ACCA predicate. See 18 U.S.C. §924(e)(1).
3

7

A056

PAGES NOT PERTINENT TO PETITION FOR
WRIT OF CERTIORARI OMITTED

A057

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 35 of 84

the court found the Guidelines range insufficient to account for the
circumstances of Door’s case.

This was procedurally reasonable.

Finally, given Door’s unrelenting history of criminality and violence, the
276-month sentence he received was substantively reasonable.
ARGUMENT
I.

Door’s Guilt Of Unlawfully Possessing A Firearm And
Body Armor Was Proven Beyond A Reasonable Doubt.
When Door was tried in 2014, a conviction under 18 U.S.C.

§922(g)(1) only required proof that the defendant had a felony
conviction (a crime punishable by imprisonment for at term exceeding
one year), and that he knowingly possessed a firearm; the government
did not have to prove the defendant knew his “felon status.”
United States v. Miller, 105 F.3d 552, 555 (9th Cir. 1997). Similarly, a
conviction under 18 U.S.C. §931(a) only required proof that the
defendant knowingly possessed body armor and had a prior felony
conviction that met the legal definition of a crime of violence; the
government did not have to prove the defendant knew his conviction
was a felony or that it met this definition. Cf. United States v. Mirabal,
876 F.3d 1029, 1038 (10th Cir. 2017).

The jury in this case was

instructed in accordance with these principles, and thus was not asked
21

A058

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 36 of 84

to find whether Door knew he was a felon or that he knew his predicate
conviction qualified as a crime of violence.
Recently, however, the Supreme Court held that a conviction
under §922(g) requires proof both that the defendant knowingly
possessed a firearm and that he knew of his prohibited status (in this
case that he had a felony conviction).
139 S. Ct. 2191, 2195-97 (2019).

See Rehaif v. United States,

Door does not dispute that the

evidence proved he knowingly possessed a firearm, or that he did so as
a felon. Door does, however, argue that his conviction under §922(g)(1)
cannot stand because the evidence was insufficient to prove he knew his
predicate conviction was punishable by a term of imprisonment
exceeding one year. Similarly, while Door does not dispute that the
evidence proved he knowingly possessed body armor while he had a
felony conviction for a crime of violence, he argues that Rehaif’s holding
applies to §931(a), and that there was insufficient evidence to prove he
knew “he had been convicted of a felony crime of violence.” OB_21-22.
Generally, this Court “do[es] not examine the sufficiency of
evidence of an element that the Government was not required to prove
under the law of our circuit at the time of trial because the Government

22

A059

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 37 of 84

had no reason to introduce such evidence in the first place.”
United States v. Kim, 65 F.3d 123, 126-27 (9th Cir. 1995). But this rule
had been applied only where the Court concludes the trial court
committed reversible error in failing to instruct the jury in accordance
with this intervening change in the law, thereby misstating what the
government is required to prove. See United States v. Recio, 371 F.3d
1093, 1106-07 (9th Cir. 2004); Kim, 65 F.3d at 125-27. Here, however,
the jury instructions omitting the knowledge element required by
Rehaif do not amount to reversible plain error, see Section II.C., infra,
so it is not clear if cases such as Kim preclude the Court from reaching
Door’s sufficiency claims. Regardless, these claims fail on the merits.
A.

Standard Of Review.

Evidence is legally sufficient if, viewed in the light most favorable
to the verdict, there is proof “beyond a reasonable doubt of the existence
of every element of the offense.” Jackson v. Virginia, 443 U.S. 307, 316
(1979).

“[T]he government does not need to rebut all reasonable

interpretations of the evidence that would establish the defendant’s
innocence.” United States v. Nevils, 598 F.3d 1158, 1164 (9th Cir. 2010)
(en banc). The question is whether “any rational trier of fact could have

23

A060

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 38 of 84

found the essential elements of the crime beyond a reasonable doubt.”
Jackson, 443 U.S. at 319.
Where preserved, the Court reviews a sufficiency challenge
de novo. See United States v. Phillips, 929 F.3d 1120, 1123 (9th Cir.
2019).

To preserve such an issue, the defendant’s Rule 29 motion

“do[es] not need to state the grounds upon which [it is] based.”
United States v. Navarro Viayra, 365 F.3d 790, 793 (9th Cir. 2004).
“[H]owever, when a Rule 29 motion is made on a specific ground, other
grounds not raised are waived.” 8 United States v. Graf, 610 F.3d 1148,
1166 (9th Cir. 2010).

Here, the defense made a summary Rule 29

motion challenging “all three counts” at the close of the government’s
case (ER_25), and the close of all the evidence (ER_23), and supported
those motions with no argument. Under this Court’s precedents, this
sufficed to preserve Door’s newly-minted sufficiency claim. 9
This is an unusual rule, as it rewards a defendant who makes a
summary Rule 29 motion (leaving the district court to guess as to which
part of the government’s case is insufficient), and punishes a defendant
who advances a focused argument to support his motion.
8

Because Door’s sufficiency claim is based on an intervening
change in the law, the government agrees (OB_20 n.7) that his failure
to raise it in his prior appeals does not bar him from doing so now. See
United States v. Van Alstyne, 584 F.3d 803, 813 (9th Cir. 2009).
9

24

A061

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 39 of 84

B.

Following Rehaif v. United States, The
Government Must Prove The Defendant Knew He
Was A Felon To Convict Him Of Unlawfully
Possessing Firearms Or Body Armor.

While Rehaif involved a prosecution for being an illegal alien in
possession of a firearm, the Government does not dispute that this
holding applies to the prohibited status listed in all subsections of
§922(g). See Rehaif, 139 S. Ct. at 2194, 2200. Thus, the government
agrees that a felon-in-possession conviction under §922(g)(1) now
requires proof the defendant knew he had a past conviction that was
punishable by a term of imprisonment exceeding one year.

See

United States v. Benamor, 937 F.3d 1182, 1186 (9th Cir. 2019).
The government also agrees that because of its statutory
structure, Rehaif’s holding apples to §931(a), though not in the manner
urged by Door. Section 931(a) provides that “it shall be unlawful for a
person to purchase, own, or possess body armor, if that person has been
convicted of a felony that is—(1) a crime of violence (as defined in
section 16); or (2) an offense under State law that would constitute a
crime of violence under paragraph (1) if it occurred within the special
maritime and territorial jurisdiction of the United States.” A separate
statute provides that “[w]hoever knowingly violates section 931 shall be
25

A062

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 40 of 84

fined under this title, imprisoned not more than 3 years, or both.”
18 U.S.C. §924(a)(7). This is the same statutory structure at issue in
Rehaif:

a statute defining the crime (§922(g)) and another statute

providing that a knowing violation of the definitional statute is
punishable by a prescribed penalty (§924(a)(2)). Applying the rules of
statutory construction announced in Rehaif, the government agrees
that the knowledge element applicable to §931(a) applies to both the
possession element and the defendant’s status as a felon.
Section 931(a) does not, however, apply to every felon, only felons
who have a past felony conviction that meets the definition of a crime of
violence, i.e., “an offense that has as an element the use, attempted use,
or threatened use of physical force against the person or property of
another.” 18 U.S.C. §16(a). 10 Door insists that in addition to proving
the defendant knew his status as a felon, Rehaif also requires the
government to prove the defendant knew his conviction was “a felony
A crime of violence also includes “any other offense that is a
felony and that, by its nature, involves a substantial risk that physical
force against the person or property of another may be used in the
course of committing the offense,” 18 U.S.C. §16(b), but this definition
has been invalidated as unconstitutionally vague. See Sessions v.
Dimaya, 138 S. Ct. 1204 (2018).
10

26

A063

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 41 of 84

crime of violence.”

OB_22.

This cannot be correct, since it would

impose an impossible burden on the government. Cf. United States v.
Balint, 258 U.S. 250, 254 (1922) (difficulty of proving knowledge
suggests Congress did not intend to require such proof).
As this Court is no doubt aware, judges often cannot agree about
whether a crime meets the statutory definition of a crime of violence
given the complicated legal principles governing this inquiry. See, e.g.,
United States v. Begay, supra (split Ninth Circuit opinion disagreeing
about whether federal second-degree murder is a crime of violence).
Given this reality, there is no way Congress intended to limit §931(a) to
defendants who knew their past crimes met the legal definition of a
crime of violence. Since that analysis does not take place until some
future conviction, the universe of such defendants is all but nonexistent.
Sections 931(a) and 924(a)(7) were enacted as part of the James Guelff
and Chris McCurley Body Armor Act of 2002, see Pub. L. 107-273,
Div. C, Title I, §§11009(e)(2)(A), (C), 116 Stat. 1758, 1821 (Nov. 2, 2002),
and were intended by Congress to address “the serious threat to
community safety posed by criminals who wear body armor during the
commission of a violent crime.”

27

34 U.S.C. §10534(b)(4).

This

A064

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 42 of 84

congressional intent would be frustrated if these statutes were
construed to apply only to the insignificant number of felons who have
knowledge that their prior convictions meet the statutory definition of a
crime of violence.
The government’s proposed construction of §931(a) and §924(a)(7)
is consistent with Rehaif.

Like the statutes at issue in that case,

§931(a) and §924(a)(7) operate to ground the defendant’s unlawful
conduct not on his mere possession of body armor (which is lawful for
most persons), but on the status of the person who possesses body
armor.

Requiring the government to prove the defendant knew his

felon status is sufficient to limit prosecutions to ‘“those who understand
the wrongful nature of their act,”” and thus protect those who are
unaware their acts are unlawful. Rehaif, 139 S. Ct. at 2196. Requiring
proof that the defendant knew his past felony also constituted a crime of
violence does not meaningfully further that goal, and, as noted, is
inconsistent with Congress’s intent in enacting these statutes.
Nor does the statutory text require this result. In Rehaif, the
Supreme Court held the knowledge requirement of §924(a)(2) applied to
the status elements in §922(g) because “[t]he term ‘knowingly’ in

28

A065

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 43 of 84

§ 924(a)(2) modifies the verb ‘violates’ and its direct object, which in this
case is § 922(g),” and thus applies to all the elements in §922(g) except
the jurisdictional element. 139 S. Ct. at 2195-96. Door, though, is not
proposing that §924(a)(7)’s knowing requirement be read to modify the
text of §931(a) alone. Section 931(a) references §16 to incorporate that
statute’s definition of a crime of violence, meaning that Door’s proposed
construction is asking that the “knowingly” requirement in §924(a)(7)
be read to modify not only §931, to which §924(a)(7) expressly refers,
but also to the definition in §16, which is not referenced in §924(a)(7).
Rehaif does not compel this construction. Cf. 139 S. Ct. at 2196 (“This
is notably not a case where the modifier ‘knowingly’ introduces a long
statutory phrase, such that questions may reasonably arise about how
far into the statute the modifier extends.”).

Indeed, under Door’s

proposal, the government would not only have to prove the defendant
knew his felony conviction involved “the use, attempted use, or
threatened use of physical force,” it would also have to prove the
defendant knew “physical force” is not just any force, but only “violent
force” as defined by the Supreme Court. See Johnson v. United States,

29

A066

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 44 of 84

559 U.S. 133, 139-42 (2010). This cannot be right, and was certainly
not what Congress intended when it enacted these statutes in 2002.
C.

Sufficient Evidence Supports Door’s Conviction
For Possessing A Firearm As A Convicted Felon,
And For Possessing Body Armor As A Felon
Convicted Of A Crime Of Violence.

Door does not dispute that the evidence proved he knowingly
possessed the firearms and body armor found in his residence, or that
when he possessed those items he had a felony conviction that qualifies
as a crime of violence.

However, as discussed, following Rehaif the

government was also required to prove that Door knew his status as a
felon to convict him under §922(g)(1) for possessing a firearm as a felon,
and under §931(a) for possessing body armor following a felony
conviction that is a crime of violence. The government did so, because
Door stipulated to his felon status.
Prior to trial, the defense indicated Door would stipulate to his
prohibited status. CR_168 at 7. Accordingly, the jury was informed
that the parties had stipulated to the following:
Prior to November 9, 2011, Kenneth Door, the defendant
herein, had been convicted of a felony crime punishable by a
term of imprisonment exceeding one year. That is a crime of
violence, as defined by law, and therefore was a convicted
felon and a person convicted of a felony that is a crime of
30

A067

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 45 of 84

violence at the time of the events that are the subject of this
prosecution.
ER_66-67. The jury was also instructed that because of this stipulation,
“You should therefore treat these facts as having been proved.” ER_67.
The court’s final instructions likewise informed the jury that Door
stipulated that “at the time its alleged he possessed a firearm, the
defendant had been convicted of a crime punishable by imprisonment
for a term exceeding one year and thus was a felon” (ER_63), and that
“at the time it is alleged he possessed body armor, the defendant had
been convicted of a crime of violence punishable by imprisonment for a
term exceeding one year.” ER_64.
Door’s “factual stipulation[s] w[ere] binding, and [they] relieved
the government of the burden to prove [Door]’s status as a felon,” as
well as his status as felon who had been convicted of a crime of violence.
Benamor, 937 F.3d at 1188.

Door responds that because these

stipulations did not expressly mention that he knew his prohibited
status, they were insufficient to prove the knowledge element required
by Rehaif. OB_22. Given the procedural posture of this case, Door
should be estopped from making this argument. And, in in any event,
this argument lacks merit.
31

A068

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 46 of 84

Because Door offered to stipulate to his felon status, the district
court was required to accept that stipulation.

See United States v.

Hernandez, 109 F.3d 1450, 1452 (9th Cir. 1997). And as a result of that
stipulation, the government was precluded from offering any evidence
about the circumstances of Door’s past felony convictions that would
show Door knew his prohibited status. See Old Chief v. United States,
519 U.S. 172, 190-92 (1997). For example, Door’s stipulation prevented
the jury from learning that he served a 10-year sentence for a felony
assault conviction for shooting at police officers (PSR_11 (¶¶63-65);
SER_1-17), which would have conclusively proven Door knew he has a
felony conviction that was punishable by a term of imprisonment
exceeding one year, as required by §922(g)(1). The jury was also barred
from learning that Door served a 51-month sentence for felony
harassment for threatening to kill his ex-girlfriend (PSR_10 (¶¶61-62);
SER_18-27), which would have conclusively proven Door knew he has a
felony conviction involving a threat to kill.

And although the

government was not required to prove Door knew this conviction was a
crime of violence, this evidence would have done so, since anyone would
recognize that a threat to kill involves a threat to use “physical force”

32

A069

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 47 of 84

against the person of another under any definition of that term. Door
should not now be permitted to complain about the government’s failure
to prove his knowledge of his prohibited status when any such failure
was a direct result of Door’s affirmative act of stipulating to that status.
Cf. United States v. Butler, 74 F.3d 916, 924 (9th Cir. 1996) (defendant
who requested a lesser-included offense and was convicted of that
offense and acquitted on the greater, was precluded from arguing that
his offense of conviction was not actually a lesser-included of the
charged crime).
In any event, Door’s sufficiency challenge is foreclosed by
Benamor. In Benamor, the Court held that because the defendant’s
stipulation removed the issue of the defendant’s felon status from the
case, that stipulation also relieved the government of having to prove
the defendant’s knowledge of that status. See 937 F.3d at 1188. 11 The
same reasoning applies here.

After discussing the effect of the defendant’s stipulation, the
Court in Benamor went on to say that “[a]ssuming, however, that the
stipulation does not end the discussion as to Defendant’s knowledge of
his status as a felon,” relief on plain-error review was not warranted
because the record “proved beyond a reasonable doubt that Defendant
had the knowledge required by Rehaif and that any error in not
(continued . . .)
11

33

A070

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 48 of 84

Even if this were not the case, a defendant’s knowledge of his
prohibited status may be proven by circumstantial evidence.
Rehaif, 139 S. Ct. at 2198.

See

Here, Door stipulated that his felony

conviction was a crime of violence punishable by a term of
imprisonment exceeding one year, and the jury could easily infer that
Door was aware of the punishment attendant with this conviction. See
United States v. Reed, 941 F.3d 1018, 1022 (11th Cir. 2019).
Defendants, after all, are generally not oblivious to the punishment
they are ordered to serve following a conviction.

Because this is a

reasonable inference to draw from Door’s stipulation, the Court ‘“must
presume’” the jury did so, “‘even if it does not affirmatively appear in
the record.’”

Nevils, 598 F.3d at 1164 (citation omitted).

This

stipulation was therefore sufficient to prove Door’s knowledge of his
felon status required for his convictions under §922(g)(1) and §931(a). 12
(continued . . .)
instructing the jury to make such a finding did not affect Defendant’s
substantial rights or the fairness, integrity, or public reputation of the
trial. 937 F.3d at 1188-89. This alternative holding assumed the
stipulation did not resolve the knowledge question, which confirms that
the Court also held the stipulation was indeed dispositive of this issue.
This inference was not only warranted by the stipulation, it was
factually true. Door’s predicate felonies were Washington convictions,
(continued . . .)
12

34

A071

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 49 of 84

D.

If The Court Finds The Evidence Is Insufficient,
In This Case The Appropriate Remedy Is A New
Trial.

Normally, if an appellate court concludes that the government
presented insufficient evidence to sustain a defendant’s conviction, the
Double Jeopardy Clause dictates that the remedy is to order entry of a
judgment of acquittal.

See Burks v. United States, 437 U.S. 1, 18

(1978). However, an exception applies if the insufficiency results from a
change in the law that adds an element the government was not
required to prove at the time of trial.

In that event, “the proper

disposition of this case is remand for new trial.”

United States v.

Weems, 49 F.3d 528, 531 (9th Cir. 1995).
As discussed, when Door was tried, controlling authority from this
Court held that the government was not required to prove the
(continued . . .)
and such convictions are “punishable by a term of imprisonment
exceeding one year” within the meaning of §922(g)(1) (and presumably
§931(a)) only if the low end of the defendant’s mandatory sentencing
guidelines range exceeds one year. See United States v. McAdory,
935 F.3d 838, 842-44 (9th Cir. 2019). A defendant sentenced under
such a system undoubtedly knows his crime is, in fact, punishable by
more than one year in prison. And, indeed, Door’s state judgments,
which Door signed, confirm he had felony convictions where his
guidelines range and sentence exceeded one year. SER_1-27, 95-119.

35

A072

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 50 of 84

defendant’s knowledge of his “felon status” to secure a conviction under
§922(g)(1), Miller, 105 F.3d at 555, and, by parity of reasoning, a
conviction under §931(a). Rehaif has changed this, and now requires
the government to prove the defendant’s knowledge of his prohibited
status. Thus, if the Court were to find the evidence of this element is
insufficient, this would be because “[t]he government had no reason to
introduce such evidence because, at the time of trial, under the law of
our circuit, the government was not required to prove that a defendant
knew” his felon status. Weems, 49 F.3d at 531. Accordingly, a new trial
would be the appropriate remedy in this circumstance. See id.
II.

Omission Of Rehaif’s Knowledge-Of-Prohibited-Status
Element From The Indictment And The Jury
Instructions Was Not Reversible Plain Error.
As a corollary to his sufficiency claims, Door argues that his

convictions for possessing a firearm as a felon, and possessing body
armor as a felon whose felony is a crime of violence, must be reversed
because the indictment failed to allege he had knowledge of his felon
status when he possessed those items. Door similarly argues the jury
instructions were fatally defected because they did not require the

36

A073

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 51 of 84

government to prove this knowledge element.

OB_23-24.

Door is

incorrect.
A.

Standard Of Review.

As Door concedes (OB_19), because he did not object to either the
indictment or the jury instructions below, the Court reviews for plain
error.

See United States v. Cotton, 535 U.S. 625, 631 (2002)

(indictment); Jones v. United States, 527 U.S. 373, 388-89 (1999) (jury
instructions).
B.

Door Has Waived His Challenge To The
Indictment, Which Is Not Plainly Insufficient.

A defendant is presently required to challenge the sufficiency of
the indictment, including a claim that the indictment “fail[s] to state an
offense,” in a pretrial motion. Fed. R. Crim. P. 12(b)(3)(B)(v). Absent
good cause, a failure to comply with Rule 12(b)(3) results in a waiver.13
See Fed. R. Crim. P. 12(c)(3); United States v. Ortiz, 776 F.3d 1042, 1044

Some cases continue to say “that the failure of an indictment to
state an offense cannot be waived,” United States v. Spangler, 810 F.3d
702, 711 (9th Cir. 2016), but this rule was based on the premise that an
indictment’s failure to state an offense deprives the district court of
subject matter jurisdiction. See United States v. Broncheau, 597 F.2d
1260, 1262 n.1 (9th Cir. 1979). This premise is no longer correct. See
Cotton, 535 U.S. at 629-31.
13

37

A074

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 52 of 84

n.3 (9th Cir. 2015), and this waiver leaves the issue unreviewable even
for plain error.

See United States v. Wright, 215 F.3d 1020, 1026

(9th Cir. 2000). Door did not challenge the indictment before trial, and
since he has not attempted to show good cause for this failure in his
opening brief, the issue is waived. See Ortiz, 776 F.3d at 1044 n.3.
Even if reviewable, Door’s untimely challenge to the indictment
does not demonstrate clear or obvious error. “An indictment is required
to set forth the elements of the offense sought to be charged.”
United States v. Debrow, 346 U.S. 374, 376 (1953); see also Fed. R.
Crim. P. 7(c)(1). However, “indictments which are tardily challenged
are liberally construed in favor of validity,” Spangler, 810 F.3d at 711,
and an indictment that tracks the language of the statute charged is
generally sufficient. See Hamling v. United States, 418 U.S. 87, 117
(1974).

Here, the indictment tracked the statutory language of

§922(g)(1) and §931(a) by alleging Door’s possession of a firearm and
body armor; the required nexus to commerce; and Door’s status as a
felon and a felon convicted of a crime of violence, respectively. And the
indictment also tracked the language of §924(a)(2) and §924(a)(7) by

38

A075

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 53 of 84

appending the “knowingly” modifier to his commission of both offenses.
ER_68-70.
Although “implied, necessary elements, not present in the
statutory language, must be included” in the indictment, United States
v. Jackson, 72 F.3d 1370, 1380 (9th Cir. 1995), Rehaif recognized an
element that was present in the statutory text. The Supreme Court’s
analysis was expressly anchored to the text itself. See 139 S. Ct. at
2195-96. The Court did not purport to discover an “implied, necessary
element[] not present in the statutory language.” Jackson, 72 F.3d at
1380.

As a result, the indictment in this case was not required to

articulate the precise contours of “knowingly” and was not plainly
erroneous, particularly when “liberally construed in favor of validity.”
Spangler, 810 F.3d at 711.
C.

The Defect In The Jury Instructions Did Not
Affect Door’s Substantial Rights.

Like an indictment, the jury instructions must set forth all the
elements of the crime charged. See Neder v. United States, 527 U.S. 1, 8
(1999). Here, the jury instructions lacked the knowledge-of-prohibitedstatus element required by Rehaif. ER_63-64. Because Rehaif predates

39

A076

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 54 of 84

this appeal, this error is “plain” within the meaning of Rule 52(b). See
Johnson v. United States, 520 U.S. 461, 468 (1997).
However, while Door claims otherwise (OB_24), he cannot make
the last two showings required to obtain relief on plain-error review.
First, “there is no probability that, but for the error[s], the outcome of
the proceeding would have been different.” Benamor, 937 F.3d at 1189.
In making this assessment, the Court “may consult the whole record
when considering the effect of any error on substantial rights.”
United States v. Vonn, 535 U.S. 55, 59 (2002). Thus, the Court may
consider all the record evidence about Door’s criminal past, not just the
trial evidence, to determine whether Door was prejudiced by the jury
instruction’s omission of the knowledge element required by Rehaif.
See Benamor, 937 F.3d at 1189. The Court may do likewise if it were to
find any plain defect in the indictment. See Reed, 941 F.3d at 1021-22.
The record before the Court proves overwhelmingly that Door
knew he has a conviction punishable by a term of imprisonment for a
term exceeding one year, as required by §922(g)(1). In fact, Door has
around 20 felony convictions where he served prison terms ranging
from 14 months to 10 years. PSR_8-11 (¶¶43-48, 51-58, 61-65); SER_1-

40

A077

Case: 19-30213, 03/27/2020, ID: 11644595, DktEntry: 21, Page 55 of 84

27.

And among these is a felony conviction for a crime of violence

(felony harassment) for which Door served a 51-month prison sentence
(PSR_10 (¶¶61-62); SER_18-27), which shows he knew his felon status
as required by §931(a). These convictions “proved beyond a reasonable
doubt that [Door] had the knowledge required by Rehaif and that any
error in not instructing the jury to make such a finding did not affect
Defendant’s substantial rights or the fairness, integrity, or public
reputation of the trial.” Benamor, 937 F.3d at 1189. The same is true
for any plain defect in the indictment. See Reed, 941 F.3d at 1022.
III.

The District
Sentencing.

Court

Committed

No

Error

At

Door argues that the district court committed two procedural
errors at sentencing. First, Door contends the court erred in assessing
an enhancement for obstruction of justice under USSG §3C1.1. OB_2630. Second, Door claims the court procedurally erred by giving “the
sentencing guidelines no weight.”

OB_31.

Door also claims his

sentence is substantively unreasonable. OB_34-37. These arguments
are meritless.

41

A078

PAGES NOT PERTINENT TO PETITION FOR
WRIT OF CERTIORARI OMITTED

A079

AP P ENDI X6

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 1 of 33

CA NO. 19-30213
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
KENNETH RANDALE DOOR,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)
)

D.C. No. 3:12-cr-05126-RBL

APPELLANT’S REPLY BRIEF

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
HONORABLE RONALD B. LEIGHTON
United States District Judge

CARLTON F. GUNN
Attorney at Law
65 North Raymond Ave., Suite 320
Pasadena, California 91103
Telephone (626) 667-9580
Attorney for Defendant-Appellant

A080

PAGES NOT PERTINENT TO PETITION FOR
WRIT OF CERTIORARI OMITTED

A081

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 8 of 33

CA NO. 19-30213
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
KENNETH RANDALE DOOR,
Defendant-Appellant.

D.C. No. 3:12-cr-05126-RBL

I.
ARGUMENT

A.

THE EVIDENCE WAS INSUFFICIENT TO SUPPORT THE FELON IN

POSSESSION OF A FIREARM AND VIOLENT FELON IN POSSESSION OF
BODY ARMOR CONVICTIONS.

1.

Required Mens Rea.

For felon in possession of a firearm in violation of 18 U.S.C. § 922(g)(1),
the government agrees Rehaif v. United States, 139 S. Ct. 2191 (2019), requires
proof the defendant knew the facts that made him a prohibited person, namely, he
had been convicted of “a crime punishable by imprisonment for a term exceeding
one year.” But for violent felon in possession of body armor in violation of 18
1
A082

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 9 of 33

U.S.C. § 931, the government argues only partial knowledge is required. The
defendant must know he has been convicted of a felony, but does not need to
know it was a crime of violence.
This half step cannot be squared with Rehaif. Rehaif’s reasoning requires
complete knowledge for violent felon in possession of body armor just as it does
for felon in possession of a firearm.
Initially, Rehaif’s textual analysis requires complete knowledge for violent
felon in possession of body armor. That textual analysis had three steps. First, it
pointed out that “[t]he term ‘knowingly’ in §924(a)(2) modifies the verb ‘violates’
and its direct object, which in this case is §922(g).” Id., 139 S. Ct. at 2195.
Second, it listed the elements in that direct object: “With some here-irrelevant
omissions, §922(g) makes possession of a firearm or ammunition unlawful when
the following elements are satisfied: (1) a status element (in this case, “being an
alien . . . illegally or unlawfully in the United States”); (2) a possession element (to
“possess”); (3) a jurisdictional element (“in or affecting commerce”); and (4) a
firearm element (a “firearm or ammunition”). Id. at 2195-96. Third, the Court
recognized a principle of “ordinary English grammar,” requiring “read[ing] the
statutory term ‘“knowingly” as applying to all the subsequently listed elements of
the crime.’” Id. at 2196 (quoting Flores-Figueroa v. United States, 556 U.S. 646,
650 (2009).
The same logical steps apply to § 924(a)(7) and § 931. First, “[t]he term
‘knowingly’ in §924(a)[(7)] modifies the verb ‘violates’ and its direct object,
which in this case is §[931].” Second, “§[931] makes possession of [body armor]
unlawful when the following elements are satisfied: (1) a status element (in this
case, [“has been convicted of a felony that is . . . a crime of violence (as defined in
2
A083

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 10 of 33

section 16)”]; (2) a possession element (to “possess”); . . . and [(3)] a [body armor]
element ([“body armor”]).1 Finally, “ordinary English grammar,” requires
“reading the statutory term ‘“knowingly” as applying to all the subsequently listed
elements of the crime.’” Those subsequently listed elements are the possession
element and both parts of the status element, i.e., “felony” and “that is . . . a crime
of violence,” not the possession element and just the first part, but not the second
part, of the status element.2
Rehaif’s recognition of the general requirement of scienter, or a “vicious
will,” id., 139 S. Ct. at 2196, also extends. Just as possession of a gun can be
entirely innocent, see Rehaif, 139 S. Ct. at 2197, possession of body armor can be
entirely innocent. Possession of body armor may be even more innocent to some
extent, because it is innately defensive.
The government’s argument that the defense construction places an
“impossible burden” on the government because even judges cannot agree about
what constitutes a “crime of violence” ignores the difference between judges and

1

Section 931 itself does not include the jurisdictional interstate or foreign
commerce element in § 922(g), but § 921(a)(35) defines “body armor” to require
sale in interstate or foreign commerce.
2

An additional textual consideration Rehaif noted is that the possession
element follows the status element in § 922(g), and the Court saw “no basis for
interpreting ‘knowingly’ as applying to the second §922(g) element but not the
first.” Rehaif, 139 S. Ct. at 2196. But, first, this does not support the
government’s position requiring knowledge of part of the status element but not
the rest; indeed, there is even less basis for splitting a single element. Second, the
primary textual point is the preceding one, “of ordinary English grammar,” that
“we normally read the statutory term ‘“knowingly” as applying to all the
subsequently listed elements of the crime.’” Rehaif, 139 S. Ct. at 2196 (quoting
Flores-Figueroa, 556 U.S. at 650).
3
A084

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 11 of 33

ordinary laypeople. Proving the defendant knew his crime involved the “violent
force” required by Johnson v. United States, 559 U.S. 133 (2010), will not be
difficult because the definition of “physical force” which Johnson adopted was the
“ordinary meaning” rather than “a more specialized legal usage.” Id. at 138-39.
Ordinary jurors deciding what ordinary defendants thought force meant will
presumably use that ordinary meaning in deciding whether the defendant knew his
crime involved “physical force.”
There are those less intuitive holdings in which courts have excluded crimes
that most laypeople would think were violent, such as the federal second-degree
murder example the government offers, see United States v. Begay, 934 F.3d 1033,
1038-41 (9th Cir. 2019); see also United States v. Vederoff, 914 F.3d 1238, 1249
(9th Cir. 2019) (holding Washington second-degree murder not “crime of
violence”). But that will negate the actual status element, not the defendant’s
mens rea about the status. Most, if not all, defendants convicted of federal seconddegree murder probably “know” in their minds that their convictions are for crimes
of violence; they are just mistaken due to court interpretation a layperson would
not anticipate. The same can be said of defendants convicted of other typically
violent crimes that escape the “crime of violence” categorization through a
technical overbreadth. Those defendants will escape conviction under the body
armor statute not because they lack knowledge – or belief – that their crimes are
crimes of violence, but because their crimes in fact are not crimes of violence.
In sum, the government’s burden is far from impossible. Defendants
convicted of murder or other typically violent crimes will believe their crimes
were crimes of violence, and be found not guilty only if there is an unanticipated
court interpretation of the particular murder statute. Defendants convicted of
4
A085

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 12 of 33

assault will believe their assaults were crimes of violence, and be found not guilty
only if there is an unanticipated court interpretation of the particular assault
statute. The government’s burden will be difficult only in the case of more
unusual crimes on the fringe of the “crime of violence” definition. Cf. Rehaif, 139
S. Ct. at 2198 (positing less common example of felon placed on probation as
example of person who might not know he had been convicted of crime
“punishable by imprisonment for a term exceeding one year” (quoting § 922(g)(1),
and adding emphasis)).

2.

Insufficiency of Evidence.

A preliminary government argument that Mr. Door is precluded from
raising the sufficiency of evidence claim by the exercise of his right to stipulate
under Old Chief v. United States, 519 U.S. 172 (1997), see Govt. Brief, at 32-33,
fails because the sufficiency claim is based on an intervening change in the law.
This precludes any finding of waiver and distinguishes the case the government
cites – United States v. Butler, 74 F.3d 916 (9th Cir. 1996). See United States v.
Burt, 143 F.3d 1215, 1217 (9th Cir. 1998) (acknowledging Butler and other
similar cases, but declining to apply invited error rule to jury instruction claim
when claim based on intervening Supreme Court precedent). Mr. Door was no
more responsible for predicting Rehaif than the government was. See Govt. Brief,
at 24 n.9 (acknowledging right to raise claim based on intervening change in law).
The government’s remedy is to retry Mr. Door and present the evidence Rehaif
requires, which presently controlling precedent allows. See infra p. 8.
The government’s substantive argument also fails. Its argument that Mr.
5
A086

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 13 of 33

Door’s stipulation to his status establishes knowledge of his status stretches the
stipulation too far. All the stipulation told the jury was that Mr. Door had been
convicted of “a felony crime punishable by a term of imprisonment exceeding one
year” that was a “crime of violence.” ER 66-67. It told the jury nothing about
what, if anything, Mr. Door was told about the elements of the crime or maximum
sentence. It told the jury nothing about what sentence Mr. Door received. It did
not even tell the jury about general practice in criminal proceedings, such as what
defendants are told about elements or sentence exposure when they plead guilty,
what they are told about elements or sentence exposure when they go to trial, or
what they are told about elements or sentence exposure when they are sentenced.
This made it impossible for a jury to draw any inferences about what Mr.
Door knew about those things. Without knowing the sentence actually imposed,
or at least something about what advice was, or generally in practice is, given
about sentence exposure, the jury had no basis for judging what Mr. Door would
have known about sentence exposure. Without knowing what advice was, or
generally in practice is, given about the elements of the offense, the jury had no
basis for judging what Mr. Door would have known about that. The offense could
have been one of the “obvious” crimes of violence like murder, see supra p. 4, but
it could have been one of the less “obvious” ones on the fringe of the “crime of
violence” definition. Finding knowledge based on the stipulation alone would
have been speculation, and “speculation and conjecture cannot take the place of
reasonable inferences and evidence,” Juan H. v. Allen, 408 F.3d 1262, 1279 (9th
Cir. 2005), cited with approval in United States v. Nevils, 598 F.3d 1158, 1167
(9th Cir. 2010) (en banc).
Neither of the cases cited by the government – United States v. Benamor,
6
A087

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 14 of 33

937 F.3d 1182 (9th Cir. 2019), cert. denied, 140 S. Ct. 818 (2020), and United
States v. Reed, 941 F.3d 1018 (11th Cir. 2019) – suggest differently. To begin,
neither Benamor nor Reed considered the additional mens rea which must be
found for violent felon in possession of body armor conviction, so Benamor and
Reed go not at all to that conviction. More generally, neither Benamor nor Reed
suggest that stipulation to the fact of conviction alone establishes the knowledge
required by Rehaif.
Benamor did not decide the question, but avoided it. Preliminarily,
Benamor reviewed only for plain error because “a sufficiency-of-evidence claim
was not raised before the district court.” Id., 937 F.3d at 1188. More
fundamentally, all Benamor said about the stipulation to felon status was that “it
relieved the government of the burden to prove Defendant’s status as a felon.” Id.
It said nothing about what the stipulation showed about the defendant’s knowledge
of his status. To the contrary, it “assum[ed] . . . that the stipulation does not end
the discussion as to Defendant’s knowledge of his status as a felon.” Id. (emphasis
in original).
Neither did Reed hold the stipulation to felon status alone could support a
finding of knowledge of felon status. Initially, Reed, like Benamor, reviewed only
for plain error. See Reed, 941 F.3d at 1021. Secondly, Reed relied on more than
the stipulation. It relied on “[the defendant’s] stipulation and . . . his testimony
that he knew he was not supposed to have a gun.” Id. (emphasis partially added).
In the present case, review is not for plain error, but de novo, as the
government acknowledges. See Govt. Brief, at 24. And there was no additional
evidence like the defendant’s testimony in Reed. The stipulation was the only
evidence. That alone is not enough.
7
A088

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 15 of 33

3.

Remedy.

The government correctly cites precedent of this Court that the general rule
barring retrial does not apply when evidence becomes insufficient because of
intervening case law. See United States v. Weems, 49 F.3d 528, 530-31 (9th Cir.
1995). A later case has labeled the review of sufficiency claims on appeal, at least
when there are other grounds for reversal, as a “policy.” United States v. Jimenez
Recio, 371 F.3d 1093, 1106 (9th Cir. 2004).3
This precedent is binding on the panel in this case, but the defense
respectfully suggests it was wrongly decided and reserves the right to seek further
en banc or Supreme Court review. The right to review of sufficiency of evidence
is not a “policy,” but a constitutional right arising out of the Double Jeopardy
Clause. See Burks v. United States, 437 U.S. 1 (1978). At least one circuit, and
arguably a second, have barred retrial after reversal for insufficient evidence
regardless of whether the insufficiency is due to an intervening change in the law.
See United States v. Bruno, 661 F.3d 733, 742-43 (2d Cir. 2011); United States v.
Smith, 82 F.3d 1564, 1567-68 (10th Cir. 1996). The defense suggests this is the
better view.

3

The government floats the idea that the case law goes even further and
precludes sufficiency review even when there is not another ground for reversal.
See Govt. Brief, at 22-23 (citing Jimenez Recio and United States v. Kim, 65 F.3d
123 (9th Cir. 1995)). The cases cited do not stand for that proposition, however,
because there were other grounds for reversal in those cases, and they were simply
applying Weems, See Jimenez Recio, 371 F.3d at 1106-07 (citing Weems); Kim, 65
F.3d at 127 (citing Weems). The government acknowledges “it is not clear” that
review is precluded where there are not other grounds for reversal, Govt. Brief, at
23, and does not pursue the argument, so it is waived.
8
A089

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 16 of 33

B.

THERE WAS PLAIN ERROR IN THE INDICTMENT AND

INSTRUCTIONS.

1.

Indictment.

The government’s first argument – that the challenge to the indictment is
completely waived – fails for two reasons. First, it ignores precedent. It has been
long established that a defendant may challenge an indictment after trial, subject to
the rule that the indictment is then liberally construed. See United States v.
Spangler, 810 F.3d 702, 711 (9th Cir. 2015), and cases cited therein. That rule
has been applied as recently as this past year, see, e.g., United States v. Read, 918
F.3d 712, 718-19 (9th Cir. 2019), including to a challenge based on Rehaif, see
United States v. Hessiani, 786 Fed. Appx. 658, 661 (9th Cir. 2019) (unpublished).
The government cites no case changing the rule.
Finding waiver in the present would go beyond just ignoring this precedent,
moreover. Prior to the decision in Rehaif, there was no basis for challenging the
indictment. Certainly in these circumstances, there can be no finding of waiver.
Cf. United States v. Burt, 143 F.3d at 1217 (no waiver of jury instruction challenge
when claim based on intervening Supreme Court precedent).
The government’s substantive argument also fails. Its premise – that “the
indictment tracked the statutory language of §922(g)(1) and §931(a),” Government
Brief, at 38 – is wrong. The statutory language for felon in possession of a firearm
and violent felon in possession of body armor is found not in § 922(g)(1) and §
931 alone, but in those sections and § 924. An allegation tracking the language of
the statute – or in this case, two statutes – would track both the statutes together.
9
A090

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 17 of 33

For felon in possession of a firearm, it would be language such as “the defendant
knowingly violated § 922(g)(1) by, after having been convicted of a crime
punishable by imprisonment for a term exceeding one year, possessing a firearm,”
or, if the government wished to eliminate the statutory reference, language such as
“the defendant knowingly, having been convicted of a crime punishable by
imprisonment for a term exceeding one year, possessed a firearm.” For violent
felon in possession of body armor, it would be language such as “the defendant
knowingly violated § 931 by possessing body armor, after having been convicted
of a felony that is a crime of violence,” or, if the government wished to eliminate
the statutory reference, language such as “the defendant knowingly possessed
body armor, after having been convicted of a felony that is a crime of violence.”
Tracking the statutory language in this way, with the word “knowingly”
before both the prior conviction element and the possession element, would have
triggered the principle of “ordinary English grammar” recognized in Rehaif and
Flores-Figueroa – reading “knowingly” to “apply[ ] to all the subsequently listed
[words].” Rehaif, 139 S. Ct. at 2196 (quoting Flores-Figueroa, 556 U.S. at 650
(2009)). This might theoretically have put Mr. Door on notice – though only
theoretically, since all existing case law was to the contrary – that he had to know
his prior convictions were of “a crime punishable by imprisonment for a term
exceeding one year” and/or “a felony that is a crime of violence.”
The actual indictment did not track the statutory language in this way,
however. It varied in a critical respect. Consistent with the then prevailing – but
incorrect – case law, it put “knowingly” before only the “possessed” element – and
after the prior conviction element. The felon in possession of a firearm count
read: “[T]he defendant, KENNETH RANDALE DOOR, having been convicted of
10
A091

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 18 of 33

a crime punishable by imprisonment for a term exceeding one year, to wit: [list of
prior convictions] did knowingly possess firearms, to wit, [listing firearms].” ER
68-69. The violent felon in possession of body armor count read: “[T]he
defendant, KENNETH RANDALE DOOR, having been convicted of a felony
crime of violence, to wit: [list of prior convictions] did knowingly possess body
armor.” ER 69-70.
This not only failed to give notice of the additional knowledge requirement
Rehaif recognized, but suggested such knowledge is not required. That is because
of (1) the principle of “ordinary English grammar,” that a word is normally read as
applying to all the subsequently listed words,’” supra pp. 2-3, 10, and (2) only the
possession element being “subsequently listed.”
The indictment thus is not saved by the principle that an indictment that
tracks the language of the statute is generally sufficient. First, the language of the
indictment did not track the language of the statute(s). Second, the language of
the indictment varied from the language of the statute(s) in a critical way that
suggested the offenses did not require the additional knowledge Rehaif requires.

2.

Instructions.

The government asserts Benamor establishes courts may look at criminal
record evidence presented for sentencing to judge whether an instructional error
affects substantial rights. Benamor did describe aspects of the defendant’s
criminal record and rely upon that to conclude he would have been convicted even
if the jury had been properly instructed. See id., 937 F.3d at 1189. There is no
indication the evidence was presented only for sentencing, however. See id.
11
A092

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 19 of 33

Benamor certainly did not address the issues posed by considering non-trial
evidence.
There are other cases that have considered evidence presented only for
sentencing. See, e.g., United States v. Hunt, 656 F.3d 906, 913-14 (9th Cir. 2011).
But, first, they require the evidence presented for sentencing to be “overwhelming
and uncontroverted.” Id. at 913 (internal quotations omitted). Second, still other
cases, including very recent ones, suggest only trial evidence may be considered,
stating the court should “consider the whole trial record.” United States v.
Tydingco, 909 F.3d 297, 304 (9th Cir. 2018) (emphasis added).
The latter view is the better one, as only evidence presented at trial is tested
by trial evidentiary rules and the crucible of cross-examination. But if the Court
disagrees and concludes it can consider evidence presented only for sentencing, it
must apply the stringent “overwhelming and uncontroverted” standard. And it
must consider whether this test is satisfied for both the felon in possession of a
firearm count and the violent felon in possession of body armor count. First, was
there “overwhelming and uncontroverted” evidence showing Mr. Door knew he
had been convicted of a crime punishable by imprisonment exceeding one year?
Second, was there “overwhelming and uncontroverted” evidence showing Mr.
Door knew he had been convicted of a felony that is a crime of violence?
As to knowledge of having been convicted of a crime punishable by
imprisonment exceeding one year, the evidence presented for sentencing probably
does satisfy the standard. There are multiple convictions for which Mr. Door
actually served more than a year in prison. It is difficult to argue he did not know

12
A093

Case: 19-30213, 04/27/2020, ID: 11672979, DktEntry: 26, Page 20 of 33

the offenses were punishable by at least the amount of time he actually served.4
But evidence Mr. Door knew the felony harassment conviction was a crime
of violence is not overwhelming and uncontroverted. The records presented by
the government include an information with the prosecution’s allegations and the
judgment setting forth the name of the crime, “felony harassment,” and the
Washington criminal code sections that define it. See SER 18-27; CR 297-2. The
presentence report simply labels the charge as “Felony Harassment” and describes
some underlying facts. See PSR, ¶¶ 61-62.
Nowhere is there a plea colloquy showing what, if anything, Mr. Door was
told about what the government would have to prove to establish the offense of
“felony harassment.” This leaves entirely unclear whether Mr. Door knew this
conviction was for a crime that required proof of the use, attempted use, or
threatened use of physical force.5 There thus is not the “overwhelming and
uncontroverted” evidence there must be for evidence not presented at trial to
establish a lack of prejudice.

4

Such evidence should not be used to evaluate prejudice from a deficient
indictment because the purpose of an indictment is to satisfy, first, the due process
right to notice, and, second, the Fifth Amendment right to grand jury
consideration.
5

Given the “categorical approach” which is used to decide whether a
conviction is for a “crime of violence,” see generally Descamps v. United States,
570 U.S. 254 (2013), it is the defendant’s knowledge of what must be proven to
convict, not his knowledge of what he actually did, that is relevant. This does not
mean he must know all the legal ins and outs of statutory interpretation,
“divisibility,” and “categorical approach,” described in Descamps, but he must
have a lay understanding of what the government must prove.
13
A094

PAGES NOT PERTINENT TO PETITION FOR
WRIT OF CERTIORARI OMITTED

A095

AP P ENDI X7

Case: 19-30213, 12/01/2020, ID: 11911516, DktEntry: 50, Page 1 of 10

U. S. Department of Justice
United States Attorney
Western District of Washington

Please reply to:
Michael S. Morgan
Assistant United States Attorney
Direct Line: (206) 553-2612

700 Stewart Street, Suite 5220
Seattle, WA 98101-1271
www.usdoj.gov/usao/waw

Tel: (206) 553-7970
Fax: (206) 553-0755

December 1, 2020
Filed Electronically
Ms. Molly Dwyer
Clerk, United States Court of Appeals for the Ninth Circuit
95 Seventh Street
San Francisco, California 94119-3939
Re:

United States v. Kenneth Randale Door, C.A. No. 19-30213
USDC No. CR12-5126RBL, W.D. Washington
Argued and Submitted on September 4, 2020 in Seattle, Washington
(before Judges Bybee, Collins, and Soto (D. Ariz.))

Dear Ms. Dwyer:
On November 10, 2020, the Court directed the parties to submit
supplemental letter briefs “addressing what effect, if any, United States v.
Johnson, [979] F.3d [632] (9th Cir. Oct. 26, 2020), amending 963 F.3d 847
(9th Cir. 2020) has on the standard of review applicable to Appellant’s
sufficiency-of-the-evidence challenge.”

Dkt. No. 48.

The short answer to the

Court’s question is that, under this Johnson decision, Defendant-Appellant
Kenneth Randale Door’s sufficiency claim is subject to plain-error review.
more detailed explanation follows.

A096

A

Case: 19-30213, 12/01/2020, ID: 11911516, DktEntry: 50, Page 2 of 10
United States v. Door, No. 19-30213
Supplemental Letter Brief — Page 2

I.

The Initial Johnson Decision (Johnson I).
The defendant in Johnson was convicted, following a bench trial, of being

a Felon in Possession of a Firearm, in violation of 18 U.S.C. §922(g)(1).

At the

time of Johnson’s conviction, this Court had held that the knowledge element
of §922(g)(1) only required proof that the defendant knowingly possessed a
firearm, and did not require proof that the defendant knew his “felon status.”
United States v. Miller, 105 F.3d 552, 555 (9th Cir. 1997).

And, before the

district court, Johnson did not contend that the evidence was legally
insufficient to sustain his §922(g)(1) conviction under then-controlling law.
See United States v. Johnson, 963 F.3d 847, 850 (9th Cir. 2020) (Johnson I).
After this Court initially affirmed Johnson’s conviction (an appeal which
did not contest the sufficiency of the evidence), the Supreme Court decided
Rehaif v. United States, 139 S. Ct. 2191 (2019), which holds that a conviction
under §922(g) does require proof that the defendant knew his prohibited
status, in addition to proof that he knowingly possessed a firearm.

Johnson

thereafter filed a petition for a writ of certiorari “in which he argued for the
first time that the government failed to prove at trial that he knew of his status
as a convicted felon.”

Johnson I, 963 F.3d at 849.

The Supreme Court

A097

Case: 19-30213, 12/01/2020, ID: 11911516, DktEntry: 50, Page 3 of 10
United States v. Door, No. 19-30213
Supplemental Letter Brief — Page 3

granted that petition and remanded for further consideration in light of Rehaif.
140 S. Ct. 440 (2019).
On remand, the Court addressed Johnson’s sufficiency claim, holding at
the outset that “because Johnson did not raise his sufficiency-of-the-evidence
challenge in the district court, we review that challenge for plain error.”
Johnson I, 963 F.3d at 850. The Court further held that in applying the plainerror standard, the Court was not limited to the trial evidence in deciding
whether “the district court’s error seriously affects the fairness, integrity, or
public reputation of judicial proceedings,” and thus the Court could consider
the entire record to determine whether there was evidence the defendant knew
his prohibited status.

See id at 851-53.

Because the record contained

“overwhelming and uncontroverted” evidence proving “that Johnson knew of
his status as a convicted felon,” the Court held that even though a plain Rehaif
error occurred, it did not result in a manifest injustice that warranted
correction on plain-error review.
II.

Id. at 853-54.

The Amended Johnson Decision (Johnson II).
Johnson sought rehearing, and an amicus pointed out that because

Johnson was convicted at a bench trial, under this Court’s precedent he was
not required to contest the sufficiency of the evidence in the district court to

A098

Case: 19-30213, 12/01/2020, ID: 11911516, DktEntry: 50, Page 4 of 10
United States v. Door, No. 19-30213
Supplemental Letter Brief — Page 4

preserve that question, and thus his sufficiency claim should be reviewed
de novo. See United States v. Johnson, 979 F.3d 632, 635-36 (9th Cir. 2020)
(Johnson II).

After additional briefing, the Court adhered to its earlier

decision that the plain-error standard applied to this claim, but offered a
different rationale for this conclusion.
The Court reasoned that although Johnson framed his argument as a
sufficiency challenge, “that is not in fact the correct way to conceive of it.” Id.
at 936. The Court observed that a sufficiency challenge is measured against
the elements the government was required to prove at the time of trial, and
there was no question that the evidence of Johnson’s guilt was sufficient under
this Court’s pre-Rehaif precedent.

See id.

The Court thus held that

“Johnson’s argument is best understood not as a challenge to the sufficiency of
the evidence, but rather as a claim that the district court applied the wrong
legal standard in assessing his guilt—specifically, by omitting the knowledgeof-status element now required under Rehaif.” Id.
Because a district court’s legal error regarding the elements of an offense
during a bench trial “is reviewed in the same way we review an erroneous jury
instruction regarding the elements of the offense,” and because “[a] jury
instruction that omits an element of the offense is reviewed for plain error if

A099

Case: 19-30213, 12/01/2020, ID: 11911516, DktEntry: 50, Page 5 of 10
United States v. Door, No. 19-30213
Supplemental Letter Brief — Page 5

the defendant failed to object in the district court,” the Court held that
Johnson’s challenge was reviewable for plain error.

Id.

The Court also

stressed that this “remains true even if ‘a solid wall of circuit authority’ would
have rendered any objection futile at the time of trial.”

Id. (citation omitted).

The Court then reaffirmed its prior conclusion that, because the record as a
whole showed that Johnson knew his prohibited status, relief on plain-error
review was unwarranted.

See id. at 637-39.

III. Johnson II Compels The Conclusion That Door’s Sufficiency
Claim Is Properly Characterized As An Unpreserved
Allegation Of Trial Error That Is Reviewable For Plain
Error.
The pertinent facts of Johnson and this case are indistinguishable.

As

in Johnson, at the time Door was convicted the government was not required
to prove he knew his prohibited status to obtain a conviction for Felon in
Possession of a Firearm under 18 U.S.C. §922(g)(1), or a conviction under
18 U.S.C. §931(a) for Possessing Body Armor as a Felon Convicted of a Crime
of Violence. As was also true in Johnson, Door has never disputed that the
evidence was sufficient to prove his guilt under the law that obtained at the

A100

Case: 19-30213, 12/01/2020, ID: 11911516, DktEntry: 50, Page 6 of 10
United States v. Door, No. 19-30213
Supplemental Letter Brief — Page 6

time of his trial, at least as pertains to these crimes’s knowledge element. 1
Thus, as in Johnson, even if Door were to prevail on his Rehaif claims, a retrial
for these crimes would be permitted. See United States v. Kim, 65 F.3d 123,
126-27 (9th Cir. 1995).

That being so, it is not really accurate for Door to

characterize his claim as one challenging the sufficiency of the evidence.
As noted, a sufficiency claim is measured against the elements the
government was required to prove at the time of trial. See id.; United States
v. Weems, 49 F.3d 528, 530-31 (9th Cir. 1995). And, as in Johnson, Door is
not claiming that the evidence is insufficient under this Court’s pre-Rehaif
precedent. Door’s argument is therefore “best understood not as a challenge
to the sufficiency of the evidence, but rather as a claim that the district court
applied the wrong legal standard” in ruling on his Rule 29 motion. Johnson II,
979 F.3d at 636. Because Door is not really challenging the sufficiency of the
evidence, precedent regarding the type of objection necessary to preserve a true

On a prior appeal, Door did raise a legal challenge to his conviction for
unlawful possession of body armor, claiming he did not have a predicate
conviction that constitutes a “crime of violence” necessary to sustain this
conviction. See United States v. Door, 756 F. App’x 757, 758-59 (9th Cir. 2019).
Door has not otherwise previously challenged the evidence proving his guilt of
this crime.
1

A101

Case: 19-30213, 12/01/2020, ID: 11911516, DktEntry: 50, Page 7 of 10
United States v. Door, No. 19-30213
Supplemental Letter Brief — Page 7

sufficiency claim is inapposite. 2

See id.

Rather, Door’s claim “is properly

understood as a claim of trial error,” id. at 637, and absent a specific objection
any such claim is reviewed for plain error.

See id. at 636; see also Puckett v.

United States, 556 U.S. 129, 135 (2009) (an “unpreserved claim of trial error”
may be reviewed for “‘plain error’”) (quoting Fed. R. Crim. P. 52(b)).

And

because the record contains overwhelming evidence that Door “knew of his
status as a convicted felon”—he has several prior felony convictions for which
he received sentences exceeding one year, including a felony harassment
conviction that qualifies as a crime of violence (PSR_8-11)—Door “cannot show
that refusing to correct the district court’s error would result in a miscarriage
of justice.” Johnson II, 979 F.3d at 638-39.
The only distinction between this case and Johnson is that Johnson
involved a bench trial, while Door’s case involved a jury trial.

But this

distinction is immaterial, as the core error alleged is the same. In Johnson,
Door relies on precedent holding that a summary Rule 29 motion, like
that he made at trial (1-ER-23, 25), suffices to preserve a sufficiency claim for
appellate review. See, e.g., United States v. Navarro Viayra, 365 F.3d 790,
793 (9th Cir. 2004).
The defendant in Johnson similarly relied on
United States v. Atkinson, 990 F.2d 501 (9th Cir. 1993) (en banc), which holds
that no specific objection is required to preserve a sufficiency claim at a bench
trial. Johnson II held this precedent did not apply because the defendant’s
Rehaif claim was not properly characterized as a true sufficiency challenge.
See 979 F.3d at 636. The same reasoning applies here.
2

A102

Case: 19-30213, 12/01/2020, ID: 11911516, DktEntry: 50, Page 8 of 10
United States v. Door, No. 19-30213
Supplemental Letter Brief — Page 8

the claim was that “the district court applied the wrong legal standard in
assessing [the defendant’s] guilt—specifically, by omitting the knowledge-ofstatus element now required under Rehaif.”

Johnson II, 979 F.3d at 636.

Here, Door claims the district court made precisely the same error, only in the
context of evaluating his Rule 29 motion rather than in rendering a verdict as
the trier-of-fact. But it is hard to see why this distinction should make any
difference as to the applicable standard of review.
A summary Rule 29 motion may be sufficient to preserve a claim alleging
that the government failed to prove all the elements required at the time of
trial (see note 2, supra), since it is fair to assume the district court was aware
the government had to prove those elements.

See United States v. Carty,

520 F.3d 984, 992 (9th Cir. 2008) (en banc) (“[w]e assume that district judges
know the law”). But as discussed, that is not the claim Door is making. Door
is claiming that the district court applied the wrong legal standard in ruling
on his Rule 29 motion, because the court did not consider an element that was
not required under then-controlling law.

This is not an error the district court

could be expected to be aware of absent a specific objection from the defendant.
Accordingly, Door’s “failure to object at trial to the district court’s omission of
the knowledge-of-status element triggers review under the plain-error

A103

Case: 19-30213, 12/01/2020, ID: 11911516, DktEntry: 50, Page 9 of 10
United States v. Door, No. 19-30213
Supplemental Letter Brief — Page 9

standard of Rule 52(b).”

Johnson II, 979 F.3d at 636; see also United States v.

Benamor, 937 F.3d 1182, 1188 (9th Cir. 2019) (reviewing Rehaif-based
sufficiency claim for plain error where, as here, the defendant made a summary
Rule 29 motion). 3
IV.

The Government Has Not Waived The Plain-Error Standard Of
Review.
In its answering brief (at page 24), the government agreed that, under this

Court’s precedent (see note 2, supra), Door’s summary Rule 29 motion sufficed to
preserve his sufficiency claim for de novo review.

Door may seek to argue that this

concession should foreclose any argument that, under Johnson II, plain error is the
appropriate legal standard.

Any such argument should be rejected.

This Court is

“not bound by a party’s concession as to the meaning of the law, even if that party is
the government and even in the context of a criminal case.”
440 F.3d 1095, 1099 (9th Cir. 2006) (en banc).

United States v. Ogles,

The Court is thus free to determine

on its own the applicable standard of review in this case.
Nor can the government’s earlier concession be viewed as a waiver of the plainerror standard.

This Court has held that plain-error review can be waived if the

government fails to argue for this standard, at least where controlling law would

The record in Benamor confirms that the defendant made a summary
Rule 29 motion. See United States v. Benamor, 9th Cir. No. 17-50308,
Dkt. No. 18-2 at 267-68. The Court may, of course, take judicial notice of this
document. See United States v. Wilson, 631 F.2d 118, 119 (9th Cir. 1980).
3

A104

Case: 19-30213, 12/01/2020, ID: 11911516, DktEntry: 50, Page 10 of 10
United States v. Door, No. 19-30213
Supplemental Letter Brief — Page 10

permit such an argument.

See United States v. Kortgaard, 425 F.3d 602, 610 (9th

Cir. 2005); see also United States v. Murguia-Rodriguez, 815 F.3d 566, 573-74 (9th
Cir. 2016); contra United States v. Bain, 586 F.3d 634, 639 n.4 (8th Cir. 2009) (holding
that the correct standard of review cannot be waived).
circumstance that confronts the Court.

But that is not the

It is only this Court’s recent holding in

Johnson II that clarified that Door is not really advancing a true sufficiency claim,
and hence that the rules governing preservation of sufficiency claims do not apply in
this context.

Since Johnson II did not exist at the time the government filed its

answering brief, it could not have waived the benefit of that decision.

A “waiver

occurs when a [party] ‘considered the controlling law, . . . and, in spite of being aware
of the applicable law,’ relinquished his right.”
1227, 1233 (9th Cir. 2019) (citation omitted).

United States v. Depue, 912 F.3d

That did not happen here.

Respectfully submitted,
BRIAN T. MORAN
United States Attorney
/s Michael S. Morgan________________
MICHAEL S. MORGAN
Assistant United States Attorney

A105

AP P ENDI X8

Case: 19-30213, 12/01/2020, ID: 11911554, DktEntry: 51, Page 1 of 12
CARLTON F. GUNN
ATTORNEY AT LAW
65 North Raymond Ave., Ste. 320
Pasadena, California 91103
626-667-9580

December 1, 2020

Molly C. Dwyer
Clerk of the Court
United States Court of Appeals
for the Ninth Circuit
P.O. Box 193939
San Francisco, California 94119-3939
re:

Supplemental Letter Brief addressing United States v. Johnson, ___
F.3d ___, 2020 WL 6268027 (9th Cir. 2020)

Dear Ms. Dwyer:
Defendant-Appellant Kenneth Randale Door submits this letter brief in
response to the Court’s order filed November 10, 2020.

I.
INTRODUCTION

Johnson does not require plain error review with consideration of evidence
outside the trial record in the present case for two reasons. First, the government
has waived any plain error argument. Second, the trial in Johnson was a bench
trial and Johnson’s reasoning does not apply to jury trials.
If Johnson does require plain error review with consideration of evidence
outside the trial record, there is “uncontroverted and overwhelming evidence” –
which is what Johnson requires – that prevents a plausible argument a jury might

A106

Case: 19-30213, 12/01/2020, ID: 11911554, DktEntry: 51, Page 2 of 12
December 1, 2020
Page 2

not have found Mr. Door knew he was a felon. But there is not such
“uncontroverted and overwhelming evidence” that Mr. Door knew he had been
convicted of a “crime of violence,” i.e., a crime having as an element the use,
attempted use, or threatened use of physical force. This means the violent felon in
possession of body armor conviction must be vacated even if the felon in
possession of firearm conviction is not.

II.
ARGUMENT

A.

THE DEFENSE RESERVES THE RIGHT TO SEEK EN BANC AND/OR

SUPREME COURT REVIEW OF JOHNSON.

The defense believes Johnson is wrongly decided and reserves the right to
seek en banc and/or Supreme Court review. This panel is bound by Johnson,
however, so this letter brief assumes arguendo that Johnson is correctly decided.

B.

JOHNSON DOES NOT REQUIRE PLAIN ERROR REVIEW WITH

CONSIDERATION OF EVIDENCE OUTSIDE THE TRIAL RECORD IN THE
PRESENT CASE.

1.

The Government Has Waived Any Argument for Plain Error Review.

Initially, this Court should not apply the plain error standard because the

A107

Case: 19-30213, 12/01/2020, ID: 11911554, DktEntry: 51, Page 3 of 12
December 1, 2020
Page 3

government has waived the argument. As explained in United States v. MurguiaRodriguez, 815 F.3d 566 (9th Cir. 2016), “the government may waive the
argument that an error was not objected to and was therefore forfeited. Without a
forfeited error, plain error does not apply.” Id. at 574. The court instead
“review[s] the claim under the standard of review that is applied when the issue is
properly preserved below.” Id. (quoting United States v. Encarnacion-Ruiz, 787
F.3d 581, 586 (1st Cir. 2015)).
Finding waiver of plain error review is especially appropriate where the
government expressly argued the plain error standard for other issues. See
Murguia-Rodriguez, 815 F.3d at 573 (noting “the government consistently stated
that clear error applies to that issue, even though it asserted that plain error
applies to two of the three other errors that [the defendant] raised on this appeal”
(emphasis in original)). That is the situation before the court here. The
government has argued the jury instruction and deficient indictment issues are
reviewed for plain error, see Govt. Brief, at 37, but the sufficiency of evidence
issue is not. For the sufficiency of evidence issue, the government has
acknowledged that “the defense made a summary Rule 29 motion challenging ‘all
three counts’ at the close of the government’s case (ER_25), and the close of all
the evidence (ER_23), and supported those motions with no argument.” Govt.
Brief, at 24. It then conceded that “this sufficed to preserve Door’s newly-minted
sufficiency claim. (Footnote omitted.)” Govt. Brief, at 24.
This is not a case where a plain error argument was absolutely foreclosed by
existing precedent, moreover. Precedent is clear that a specific argument is not
required for sufficiency of evidence claims based on law that existed at the time of

A108

Case: 19-30213, 12/01/2020, ID: 11911554, DktEntry: 51, Page 4 of 12
December 1, 2020
Page 4

trial. But as both government counsel and defense counsel acknowledged at oral
argument, there is no case on the question of whether the general rule extends to
arguments based on a change in the law after trial. Though the defense believes
the general rule should extend, the government could have argued differently in its
brief.1

2.

Johnson’s Reasoning Applies Only to Bench Trials.

Johnson is distinguishable even if the Court does not find waiver. Where
the trial in Johnson was a bench trial, see id., 2020 WL 6268027, at *2, the trial in
the present case was a jury trial. This is an important distinction because the
question of whether the district court applied an incorrect legal standard in a bench
trial is treated as the equivalent of a jury instruction issue. See Johnson, 2020 WL
6268027, at *3 (citing United States v. Argueta-Rosales, 819 F.3d 1149, 1156 (9th
Cir. 2016)). Thus, “[w]hen a district court in a bench trial has made a legal error
regarding the elements of an offense, the error is reviewed using the same
harmless error standard that would apply to an erroneous jury instruction.”
Argueta-Rosales, 819 F.3d at 1156. Where the defendant objected to the district
court’s legal error, this is the ordinary harmless error standard of whether “it is
clear beyond a reasonable doubt that a rational jury would have found the
Any effort the government might have made to adopt the argument when
Judge Collins asked about the possibility at oral argument is insufficient because
arguments raised for the first time at oral argument are waived. See, e.g., Recycle for
Change v. City of Oakland, 856 F.3d 666, 673 (9th Cir. 2017); Perez-Guzman v.
Lynch, 835 F.3d 1066, 1075 n.4 (9th Cir. 2016).
1

A109

Case: 19-30213, 12/01/2020, ID: 11911554, DktEntry: 51, Page 5 of 12
December 1, 2020
Page 5

defendant guilty absent the error,” id. (quoting United States v. Liu, 731 F.3d 982,
992 (9th Cir. 2013)), but where the defendant did not object to the legal error, it is
the plain error standard, see Johnson v. United States, 520 U.S. 461, 465-66
(1997), cited in Johnson, 2020 WL 6268027, at *3.
But it is “in a bench trial” that “a district court’s legal error regarding the
elements of the offense is reviewed in the same way [as] an erroneous jury
instruction regarding the elements of the offense.” Johnson, 2020 WL 6268027, at
*3. In a jury trial, the issues of sufficiency of evidence and jury instructions are
separate issues. Applying the plain error standard to the jury instruction issue is
appropriate because it is well established that objections to jury instructions must
be made at the time the jury is instructed. See Fed. R. Crim. Pro. 30(d). See also
Appellant’s Opening Brief, at 19 (acknowledging plain error review of jury
instruction claim). Applying the plain error standard to the sufficiency of
evidence issue is not appropriate because there is a different well established rule
– that such a motion “do[es] not need to state the grounds upon which [it is]
based,” United States v. Navarro Viayra, 365 F.3d 790, 793 (9th Cir. 2004),
quoted in Govt. Brief, at 24.2 Changing the rule after the fact would be requiring
the defendant to make a specific objection when he can no longer do so. Cf. Lon
Fuller, The Morality of Law 59 (1964) (noting “the absurdity of commanding a
man today to do something yesterday”), quoted in United States v. Portillo, 633
F.2d 1313, 1321 (9th Cir. 1980)). And there is good reason for a defendant not to
make specific arguments, namely, that a general motion preserves all arguments,
Case law had not expressly extended this rule to a claim based on a change
in the law after trial, but there was no case law suggesting the rule did not extend.
2

A110

Case: 19-30213, 12/01/2020, ID: 11911554, DktEntry: 51, Page 6 of 12
December 1, 2020
Page 6

while offering specific arguments waives other arguments. Compare Navarro
Viayra, 365 F.3d at 793 (general motion not stating grounds preserves all
grounds), with United States v. Graf, 610 F.3d 1148, 1166 (9th Cir. 2010) (motion
on specific ground waives all other grounds), quoted in Govt. Brief, at 24. For all
the Court and appellate counsel know, trial counsel considered the argument made
in Rehaif that knowledge of status was required and refrained from specifically
making it in reliance on the foregoing general rule.

C.

EVEN IF JOHNSON DOES REQUIRE PLAIN ERROR REVIEW AND

ALLOW CONSIDERATION OF EVIDENCE OUTSIDE THE TRIAL RECORD,
JOHNSON SETS A HIGH BAR THAT IS SATISFIED ONLY FOR THE FELON
IN POSSESSION OF A FIREARM CONVICTION.

1.

Johnson Requires the Evidence Outside the Trial Record to Be

“Uncontroverted and Overwhelming Evidence” that Prevents Any Plausible
Argument the Jury Potentially Could Have Not Found the Element.

Johnson requires the evidence outside the trial record be not merely
suggestive, or even persuasive, but “overwhelming and uncontroverted.” Id., 2020
WL 6268027, at *4 (quoting United States v. Cotton, 535 U.S. 625, 633 (2002)).
See also Johnson, 2020 WL 6268027, at *5 (explaining no reason to ignore
evidence if record discloses it “and the evidence is uncontroverted,” and noting
“the overwhelming and uncontroverted nature” of evidence in case at bar). Put
another way, there must be “no plausible argument,” Johnson, 2020 WL 6268027,

A111

Case: 19-30213, 12/01/2020, ID: 11911554, DktEntry: 51, Page 7 of 12
December 1, 2020
Page 7

at *4 (quoting Johnson v. United States, 520 U.S. at 470), that a jury could have
not found the element. See also Johnson, 2020 WL 6268027, at *5 (noting
defendant could not “plausibly argue” jury would find he was unaware of status).
The question is not whether the jury probably would have found the element, but
whether “the outcome would potentially be any different.” Johnson, 2020 WL
6268027, at *5 (emphasis added).
The bar must be set this high because evidence outside the trial record has
not been tested in the adversarial process. Cf. Ford v. Wainwright, 477 U.S. 399,
415 (1986) (recognizing cross-examination as “beyond any doubt the greatest
legal engine ever invented for the discovery of truth” (quoting 5 J. Wigmore,
Evidence § 1367 (J. Chadbourn rev. 1974)). While a defendant can make
sentencing objections, his incentives to do so are at the very least less strong and
often entirely absent. Cf. Mathis v. United States, 136 S. Ct. 2243, 2253 (2016)
(“At trial, and still more at plea hearings, a defendant may have no incentive to
contest what does not matter under the law; to the contrary, he ‘may have good
reason not to’ – or even be precluded from doing so by the court.” (Quoting
Descamps v. United States, 570 U.S. 254, 270 (2013)).
In sum, if such untested evidence is to be considered, it must clear a very
high bar.

*

*

*

A112

Case: 19-30213, 12/01/2020, ID: 11911554, DktEntry: 51, Page 8 of 12
December 1, 2020
Page 8

2.

There Was Uncontroverted and Overwhelming Evidence in the

Sentencing Record Preventing a Plausible Argument that a Jury Potentially Could
Have Not Found the Knowledge of Felon Status Required for the Felon in
Possession of a Firearm Conviction.

The sentencing record does satisfy the high Johnson bar for the knowledge
required for the felon in possession of a firearm conviction, i.e. knowledge on Mr.
Door’s part that he had been convicted of a crime punishable by imprisonment for
a term exceeding one year. This is because Mr. Door has multiple prior
convictions for which he actually served imprisonment exceeding one year. It is
difficult – indeed, virtually impossible – to argue Mr. Door did not know the
crimes were punishable by imprisonment for a term exceeding one year if the
actual punishment exceeded that.

3.

There Was Not Uncontroverted and Overwhelming Evidence in the

Sentencing Record Preventing a Plausible Argument that a Jury Potentially Could
Have Not Found the Knowledge of Violent Felon Status Required for the Violent
Felon in Possession of Body Armor Conviction.

The sentencing record does not satisfy the high Johnson bar for the
knowledge required for the violent felon in possession of body armor conviction.
Initially, it is important to understand what it is the defendant must know. It is
that he was convicted of a crime of violence. Under the categorical approach
explained in Mathis and Descamps, that means a crime that has the use, attempted

A113

Case: 19-30213, 12/01/2020, ID: 11911554, DktEntry: 51, Page 9 of 12
December 1, 2020
Page 9

use, or threatened use of force as an element. See Mathis, 136 S. Ct. at 2251-54;
Descamps, 570 U.S. at 260-64. The defendant must know the elements of the
offense he was convicted of – or, in lay terms, what it is the prosecution had to
prove to convict him – not the particular conduct he engaged in that made him
guilty. This does not mean he must know all the legal ins and outs of statutory
interpretation, “divisibility,” and “categorical approach” discussed in Mathis and
Descamps, but he must have a lay understanding of what the prosecution must
prove.
There was nothing approaching “overwhelming and uncontroverted
evidence” of such knowledge here. First, nothing in the label placed on the crime
Mr. Door was convicted of – “felony harassment” – compels the conclusion there
must be a use, attempted use, or threatened use of physical force; this is not a
crime like murder or rape which an ordinary person would assume is a “crime of
violence.” Second, nothing in the presentence report establishes the required
knowledge; while the report does describe actual conduct including threats of
force, it nowhere suggests this is an element of the offense rather than just the
particular conduct Mr. Door engaged in. Third, the court records the government
filed with its sentencing memorandum do not establish knowledge that use,
attempted use, or threatened use of physical force is an element. There is an
information and “Declaration for Determination of Probable Cause,” that, like the
presentence report, describe threats to kill as the felony harassment in Mr. Door’s

A114

Case: 19-30213, 12/01/2020, ID: 11911554, DktEntry: 51, Page 10 of 12
December 1, 2020
Page 10

particular case. See FER-4–7.3 But the records nowhere say the prosecution is
always required to prove such threats to convict a person of felony harassment,
i.e., that this is an element, rather than what the prosecution chose to allege and try
to prove in Mr. Door’s particular case. The more detailed “Declaration for
Determination of Probable Cause” is especially problematic because it was used to
support not just the felony harassment charge to which Mr. Door pled guilty, but
additional charges of assault and burglary to which he did not plead guilty. See
FER-6.
The Court cannot assume there was additional advice given in a plea
colloquy, moreover. First, that would require making assumptions that the state
court taking Mr. Door’s plea gave advice on the elements, that it did so in
language that a layperson would understand, and that Mr. Door in particular
understood – and those are assumptions that should not be made without crossexamination of witnesses, presentation of a defense, and other adversarial testing.
Second, Washington court rules, unlike the Federal Rules of Criminal Procedure,
do not require an oral plea colloquy. State v. Codiga, 175 P.3d 1082, 1087 (Wash.
2008). See also State v. Zhao, 137 P.3d 835, 841-42 (Wash. 2006) (explaining
that Washington rule governing guilty pleas differs from federal rule and does not
require oral colloquy about nature of charges). Under the Washington rules,
simply providing the defendant with a copy of the information can be sufficient.
See In re Ness, 855 P.2d 1191, 1194 (Wash. App. 1993) (collecting cases). This

The complete records filed by the government in the district court, which
were only partially included in the government’s supplemental excerpts of record, are
being filed concurrently with this brief as further excerpts of record.
3

A115

Case: 19-30213, 12/01/2020, ID: 11911554, DktEntry: 51, Page 11 of 12
December 1, 2020
Page 11

means the information, the “Declaration for Determination of Probable Cause,”
and other records may be – or even likely are – all that exist.4
Without something else, there is a more than “plausible” argument,
especially under the demanding beyond a reasonable doubt standard, that Mr.
Door might have believed the threatened use of force was just what the
prosecution relied on in his case rather than something it is required to prove in
any felony harassment case. His attorney could have argued – and he might have
testified – that he thought the threats were just one form of conduct constituting
felony harassment and he either had no idea or had a mistaken idea about what
other conduct is also sufficient.5 There is at least a “potential” for a different
outcome, and that is all Johnson requires.
Sincerely,
s/ Carlton F. Gunn
Carlton F. Gunn
Attorney at Law

The state court taking Mr. Door’s plea would have had to believe the
documents were sufficient to make Mr. Door understand “the nature of the charge,”
Wash. Crim. R. 4.2(d), but that does not mean a jury would have been convinced
beyond a reasonable doubt the judge was correct in that belief.
4

This is also not a case where disclosure of the nature of the “crime of
violence” would be prejudicial. Felony harassment is at the more palatable end of the
“crime of violence” spectrum, and a defense attorney might want a jury to know the
“crime of violence” was felony harassment rather than something more serious like
murder.
5

A116

Case: 19-30213, 12/01/2020, ID: 11911554, DktEntry: 51, Page 12 of 12

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 8. Certificate of Compliance for Briefs
Instructions for this form: http://www.ca9.uscourts.gov/forms/form08instructions.pdf

9th Cir. Case Number(s)

19-30213

I am the attorney or self-represented party.
This brief contains

2,709

words, excluding the items exempted

by Fed. R. App. P. 32(f). The brief’s type size and typeface comply with Fed. R.
App. P. 32(a)(5) and (6).
I certify that this brief (select only one):
complies with the word limit of Cir. R. 32-1.
is a cross-appeal brief and complies with the word limit of Cir. R. 28.1-1.
is an amicus brief and complies with the word limit of Fed. R. App. P.
29(a)(5), Cir. R. 29-2(c)(2), or Cir. R. 29-2(c)(3).
is for a death penalty case and complies with the word limit of Cir. R. 32-4.
complies with the longer length limit permitted by Cir. R. 32-2(b) because
(select only one):
it is a joint brief submitted by separately represented parties;
a party or parties are filing a single brief in response to multiple briefs; or
a party or parties are filing a single brief in response to a longer joint brief.
complies with the length limit designated by court order dated 11/10/2020

.

is accompanied by a motion to file a longer brief pursuant to Cir. R. 32-2(a).

Signature

s/ Carlton F. Gunn

Date 12/01/2020

(use “s/[typed name]” to sign electronically-filed documents)
Feedback or questions about this form? Email us at forms@ca9.uscourts.gov

Form 8

A117
Rev. 12/01/2018

AP P ENDI X9

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 1 of 33

CA No. 19-30213
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
KENNETH RANDALE DOOR,
Defendant-Appellant.
___________________________________

)
)
)
)
)
)
)
)
)
)

D.C. No. 3:12-cr-05126-RBL

PETITION FOR REHEARING AND
SUGGESTION FOR REHEARING EN BANC

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
HONORABLE RONALD B. LEIGHTON
United States District Judge
CARLTON F. GUNN
Attorney at Law
65 North Raymond Ave., Suite 320
Pasadena, California 91103
Telephone (626) 667-9580
Attorney for Defendant-Appellant

A118

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 2 of 33

CA No. 19-30213
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
KENNETH RANDALE DOOR,
Defendant-Appellant
___________________________________

)
)
)
)
)
)
)
)
)
)

D.C. No. 3:12-cr-05126-RBL

PETITION FOR REHEARING AND
SUGGESTION FOR REHEARING EN BANC
Defendant-appellant, Kenneth Randale Door, hereby petitions for rehearing
with a suggestion for rehearing en banc. The underlying claim is that there was
insufficient evidence of the knowledge of status required by the unlawful
possession of firearms by prohibited persons statute under Rehaif v. United States,
139 S. Ct. 2191 (2019). A panel holding that plain error review applies to such a
claim even when the defendant made a general motion for judgment of acquittal in
the district court – which extends United States v. Johnson, 979 F.3d 632 (9th Cir.
2020), cert. denied, No. 20-7194, 2021 U.S. LEXIS 3215 (U.S. June 21, 2021) –
creates a split in the circuits. The issue is an important one because it will affect
the vast majority of Rehaif sufficiency of evidence claims, as well as sufficiency of

1
A119

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 3 of 33

evidence claims based on other post-trial changes in the law. Creation of the
circuit split and the importance of the issue make en banc review critical.

Respectfully submitted,
DATED: July 15 , 2021

By s/ Carlton F. Gunn
CARLTON F. GUNN
Attorney at Law

2
A120

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 4 of 33

TABLE OF CONTENTS
PAGE
I.

INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

II.

FACTUAL BACKGROUND AND PROCEDURAL HISTORY. . . . . . . . . . 2

III.

IV.

A.

CONVICTION AND PRIOR APPEALS.. . . . . . . . . . . . . . . . . . . . . 2

B.

CURRENT APPEAL.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

ARGUMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
A.

THE COURT SHOULD GRANT EN BANC REVIEW BECAUSE
THE PANEL OPINION CREATES A CIRCUIT SPLIT ON AN
IMPORTANT ISSUE.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

B.

THE COURT SHOULD GRANT EN BANC REVIEW BECAUSE IT
IS THE POSITION OF THE OTHER CIRCUITS THAT IS
CORRECT... . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

C.

THE COURT SHOULD GRANT EN BANC REVIEW BECAUSE
JOHNSON’S HOLDING SHOULD NOT BE EXTENDED TO JURY
TRIALS EVEN IF IT IS APPROPRIATE FOR BENCH TRIALS.. . 13

CONCLUSION.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

i

A121

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 5 of 33

TABLE OF AUTHORITIES
Page
CASES
Cesario v. United States,
200 F.2d 232 (1st Cir. 1952). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Rehaif v. United States,
139 S. Ct. 2191 (2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Russello v. United States,
464 U.S. 16 (1983). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. Argueta-Rosales,
819 F.3d 1149 (9th Cir. 2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
United States v. Benamor,
937 F.3d 1182 (9th Cir. 2019),
cert. denied, 140 S. Ct. 818 (2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
United States v. Door,
647 Fed. Appx. 755 (9th Cir.) (unpublished),
amended, 668 Fed. Appx. 784 (9th Cir. 2016) (unpublished). . . . . . . . . . . . . 3
United States v. Door,
656 Fed. Appx. 376 (9th Cir. 2016) (unpublished). . . . . . . . . . . . . . . . . . . . 3
United States v. Door,
917 F.3d 1146 (9th Cir.),
cert. denied, 140 S. Ct. 120 (2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
United States v. Door,
996 F.3d 606 (9th Cir. 2021). . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4, 6, 13
United States v. Gjurashaj,
706 F.2d 395 (2d Cir. 1983). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Graf,
610 F.3d 1148 (9th Cir. 2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. Johnson,
979 F.3d 632 (9th Cir. 2020),
cert. denied, No. 20-7194, 2021 U.S. LEXIS 3215
(U.S. June 21, 2021). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim

ii

A122

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 6 of 33

TABLE OF AUTHORITIES (cont’d)
Page
United States v. Jones,
174 F.3d 746 (7th Cir. 1949). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Kim,
65 F.3d 123 (9th Cir. 1995). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Liu,
731 F.3d 982 (9th Cir. 2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
United States v. Maez,
960 F.3d 949 (7th Cir. 2020),
cert. denied, No. 20-6129, 2021 U.S. LEXIS 3291 (U.S. June 21, 2021). . 7, 8
United States v. Navarro Viayra,
365 F.3d 790 (9th Cir. 2004). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
United States v. Owens,
966 F.3d 700 (8th Cir. 2020),
cert. denied, No. 20-6098, 2021 U.S. LEXIS 3207 (U.S. June 21, 2021). . . . 8
United States v. Portillo,
633 F.2d 1313 (9th Cir. 1980). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. Reed,
147 F.3d 1178 (9th Cir. 1998). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Staggers,
961 F.3d 745 (5th Cir. 2020),
cert. denied, 141 S. Ct. 388 (2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
United States v. Wallen,
874 F.3d 620 (9th Cir. 2017). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
United States v. Weems,
49 F.3d 528 (9th Cir. 1995). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Wilson v. United States,
250 F.2d 312 (9th Cir. 1957). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12

iii

A123

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 7 of 33

TABLE OF AUTHORITIES (cont’d)
Page
STATUTES, RULES, AND GUIDELINES
18 U.S.C. § 842(i)(1).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
18 U.S.C. § 922(g). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
18 U.S.C. § 922(g)(1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4
18 U.S.C. § 922(g)(5)(A). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
18 U.S.C. § 924(a)(2). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4
18 U.S.C. § 924(a)(7). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4
18 U.S.C. § 924(e). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
18 U.S.C. § 931(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4
Rule 35(b)(1)(B), Federal Rules of Appellate Procedure. . . . . . . . . . . . . . . . . . . 1, 7
Rule 7(b)(1), Federal Rules of Civil Procedure. . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Rule 50(a)(2), Federal Rules of Civil Procedure. . . . . . . . . . . . . . . . . . . . . . . . . . 10
Rule 23(c), Federal Rules of Criminal Procedure. . . . . . . . . . . . . . . . . . . . . . 12, 14
Rule 29, Federal Rules of Criminal Procedure. . . . . . . . . . . . . . . . . . . . . . . . 7, 8, 9
Rule 30, Federal Rules of Criminal Procedure. . . . . . . . . . . . . . . . . . . . . . . . 12, 13
Rule 52(b), Federal Rules of Criminal Procedure. . . . . . . . . . . . . . . . . . . . . . . . . 12
Circuit Rule 35-1.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 7
OTHER AUTHORITIES
Charles Alan Wright and Arthur R. Miller, Federal Practice and Procedure:
Criminal (4th ed. 2009). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10, 12
Lon Fuller, The Morality of Law (1964). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

iv

A124

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 8 of 33

TABLE OF AUTHORITIES (cont’d)
Page
Fed. R. Crim. Pro. 47 advisory committee’s note. . . . . . . . . . . . . . . . . . . . . . . . . 10
Petition for Writ of Certiorari, Lamar Johnson v. United States, 2021 U.S. LEXIS
3215 (No. 20-7194). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

v

A125

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 9 of 33

I.
INTRODUCTION

This petition seeks reconsideration of a holding in United States v. Johnson,
979 F.3d 632 (9th Cir. 2020), cert. denied, No. 20-7194, 2021 U.S. LEXIS 3215
(U.S. June 21, 2021), and an extension of the Johnson holding by the panel in this
case. As extended, the holding is that a general motion for judgment of acquittal
in the district court does not preserve a sufficiency of evidence claim based on a
post-trial change in the law – here, the holding in Rehaif v. United States, 139 S.
Ct. 2191 (2019), that the unlawful possession of firearms by prohibited persons
statute requires knowledge of status as well as knowledge of the firearm.
This holding and the Johnson case should be reviewed en banc for two
reasons.1 First, they create a circuit split on an important issue, which is an
expressly recognized basis for en banc review. See Fed. R. App. Pro. 35(b)(1)(B);
Circuit Rule 35-1. Second, the other circuits’ position is the correct one and the
one that is consistent with well established law.

1

A petition for rehearing en banc in Johnson itself was barred by an order
issued with the opinion, which amended an earlier opinion in response to a
petition for rehearing. See Johnson, 979 F.3d at 634. And the petition for writ of
certiorari the defendant filed did not include the question in its questions
presented. See Petition for Writ of Certiorari, Johnson v. United States, 2021 U.S.
LEXIS 3215 (No. 20-7194).
1
A126

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 10 of 33

II.
FACTUAL BACKGROUND AND PROCEDURAL HISTORY

A.

CONVICTION AND PRIOR APPEALS.

In the fall of 2011, pistols, ballistic vests, and an explosive device known as
a “seal bomb,” which fishermen use to scare away marine mammals, were
discovered in a search of Mr. Door’s home. See Appellant’s Opening Brief, at 4.2
Mr. Door was charged with possession of a firearm after having been convicted of
a felony, in violation of 18 U.S.C. § 922(g)(1) and 18 U.S.C. § 924(a)(2);
possession of body armor after having been convicted of a crime of violence, in
violation of 18 U.S.C. § 931(a) and 18 U.S.C. § 924(a)(7); and possession of an
explosive after having been convicted of a felony, in violation of 18 U.S.C. §
842(i)(1). See ER 68-71. He proceeded to trial and was convicted. See
Appellant’s Opening Brief, at 5. The district court found him to be an armed
career criminal under 18 U.S.C. § 924(e) – based on convictions for burglary,
assault, and attempting to elude a police officer – and sentenced him to 25 years in
prison.3 See Appellant’s Opening Brief, at 6-7.

2

The citations in this petition to Appellant’s Opening Brief, the
government’s brief, and Appellant’s Reply Brief are to the briefs in this most
recent appeal, which is a third appeal.
3

18 U.S.C. § 924(e), also known as the Armed Career Criminal Act,
increases the maximum sentence for felon in possession of a firearm from 10 years
to life and sets a mandatory minimum sentence of 15 years when the defendant has
three prior convictions for a “violent felony” or “controlled substance offense.”
2
A127

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 11 of 33

Mr. Door appealed both the sentence and the denial of two motions to
suppress evidence. The Court affirmed the convictions, but vacated the armed
career criminal finding, vacated several sentencing guideline enhancements, and
remanded for resentencing. See United States v. Door, 656 Fed. Appx. 376 (9th
Cir. 2016) (unpublished); United States v. Door, 647 Fed. Appx. 755, 756 (9th
Cir.) (unpublished), amended, 668 Fed. Appx. 784 (9th Cir. 2016) (unpublished).
On remand, the district court imposed a slightly shorter sentence of 23 years in
prison, see ER 57-58, which was the longest it could impose,4 and Mr. Door
appealed again. See United States v. Door, 917 F.3d 1146 (9th Cir.), cert. denied,
140 S. Ct. 120 (2019). This sentence also was vacated, based on erroneous
categorization of Mr. Door’s assault convictions as “crimes of violence” under the
sentencing guidelines. See id. at 1154-55.

B.

CURRENT APPEAL.

The district court imposed the same statutory maximum sentence on
remand, based on a greater upward variance, and Mr. Door again appealed. See
United States v. Door, 996 F.3d 606 (9th Cir. 2021) (hereinafter cited as “Door
IV” and attached as Appendix). Two of the claims raised were sentencing claims –
challenging a sentencing guideline “obstruction of justice” enhancement and the
reasonableness of the upward variance. See id. at 611; Appellant’s Opening Brief,
4

The sentence consisted of consecutive statutory maximum sentences of 10
years on the felon in possession of a firearm count, 10 years on the felon in
possession of explosives count, and 3 years on the violent felon in possession of
body armor count. See ER 57.
3
A128

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 12 of 33

at 25-37. But there was also a new challenge to the convictions for possession of a
firearm after having been convicted of a felony and possession of body armor after
having been convicted of a crime of violence – based on the Supreme Court’s
intervening decision in Rehaif v. United States, 139 S. Ct. 2191 (2019). See Door
IV, 996 F.3d at 613; Appellant’s Opening Brief, at 19-24. Rehaif held the word
“knowingly” in 18 U.S.C. § 924(a)(2), which sets the sentence for unlawful
possession of a firearm by classes of persons listed in 18 U.S.C. § 922(g), modifies
both the possession element and the status element in § 922(g), so a defendant
charged with being a felon in possession of a firearm must both know he
possessed a firearm and know he had been convicted of a felony. See Door IV,
996 F.3d at 614 (discussing Rehaif).5 And Mr. Door argued Rehaif’s reasoning
extends to use of the word “knowingly” in § 924(a)(7), which sets the penalty for
possession of body armor by persons convicted of a crime of violence in violation
of 18 U.S.C. § 931(a). See Appellant’s Opening Brief, at 21-22.
The Rehaif challenge had three prongs – a challenge to the sufficiency of
the evidence, a challenge to the indictment, and a challenge to the jury
instructions. See Appellant’s Opening Brief, at 20-24. For the second and third of
these – the challenges to the indictment and jury instructions – Mr. Door conceded
review was limited to review for plain error, because there was no objection to the
5

The defendant in Rehaif was an alien unlawfully in the United States,
which is included by § 922(g)(5)(A), but the Supreme Court extended its
reasoning by example to the more common class of felons – or, in the language of
the statute, persons “convicted of . . . a crime punishable by imprisonment
exceeding one year,” 18 U.S.C. § 922(g)(1). See Rehaif, 139 S. Ct. at 2198;
United States v. Benamor, 937 F.3d 1182, 1188 (9th Cir. 2019), cert. denied, 140
S. Ct. 818 (2020).
4
A129

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 13 of 33

indictment or jury instructions. See Appellant’s Opening Brief, at 19. But he
argued review was de novo for the sufficiency of evidence challenge, because
there was a general motion for judgment of acquittal at trial. See Appellant’s
Opening Brief, at 19 (citing ER 23, 25).
The government agreed the sufficiency of evidence challenge was reviewed
de novo, see Govt. Brief, at 24, but argued the evidence was sufficient. For both
convictions, it argued the only evidence presented – a stipulation that Mr. Door in
fact had a prior conviction for a felony and a prior conviction for a crime of
violence – was sufficient to show he knew he had such convictions. See Govt.
Brief, at 33-34. For the body armor conviction, it added a preliminary argument
that the only knowledge required was knowledge the conviction was for a felony,
not knowledge that it was for a crime of violence. See Govt. Brief, at 25-29. Mr.
Door argued in response that the stipulation to status was not sufficient to
establish knowledge of the status and the knowledge required for the body armor
conviction was full knowledge of the crime of violence status. See Appellant’s
Reply Brief, at 5-7.
After the case was argued, this Court issued United States v. Johnson, 979
F.3d 632 (9th Cir. 2020), cert. denied, No. 20-7194, 2021 U.S. LEXIS 3215 (U.S.
June 21, 2021). Johnson considered a Rehaif challenge to the sufficiency of
evidence in a bench trial, in which sufficiency challenges are preserved even
without a motion for judgment of acquittal. See Johnson, 979 F.3d at 635-36. The
Court held review was limited to review for plain error despite this, on the theory
that the sufficiency of evidence challenge based on the intervening change in the
law is “best understood not as a challenge to the sufficiency of the evidence, but

5
A130

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 14 of 33

rather as a claim that the district court applied the wrong legal standard in
assessing [the defendant’s] guilt – specifically, by omitting the knowledge-ofstatus element required under Rehaif.” Johnson, 979 F.3d at 636.
The panel in Mr. Door’s case ordered supplemental briefing on the effect of
Johnson. The government withdrew its concession that the sufficiency of
evidence claim should be reviewed de novo and argued Johnson limited review to
plain error review. See Government’s Supplemental Letter Brief. Mr. Door
argued the government had waived this argument and Johnson was limited to
bench trials in any event. See Defense Supplemental Letter Brief. He also
reserved the right to challenge Johnson en banc. See Defense Supplemental Letter
Brief, at 2.
The panel rejected Mr. Door’s arguments, held it was bound by Johnson,
and reviewed only for plain error. See Door IV, 996 F.3d at 617-18.6 This had
two effects that led the panel to affirm the convictions. First, it meant that Mr.
Door bore the burden rather than the government – specifically, he “bears the
burden of offering ‘a plausible basis for concluding that an error-free retrial might
end more favorably.’” Door IV, 996 F.3d at 618 (quoting Johnson, 979 F.3d at
637). See also Door IV, 996 F.3d at 620 (“But it is Door’s burden . . . .”). Second,
it meant the Court could look outside the trial record of just the stipulation – to the
details of Mr. Door’s prior record. See id. at 618 (“In reviewing for plain error, we
may examine the entire record on appeal”); id. at 620 (reiterating that “our review

6

The panel did agree Rehaif extended to the possession of body armor
provisions and required the defendant to know he had been convicted of a crime of
violence. See Door IV, 996 F.3d at 615-16.
6
A131

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 15 of 33

is not limited to the record adduced at trial” and discussing details of prior
convictions). With this broader review and the shifted burden, the Court found the
fourth prong of the plain error standard was not satisfied. See id. at 620.

III.
ARGUMENT

A.

THE COURT SHOULD GRANT EN BANC REVIEW BECAUSE THE

PANEL OPINION CREATES A CIRCUIT SPLIT ON AN IMPORTANT ISSUE.

A basis for rehearing en banc expressly set forth in the rules of appellate
procedure is the creation of a conflict on a question that is important and/or on
which there is a need for national uniformity. See Fed. R. App. Pro. 35(b)1)(B);
Circuit Rule 35-1. The holding here qualifies on both counts.
First, it squarely conflicts with holdings in other circuits. Two circuits have
held – and another has assumed – that the ordinary de novo standard of review
applies to Rehaif sufficiency of evidence challenges where the defendant made a
general motion for judgment of acquittal in the district court. The Seventh Circuit
so held in United States v. Maez, 960 F.3d 949 (7th Cir. 2020), cert. denied, No.
20-6129, 2021 U.S. LEXIS 3291 (U.S. June 21, 2021), and explained its holding
as follows:
[The defendant] moved for judgment of acquittal under
Rule 29 in the district court. His motion was general. He
asserted only that “the Government has not presented sufficient
evidence to prove their case beyond a reasonable doubt.”
Without asking [the defendant] to elaborate, the district court
denied the motion, which was clearly the correct decision under

7

A132

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 16 of 33

then-governing circuit precedent.
This short exchange preserved all possible challenges to
the sufficiency of the evidence, including the post-Rehaif
argument that the government failed to prove that [the
defendant] knew his felony status. A motion under Rule 29
that makes specific arguments waives issues not presented, but
a general motion preserves every objection.
Id. at 958-59. The Fifth Circuit took the same position, without even seeing a
need to explain, in United States v. Staggers, 961 F.3d 745 (5th Cir. 2020), cert.
denied, 141 S. Ct. 388 (2020). See id. at 754 (“We review the sufficiency of the
evidence de novo, however, because [the defendant] made general objections to
the sufficiency of the evidence.”). The Eighth Circuit assumed the same rule for
the sake of analysis in United States v. Owens, 966 F.3d 700 (8th Cir. 2020), cert.
denied, No. 20-6098, 2021 U.S. LEXIS 3207 (U.S. June 21, 2021). See id. at 709
(“[W]e will assume for the sake of analysis that the general motions were
sufficient to preserve a sufficiency challenge on the knowledge element.”).
Second, the issue is important, because of the number of cases it will affect.
The panel’s extension of Johnson’s holding will affect the vast majority of Rehaif
claims, because it is standard practice to make a general motion for judgment of
acquittal at the end of a jury trial. The holding will also affect every other case in
which there is a post-trial interpretation that narrows the scope of a criminal
statute.
There is also a need for national uniformity. Relief for a felon in possession
defendant raising a Rehaif claim – or other defendants for whom there is a posttrial change in the law – should not depend on the happenstance of which circuit
the defendant has been prosecuted in. The same standard should apply to all
defendants.

8

A133

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 17 of 33

B.

THE COURT SHOULD GRANT EN BANC REVIEW BECAUSE IT IS

THE POSITION OF THE OTHER CIRCUITS THAT IS CORRECT.

En banc review should also be granted because it is the position of the other
circuits that is correct. It is hornbook law that “[s]pecificity is not required by
Rule 29,” which is the rule governing motions for judgment of acquittal. 2A
Charles Alan Wright and Arthur R. Miller, Federal Practice and Procedure:
Criminal § 466 (4th ed. 2009). See also United States v. Navarro Viayra, 365
F.3d 790, 793 (9th Cir. 2004) (following cases from other circuits that motions for
judgment of acquittal “do not need to state the grounds upon which they are based
because ‘the very nature of such motions is to question the sufficiency of the
evidence to support a conviction’” (quoting United States v. Gjurashaj, 706 F.2d
395, 399 (2d Cir. 1983)). As explained in an opinion by then-Judge, later Justice,
Minton:
[A motion for judgment of acquittal] is a challenge to the
Government in the presence of the court that the Government
has failed in its proof. The motion is not required by the rules
to be in writing or to specify the grounds therefor. That in
itself would indicate that the defendant is not required to go
over the proof for the benefit of the Government or the court, in
the absence of some request for more specific objection.
United States v. Jones, 174 F.3d 746, 748 (7th Cir. 1949).
This view is also supported by the language of Rule 29. The rule places no
requirements on motions for judgment of acquittal. See Fed. R. Crim. Pro. 29(a)
(referring to “the defendant’s motion” and “a motion,” and placing no
requirements on form or content of motion). This contrasts with corresponding
civil rules – such as Federal Rule of Civil Procedure 7(b)(1), which requires

9

A134

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 18 of 33

motions to “state with particularity the grounds for seeking the order,” and Federal
Rule of Civil Procedure 50(a)(2), which requires motions for judgment as a matter
of law to “specify the judgment sought and the law and facts that entitle the
movant to the judgment.” See 2A Wright and Miller, supra p. 9, § 466 (noting
that “the Criminal Rules differ from the Civil Rules”). This contrast triggers the
principle that omission of language in one provision that is included in another is
presumed to be intentional. Russello v. United States, 464 U.S. 16, 23 (1983).
And the advisory committee‘s note directly expresses such intent, by describing
the criminal rule as “substantially the same” as the civil rule, “except that it . . .
does not require that the grounds upon which a motion is made shall be stated
‘with particularity.’” Fed. R. Crim. Pro. 47 advisory committee’s note.
It is also unfair to defendants and their counsel to announce a different rule
after the fact. It is “the absurdity of commanding a man today to do something
yesterday.” Lon Fuller, The Morality of Law 59 (1964), quoted in United States v.
Portillo, 633 F.2d 1313, 1321 (9th Cir. 1980). And failure to make a specific
objection at the time of trial was not a careless mistake, but wise strategy. There is
good reason for a defendant not to make specific arguments in a motion for
judgment of acquittal, because making specific arguments waives other arguments.
Compare Navarro Viayra, 365 F.3d at 793 (general motion preserves all grounds),
with United States v. Graf, 610 F.3d 1148, 1166 (9th Cir. 2010) (stating specific
ground waives all other grounds). For all the Court and appellate counsel know,
trial counsel considered the argument made in Rehaif and refrained from
specifically making it, in reliance on the foregoing general rule, only because he
did not want to forfeit other arguments he might not have thought of.

10

A135

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 19 of 33

The case law cited in Johnson does not compel its holding, moreover. First,
United States v. Weems, 49 F.3d 528 (9th Cir. 1995), and United States v. Kim, 65
F.3d 123 (9th Cir. 1995), which Johnson cited in support of its conclusion that the
Rehaif sufficiency challenge is “best understood not as a challenge to the
sufficiency of the evidence, but rather as a claim that the district court applied the
wrong legal standard,” id., 979 F.3d at 636 (citing Weems and Kim), do not compel
that conclusion. Those cases held only that the Double Jeopardy Clause does not
preclude a retrial where the law at the time of the first trial gave the government
no reason to introduce evidence required by subsequent case law. See Weems, 49
F.3d at 530-31. See also Kim, 65 F.3d at 126-27 (simply following Weems). This
appropriately prevents unfairness to the government in the form of not requiring
evidence that was not required at the time of trial. But it does not require
unfairness to the defense in the form of overriding the well established effect of a
general motion for judgment of acquittal. A general motion for judgment of
acquittal should not have a greater effect than it would in the absence of the new
case law, but it should not have a lesser effect either.
Johnson also overstated the holdings of cases such as United States v.
Argueta-Rosales, 819 F.3d 1149 (9th Cir. 2016), when it stated a district court’s
legal error regarding the elements of the offense in a bench trial “is reviewed in
the same way we review an erroneous jury instruction regarding the elements of
the offense.” Johnson, 979 F.3d at 636 (citing Argueta-Rosales, 819 F.3d at
1156). The jury cases are not directly applicable, but are merely “analogous” and
furnish “guideposts.” Wilson v. United States, 250 F.2d 312, 324 (9th Cir. 1957),
cited in Argueta-Rosales, 819 F.3d at 1156. The only jury instruction standard the

11

A136

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 20 of 33

cases have actually carried over to bench trials is the demanding standard
requiring it to be “clear beyond a reasonable doubt” the error did not affect the
verdict. Argueta-Rosales, 819 F.3d at 1156 (quoting United States v. Liu, 731
F.3d 982, 992 (9th Cir. 2013)). See also United States v. Wallen, 874 F.3d 620,
633 (9th Cir. 2017).
The requirement of legal objections has not been carried over, and it should
not be in light of its source. That source is Rule 30 of the Federal Rules of
Criminal Procedure, which governs only jury instructions, and requires “request[s]
in writing that the court instruct the jury on the law,” Fed. R. Crim. Pro. 30(a);
requires “specific objection and the grounds for the objection” to erroneous
instructions, Fed. R. Crim. Pro. 30(d); and provides that “[f]ailure to object in
accordance with this rule precludes appellate review, except as permitted under
Rule 52(b) [for plain error],” id. This contrasts with the rule governing nonjury
trials – Rule 23(c) – which requires only a request for “findings of fact.” Fed. R.
Crim. Pro. 23(c) (emphasis added). See Cesario v. United States, 200 F.2d 232
(1st Cir. 1952) (noting with apparent approval trial judge’s refusal to rule on
“requests for rulings” because “superfluous to give such instructions to himself,”
and describing Rule 30 as “a rule which obviously has reference only to cases tried
to a jury”), cited with approval in Wilson, 250 F.2d at 325; 2 Wright and Miller,
supra p. 9, § 374 (“A request for special findings of fact is the appropriate way to
preserve for appeal a contention that the court applied an erroneous standard of
law.”).

12

A137

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 21 of 33

C.

THE COURT SHOULD GRANT EN BANC REVIEW BECAUSE

JOHNSON’S HOLDING SHOULD NOT BE EXTENDED TO JURY TRIALS
EVEN IF IT IS APPROPRIATE FOR BENCH TRIALS.

A final reason to grant en banc review is that Johnson’s holding should not
be extended to jury trials even if it is appropriate for bench trials. The defense
made this argument in its supplemental brief, and the panel too readily dismissed
it. The panel simply stated, “We fail to see how the difference between a jury trial
and a bench trial would require us to view these identical legal challenges
differently.” Door IV, 996 F.3d at 618.
There is a difference, however. Johnson treats the question of whether the
district court applied an incorrect legal standard in a bench trial as the equivalent
of a jury instruction issue, as just discussed. Where the defendant objected to the
district court’s legal error, the “clear beyond a reasonable doubt” standard applies,
supra p. 12, but where the defendant did not object to the legal error, the plain
error standard applies, at least according to Johnson, see id., 979 F.3d at 636.
But it is at most “in a bench trial,” Johnson, 979 F.3d at 636, that a district
court’s legal error regarding the elements of the offense is reviewed in the same
way as an erroneous jury instruction. In a jury trial, the issues of sufficiency of
evidence and jury instructions are separate issues. Applying the plain error
standard to the jury instruction issue is appropriate because it is well established
that objections to jury instructions must be made at the time the jury is instructed.
See Fed. R. Crim. Pro. 30(d). Applying the plain error standard to the sufficiency
of evidence issue is not appropriate because there is a different well established

13

A138

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 22 of 33

rule – that such a motion does not need to state the grounds upon which it is based,
see supra p. 9. And a request for special findings of fact is required only in
nonjury trials, see Fed. R. Crim. Pro. 23(c). The equivalent in a jury trial – a
special verdict – is not only not required, but disfavored. See United States v.
Reed, 147 F.3d 1178, 1180 (9th Cir. 1998).

III.
CONCLUSION

The Court should review en banc the holding that a general motion for
judgment of acquittal does not preserve a sufficiency of evidence challenge based
on a post-trial change in the law. The holding creates a circuit split; the other
circuits’ view is the better one and the one consistent with well established law;
and the issue is important because it will affect the vast majority of sufficiency of
evidence claims based on Rehaif – and every other post-trial decision narrowing
the scope of a criminal statute.

Respectfully submitted,
DATED: July 15 , 2021

By s/ Carlton F. Gunn
CARLTON F. GUNN
Attorney at Law

14

A139

Case: 19-30213, 07/15/2021, ID: 12173086, DktEntry: 59, Page 23 of 33

CERTIFICATE OF COMPLIANCE

I certify, pursuant to Rule 32 of the Federal Rules of Appellate Procedure,
Circuit Rule 32-1, and Circuit Rule 40-1, that this petition is 4,188 words in
length.

DATED: July 15 , 2021

s/ Carlton F. Gunn
CARLTON F. GUNN
Attorney at Law

A140

______________________________________
No. ________________________
______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
KENNETH RANDALE DOOR, PETITIONER,
vs.
UNITED STATES, RESPONDENT.
______________________________________
CERTIFICATE OF SERVICE
______________________________________
I, Carlton F. Gunn, hereby certify that on this 21st day of September,
2021, a copy of the Petitioner’s Motion for Leave to Proceed in Forma
Pauperis and Petition for Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit were mailed postage prepaid, to the Solicitor
General of the United States, Department of Justice, Room 5614, 950
Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001, counsel for the
Respondent.
Respectfully submitted,
September 21 , 2021

s/ Carlton F. Gunn
CARLTON F. GUNN
Attorney at Law

